<html>
<title> - SPACE SHUTTLE COLUMBIA</title>
<body><pre>[Joint House and Senate Hearing, 108 Congress]
[From the U.S. Government Publishing Office]



                         SPACE SHUTTLE COLUMBIA

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                                AND THE

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION
                              U.S. SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2003

                               __________

                            Serial No. 108-2

                               __________

   Printed for the use of the House Committee on Science and Senate 
           Committee on Commerce, Science, and Transportation


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

85-090              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida                  VACANCY
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 DANA ROHRABACHER, California, Chairman
LAMAR S. SMITH, Texas                BART GORDON, Tennessee
CURT WELDON, Pennsylvania            JOHN B. LARSON, Connecticut
JOE BARTON, Texas                    CHRIS BELL, Texas
KEN CALVERT, California              NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
GEORGE R. NETHERCUTT, JR.,           DAVID WU, Oregon
    Washington                       EDDIE BERNICE JOHNSON, Texas
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JOHN SULLIVAN, Oklahoma              BRAD SHERMAN, California
J. RANDY FORBES, Virginia            DENNIS MOORE, Kansas
ROB BISHOP, Utah                     ANTHONY D. WEINER, New York
MICHAEL BURGESS, Texas               VACANCY
JO BONNER, Alabama                   RALPH M. HALL, Texas
TOM FEENEY, Florida
SHERWOOD L. BOEHLERT, New York
                BILL ADKINS Subcommittee Staff Director
                 ED FEDDEMAN Professional Staff Member
              RUBEN VAN MITCHELL Professional Staff Member
                 KEN MONROE, Professional Staff Member
                 CHRIS SHANK Professional Staff Member
         RICHARD OBERMANN Democratic Professional Staff Member
                      TOM HAMMOND Staff Assistant
                              U.S. SENATE
           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                 HON. JOHN MCCAIN, Arizona, Chairperson
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN O. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
         FLOYD DESCHAMPS, Republican Senior Professional Staff
               KEN LA SALA, Republican Professional Staff
         JEAN TOAL EISEN, Democratic Senior Professional Staff


                            C O N T E N T S

                           February 12, 2003

                                                                   Page

                           Opening Statements

Statement by the Hon. John McCain, U.S. Senator from the State of 
  Arizona; Chairman, Committee on Commerce, Science, and 
  Technology, U.S. Senate........................................     1

Statement by the Hon. Sherwood L. Boehlert, Representative from 
  the State of New York; Chairman, Committee on Science, U.S. 
  House of Representatives.......................................     2
    Written Statement............................................     3

Statement by the Hon. Ernest O. Hollings, U.S. Senator from the 
  State of South Carolina........................................     4
    Written Statement............................................     6

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science, U.S. House of Representatives....    61
    Written Statement............................................    62

Statement by the Hon. Ted Stevens, U.S. Senator from the State of 
  Alaska.........................................................    63

Prepared Statement the Hon. Frank R. Lautenberg, U.S. Senator 
  from the State of New Jersey...................................     6

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............     7

Prepared Statement by Representative Zoe Lofgren, Member, 
  Committee on Science, U.S. House of Representatives............     8

                                Witness

Sean O'Keefe, Administrator, National Aeronautics and Space 
  Administration; accompanied by Frederick D. Gregory, Deputy 
  Administrator, and William F. Readdy, Associate Administrator 
  for Space Flight
    Oral Statement...............................................     9
    Written Statement............................................    19

Discussion
  Effects of Budget Decisions on Shuttle Program.................    64
  Changes Needed to Assure an Independent Investigation..........    65
  Contractor Incentives and Obligations..........................    66
  NASA's Budget Request to OMB...................................    70
  Crew Escape Systems............................................    71
  Questioning NASA's Goals and Objectives........................    73
  History of Tile Damage and Loss................................    76
  Reiterating the Need for an Independent Investigation Board....    80
  ASAP's Safety Concerns.........................................    81
  Questioning an Aging System....................................    82
  Suggesting a Presidential Commission...........................    84
  ISS Contingency Planning.......................................    87
  Role of Automation and Robotics................................    90
  Crew Escape Systems............................................    93
  Replacing the Space Shuttle Orbiter............................   110
  NASA Workforce Legislation.....................................   111
  Manned vs. Unmanned Spacecraft.................................   112
  Thermal Tile Adhesive..........................................   113
  Debris Assessment and Need for Imagery.........................   115
  Re-evaluating NASA's Mission...................................   129
  Lessons From the Challenger Investigation......................   139

             Appendix 1: Answers to Post-Hearing Questions

Responses by the National Aeronautics and Space Administration 
  (NASA)                                                            148

             Appendix 2: Additional Material for the Record

National Aeronautics and Space Administration Charter of the 
  Aerospace Safety Advisory Panel, signed and dated May 1, 2003..   160

 
                         SPACE SHUTTLE COLUMBIA

                              ----------                              


                           FEBRUARY 12, 2003

     Subcommittee on Space and Aeronautics,
                  House of Representatives,
                      Committee on Science,
                            Joint with U.S. Senate,
                            Committee on Commerce, Science,
                                        and Transportation,
                                                    Washington, DC.

    The Committees met, pursuant to notice, at 9:35 a.m. in 
Room SR-325, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Senate Committee, presiding.

   OPENING STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM 
                            ARIZONA

    Chairman McCain. Good morning. I welcome my colleagues from 
the House Science Committee and Administrator O'Keefe.
    To keep this hearing to a reasonable length, I appreciate 
my colleagues' indulgence in limiting opening statements only 
to those of the chairmen and Ranking Members of the Senate 
Committee on Commerce, Science, and Transportation and the 
House Science Committee.
    Following Administrator O'Keefe's statement, all Members 
will be recognized for four minutes to ask questions. We will 
alternate between Senators and House Members for questions, 
which is the normal procedure in joint hearings of this nature.
    On February 1st, the Nation suffered a devastating loss. As 
the Space Shuttle Columbia descended from orbit, it broke 
apart. Debris from the accident is still being collected by 
government agencies and volunteers with the hope that this 
evidence will help determine the cause of the accident.
    The Space Shuttle crew was a remarkable team of 
professionals. They were and will always be role models for all 
Americans. Their dedicated service and sacrifice to promote 
scientific research not only for our country, but for the 
world, will never be forgotten. They paid the ultimate price in 
pursuit of not only their dreams, but the dreams of nations. 
For that, we will be forever grateful.
    As we look to the future of the space program, we can pay 
tribute to our fallen heroes by diligently carrying out our 
responsibilities as legislators. In today's hearing, we hope to 
examine what went wrong on February 1st, the status of the 
investigation, and how we can ensure that an accident like this 
will never happen again.
    This will be the first of a series of hearings on NASA and 
our space program. While today we're focusing on the Columbia, 
the accident also has focused our attention on the broader 
policy issues that perhaps we have neglected for too long. In 
subsequent hearings we will address the role of manned and 
unmanned space exploration, the costs and benefits of 
continuing the shuttle program, and our investment in the 
International Space Station and the effectiveness of NASA 
management. More fundamentally, we must examine the goals of 
our space program.
    I firmly believe that manned space exploration should 
continue. Its nature, however, should be and will be examined. 
We also must examine the extent to which Congress and the 
Administration may have neglected the Shuttle's safety program. 
A comprehensive examination necessitates a review of our own 
actions and those of the Administration to determine if the 
Shuttle program was underfunded or managed in a manner that 
compromised safety.
    I applaud Administrator Sean O'Keefe and NASA for their 
openness and availability. This has been an extraordinarily 
trying time for everyone in the agency. The Administrator and 
other officials have conducted themselves in a manner worthy of 
an agency that is not only a national brain trust, but is 
entrusted with realizing the dreams of all humanity. Many have 
noted the vast improvement of the release of information, as 
compared to the Challenger tragedy of 1986.
    I would like to assure the families of the brave men and 
women who died aboard the Columbia and the dedicated employees 
of NASA that we will do everything in our power to identify the 
cause of this tragedy and remedy it.
    I thank Administrator O'Keefe and his team for appearing 
before us today, and I look forward to the testimony.

  STATEMENT OF HON. SHERWOOD L. BOEHLERT, U.S. REPRESENTATIVE 
                         FROM NEW YORK

    Chairman Boehlert. We usually open hearings by talking 
about what a pleasure it is to be here today. But, of course, 
that is not the case. I'm reminded of what Lyndon Johnson said 
when he appeared before Congress after the Kennedy 
assassination. He said, ``All I have, I gladly would have given 
not to be standing before you today.'' I'm sure that is the way 
we all feel with the tragic loss of the Columbia crew so fresh 
in our minds and in our hearts.
    But we owe it to those astronauts and their families and to 
the American public to work as hard as humanly possible to 
determine the cause of the Shuttle's breakup and to rigorously 
pursue all the policy questions the accident brings to a head.
    I view this hearing as a start of a very long conversation 
we will all be having about the Columbia incident and its 
ramifications. I think that it's very appropriate that we start 
that conversation on a bicameral basis, and I want to thank 
Senator McCain for being so willing to make this a Joint 
Hearing. The House and the Senate and NASA are going to have to 
cooperate as we each review the accident and the human space 
flight program, and our joint work today should send a clear 
signal that we can and will do just that.
    We will also be coordinating with the Columbia Accident 
Investigation Board headed by Admiral Gehman. I've spoken to 
Admiral Gehman, and I am impressed with the Admiral's 
determination to be independent and deliberate, vowing to be 
swayed neither by outside pressures or artificial deadlines. 
And I appreciate the swiftness with which Administrator O'Keefe 
activated the board.
    That said, the more I've read the board's charter, the more 
I've become convinced that it must be rewritten. The words of 
the charter simply do not guarantee the independence and 
latitude that both the Administrator and the Admiral have 
sincerely promised. The charter's words need to match 
everyone's intent now to avoid any problems later. I also 
continue to believe that several more members should be added 
to the board to ensure that it has the appropriate breadth of 
experience and expertise.
    We will be working closely with the board as the Science 
Committee proceeds with its own bipartisan investigation, which 
will focus on the many policy questions raised by the accident. 
We're going to have to raise some tough and basic questions 
that have gone unanswered for too long.
    What are the true risks of flying the Shuttle, especially 
if it's going to remain in service for another 10 to 15 years? 
What are the true costs of continuing the Shuttle program at 
specific levels of risk? And what are the advantages of 
investing in the Shuttle, as compared to investing in other 
NASA programs, other R&D programs, and, indeed, other 
government programs, in general?
    But we can't begin to deal with those overarching issues 
until we have a better sense of what happened to the Columbia 
and why, and it's obviously too soon to expect to know that.
    No one should expect any revelations at today's hearing. We 
are here today to get a status report. We ought to avoid 
pronouncements today that we may later come to regret.
    I'm reminded of an interview I once read with an executive 
of the utility that owned Three Mile Island at the time of the 
accident there. He was asked, ``What was the worst thing you 
did in handling the accident?'' He answered immediately. He 
said, ``We just didn't have the presence of mind to say, `I 
don't know.' ''
    I would advise Administrator O'Keefe, who has responded 
magnificently in this time of crisis, don't hesitate to say, 
``I don't know.'' You're still in search of elusive answers.
    Despite the best of intentions, NASA has at times already 
put out misleading information because it didn't check the 
facts. For example, information indicating that environmental 
rules could have contributed to the accident have so far turned 
out to be entirely spurious, but it's taken NASA a long time to 
clarify its statements.
    Today is a chance to put facts into the record, facts that 
will help chart NASA's future. If we are to find the facts and 
honor the memory of the Columbia crew, we have to approach our 
task in a true spirit of exploration, with open and probing 
minds, without preconceived notions or foregone conclusions. 
That should be our goal today.
    Thank you, Mr. Chairman.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    We usually open hearings by talking about what a pleasure it is to 
be here. But of course today that is not the case. I'm reminded of what 
Lyndon Johnson said when he appeared before Congress after the Kennedy 
assassination: ``All I have, I gladly would have given, not to be 
standing before you today.'' I'm sure that is the way we all feel, with 
the tragic loss of the Columbia crew so fresh in our minds and in our 
hearts.
    But we owe it to those astronauts and their families, and to the 
American public, to work as hard as is humanly possible to determine 
the cause of the Shuttle's breakup and to rigorously pursue all the 
policy questions the accident brings to a head.
    I view this hearing as the start of a very long conversation we 
will all be having about the Columbia incident and its ramifications. I 
think that it's very appropriate that we start that conversation on a 
bicameral basis, and I want to thank Senator McCain for being so open 
to making this a joint hearing. The House and the Senate and NASA are 
going to have to cooperate as we each review the accident and the Human 
Space Flight program, and our joint work today should send a clear 
signal that we can and will do just that.
    We will also all be coordinating with the Columbia Accident 
Investigation Board, headed by Admiral Gehman. I spoke to Admiral 
Gehman earlier this week, as did our Committee staff on a bipartisan 
basis. I am impressed with the Admiral's determination to be 
independent and deliberate, vowing to be swayed neither by outside 
pressures or artificial deadlines. That's the right attitude, and we 
will be watching to ensure that it guides the Board's proceedings.
    We will be working with Admiral Gehman as the Science Committee 
proceeds with its own bipartisan investigation, which will focus on the 
many policy questions raised by the accident. In the end, we must have 
a full appraisal and open debate about the true risks of flying the 
Shuttle, the true costs of continuing the Shuttle program at specific 
levels of risk, and the comparative advantages of investing in the 
Shuttle as opposed to other NASA programs, or indeed as opposed to 
other R&D programs or government programs, in general.
    But we can't begin to deal with those overarching issues until we 
have a better sense of what happened to the Columbia and why, and it's 
obviously too soon to expect to know that. No one should expect any 
revelations at today's hearing. We are here today to get a status 
report.
    We all ought to avoid pronouncements today that we may later come 
to regret. I'm reminded of an interview I once read with an executive 
of the utility that owned Three Mile Island at the time of the accident 
there. He was asked, ``What was the worst thing you did in handling the 
accident?'' He answered immediately. He said, ``We just didn't have the 
presence of mind to say, 'I don't know.''' I would advise Administrator 
O'Keefe, who has responded magnificently in this time of crisis: don't 
hesitate to say, ``I don't know.''
    Despite the best of intentions, NASA has already sometimes put out 
misleading information because it didn't check the facts. For example, 
information indicating that environmental rules could have contributed 
to the accident has so far turned out to be entirely spurious. But it's 
taken NASA a long time to clarify its statements.
    One reason I believe that today's hearing can be useful is that 
with so much information is already floating around from so many 
sources, it's important that Congress and NASA have an opportunity to 
create a clear record of where things stand at this point.
    It's especially important today that we get a clear sense of how 
NASA will handle the investigation and what contingency plans are in 
place should the Shuttle be grounded for an extended period of time. 
I'm sure we will also examine how NASA had been viewing the long-range 
safety of the Shuttle prior to the accident and how this may already 
have changed.
    All of us are still mourning the loss of the Columbia crew, but we 
must now turn to planning the future. And we can do that only in a true 
spirit of exploration--with a full and open examination of all the 
facts, without preconceived notions or foregone conclusions. That 
process starts today. Thank you.

    Chairman McCain. Senator Hollings.

 STATEMENT OF HON. ERNEST O. HOLLINGS, U.S. SENATOR FROM SOUTH 
                            CAROLINA

    Senator Hollings. Thank you very much, Mr. Chairman, for 
calling this meeting. We welcome our colleagues from the House 
side and my old friend, Administrator O'Keefe. We're glad to 
have you with us.
    Chairman Boehlert, I got the message, ``Let's don't jump to 
conclusions.'' I'm reading in the morning paper a similar 
message--Admiral Gehman said that ``the investigation with 
solid evidence thus far hard to come by.'' On the contrary, we 
have a lot of solid evidence that we've come by, and I sort of 
discern some kind of eery avoidance here of what really 
happened.
    Here is the hard evidence. NASA's had a long history of 
problems with the Shuttle's heat tiles. We know that the 
Columbia's VERY first mission, many of the tiles flew off. 
That's 22 years ago. In 1994, a study entitled the Risk 
Management for the Tiles of the Space Shuttle, by Stanford and 
Carnegie Mellon University, found that 15 percent of the 
Shuttle's tiles account for 85 percent of the risk. And that 
was confirmed by a 1997 study by the National Academy of 
Sciences.
    Then a study by the Johnson Space Center in March of 2000 
found that the leading edges of the wing, quote, ``pose the 
highest risk for critical failure,'' end quote. And then during 
the launch of the Columbia on January the 16th, we have video 
evidence of debris striking the Shuttle orbiter 81 seconds 
after launch, potentially causing a gash in the left wing of 
some 30 inches long, seven inches wide, and over two-and-a-half 
inches thick. And then 18 minutes from landing, the Shuttle was 
pitching and yawing due to drag on the left wing.
    And, of course, this morning's paper says that as it was 
coming down, and I'm quoting the Mission Control, ``FYI,'' for 
your information, ``I've just lost four separate temperature 
transducers on the left side of the vehicle, hydraulic return 
temperatures,'' he calmly reported.
    Again quoting, eight minutes before all communications was 
lost, Mr. Kling noticed the loss of data from temperature 
gauges on the left wing on the spacecraft as he monitored the 
Shuttle's descent into the atmosphere. A few moments later, Mr. 
Kling reported drag on the spaceship, but controllers expressed 
no alarm.
    And, finally, the elevons, the picture that showed the 
elevons, tried to counteract that drag in engine thrusters to 
help it gain control, because a minute before the explosion, 
the U.S. Air Force captured that picture of the Shuttle showing 
a bulge of deformity along the front edge of the left wing. 
Right on down the list.
    Mr. Administrator, I would think, in the testimony, we all 
agree that we don't want to jump to conclusions. We all agree 
to be very thorough and leave no stone unturned, but we do have 
a rebuttable presumption here that the damage to the left wing 
at the time of liftoff was the cause. And let's rebut it. Let's 
find something. But don't all of a sudden be discovering debris 
all around and all of these other things that pant one way and 
say we have no idea what happened.
    I have been in these investigations before, and we knew 
exactly what happened at the Challenger. Allen McDonald said he 
was in the control room. They had warned not to take it off. It 
was going to cause a catastrophe. And he said one gentlemen 
said, ``There she goes.'' Another one said, ``Like a piece of 
cake.'' Then he said it exploded, and everyone in the room knew 
why. We spent years investigating to find out the same thing 
that we knew immediately at the time of explosion.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Senator Ernest O. Hollings

    I would like to begin by offering my condolences to the family 
members of the Space Shuttle Columbia crew of mission STS-107. These 
heroes gave their lives in the advancement of science and all Americans 
should be overwhelmed by their sacrifice. The Columbia crew was on a 
special mission to conduct scientific research in outer space. As a 
strong supporter of scientific research, I'm grateful to all the men 
and women of NASA who undertake such endeavors to advance scientific 
knowledge.
    Welcome Administrator O'Keefe. You are here today to provide my 
distinguished colleagues and I with answers of how this tragedy was 
allowed to happen. There is a question as to whether this committee has 
consistently provided NASA with the funds it has requested for the 
Space Shuttle program. We want to get to the bottom of this accident so 
that we can ensure that it does not happen again.
    Now I know that the NASA engineers have developed this ``fault 
tree'' to identify all the possible causes of this tragic event. 
Branches are continually added, but nothing is eliminated. 
Investigators are exploring every lead, but the facts of the matter 
are:

        <bullet> We have video evidence of debris striking the Shuttle 
        orbiter 81 seconds after launch. Engineers estimated the 
        damaged tile area in the left wing to be 30 inches long by 7 
        inches wide, yet there was no concern for the tiles failing 
        upon re-entry into the Earth's atmosphere.

        <bullet> NASA's had a long history of problems with the heat 
        tiles. These problems date back to 1981 when the first Columbia 
        launch came back with lost or damaged tiles.

        <bullet> NASA has recognized the tile problem. Numerous 
        studies have been conducted. In 1990 a study found that 15 
        percent of the Shuttle's tiles account for 85 percent of its 
        risks and recommended that improving maintenance procedures 
        could reduce the probability of tile related Shuttle accidents 
        by 70 percent.

        <bullet> Less than 18 minutes from landing, the Shuttle was 
        pitching and yawing due to drag on the left wing. Its elevons 
        tried to counteract the drag and engine thrusters had fired to 
        gain control.

    It is clear that we have a rebuttable presumption to go forward 
with the investigation to focus the examination on how the tiles failed 
causing the catastrophic failure.

    Chairman McCain. Thank you, Senator Hollings.
    Congressman Hall hasn't arrived yet, so we will proceed to 
Mr. O'Keefe, the Administrator of the National Aeronautics and 
Space Administration. He's accompanied by Mr. Frederick D. 
Gregory, who is the Deputy Administrator, and Mr. William 
Reedy, the Associate Administrator for Space Flight. If you'd 
like to join--or they can remain where they are.
    And, again, I want to thank you for the extreme willingness 
on your part to share all information that you have with not 
only Members of Congress, but with the American people.
    Please proceed, Mr. O'Keefe, and I hope you understand that 
we're interested in as thorough a briefing as possible, as are 
Americans who are viewing this hearing today.
    Thank you.
    [The prepared statement of Senator Lautenberg follows:]

           Prepared Statement of Senator Frank R. Lautenberg
Mr. Chairman,

    Today's hearing on the Space Shuttle Columbia disaster and the 
hearings likely to follow in the weeks and months ahead will bring 
additional pain to that which we already feel while in a period of 
mourning for seven brave, exceptional human beings in the prime of 
life. The hearings will also bring pain because, frankly, indications 
are that some earlier warnings might have raised questions about 
whether or not presumption of risk was insufficiently reviewed.
    The Space Shuttle Columbia disaster forces us to ask difficult 
questions. The Federal Government has spent more than $60 billion on 
the Space Shuttle program, the International Space Station, and the X-
33/VentureStar Space Plane (which advocates believed would replace the 
Shuttle). Our fleet of Shuttles is grounded at least until we determine 
what caused the Columbia accident and fix it; the three-person crew of 
the Space Station spends 80 percent of their time on maintenance; and 
the Bush Administration has canceled the Space Plane project. As a 
result of that cancellation, we now intend to continue using Shuttles 
at least until 2012, and possibly beyond 2020. Some of the technology 
on the Shuttles is 30 years old. We never intended to use them this 
long.
    I want to make it clear that I feel that the Shuttle astronauts 
made a major contribution to our effort to assess the value to 
humankind of research in space, and I grieve over their deaths. The 
desire to reach for the stars is as old as human history and the 
ambitions embodied in our manned space program are noble ones. But we 
have had two fatal accidents in 113 Shuttle missions. Many people have 
become inured to the dangers inherent in sending people into space and 
bringing them back safely. But the fact is, it's a high-risk venture. 
Some risk is unavoidable--that's what makes our astronauts such brave 
individuals. But are we willing to divert precious resources available 
for other essential research and experimentation planned or in place to 
reduce the risks of manned space exploration to the point where they 
become acceptable?
    Because of the downturn in the economy that started in March 2001, 
the September 11th terrorist attacks, and the tax cuts enacted that 
year, we are facing federal budget deficits ``as far as the eye can 
see.'' And now the Administration proposes to reduce federal revenues 
even more. How can we guarantee that we can spend what it takes to make 
the space effort safer and successful? If we make the investment 
necessary, what benefits will we reap from continued Shuttle 
operations? What are the ``opportunity costs'' of such an investment? 
In other words, what other national priorities will suffer in the 
battle for scarce funds? Our manned space exploration program has been 
long on ambition but increasingly short on the hard-headed assessments 
needed to answer these fundamental questions.
    Manned space exploration isn't cheap. If we try to do it on the 
cheap, we put safety--and people's lives--at risk. I'm sure we will 
hear in testimony today and in the future that safety has never been 
compromised. But NASA has always had problems overseeing its 
contractors. And the National Research Council has concluded that the 
contract to manage the Shuttle program awarded to United Space Alliance 
in 1996 contained financial incentives for investments in efficiency, 
but not for investments in modernization and safety improvements.
    Much of today's hearing and the hearings to come will focus on 
technical matters--possible causes of the Columbia accident, possible 
safety improvements. I am interested to know, for instance, what 
steps--if any--NASA took to ensure Columbia's safe re-entry after 
determining that debris--presumably foam insulation from the fuel 
tank--hit and may have damaged the left win during lift-off. I am also 
interested in learning from NASA Administrator Sean O'Keefe what 
additional safety precautions might have been assured with greater 
funding. And I want to know what safety upgrades, if any, were made 
after the Columbia space flights scheduled for August 2000 and March 
2002 were postponed.
    In the course of today's hearing and future hearings, we will also 
scrutinize NASA's relationship with its contractors. We will also 
review Congress's relationship with NASA. We will analyze 
Administration budget requests for NASA past and present.
    I hope our investigation will be more about fixing problems than 
fixing blame--although determining accountability obviously is 
important. But beyond such immediate concerns, I hope we will address 
the harder question about whether the benefits outweigh the risks when 
we send people into space at this time and in the current fashion when 
unmanned missions can almost entirely match the quality of human 
participation.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee
Mr. Chairman,

    Thank you for calling this hearing and bringing us all together to 
speak and learn about the Columbia tragedy. This is a tough time for 
all of us from the Houston community, but especially for the team at 
Johnson Space Center. To the world those astronauts were valiant 
heroes; to us they were also friends, neighbors, and family--or as the 
Houston Chronicle proclaimed them, ``The Heroes Next Door.'' I am 
impressed by the diligence, progress, and openness of the NASA 
investigators that we have all been getting to know through the press.
    Those investigators have a difficult job ahead, and it is essential 
that that job be done well. We must find all the available facts, and 
we must not jump to hasty conclusions. It seems that the data is 
pouring in, in the form of video, computer analysis and collection of 
debris. I am concerned by reports of loose foam or ice that may have 
damaged the left wing during liftoff, especially since this may have 
been a problem in a past mission. I want to know what was done to keep 
such chunks from detaching and striking our multi-billion dollar 
Shuttle, entrusted with the lives of 7 Americans.
    However, we cannot be myopic and disregard or short-change other 
evidence and explanations. The inquiries must be methodical and 
objective. The team must leave no room for suspicion of cover-up or 
sloppiness. The families of the seven valiant crew members that lost 
loved ones deserve to know why this tragedy happened, as do the 
American people. Most importantly, we owe it to our brave future 
astronauts to show them our commitment to their safety.
    I am pleased that after we Democrats in the Science Committee sent 
a letter to the President expressing our concerns about the 
independence of the investigatory board, that the hearing and make-up 
of the board were changed. However, I feel there is still room for 
improvement. I recommend the inclusion of Nobel Laureates, 
academicians, and depending on their interests--perhaps family members 
of lost crew. It is important that the team is weighted toward bright 
people, who are not employees of NASA, and who do not have close 
personal ties to NASA or the Administrator.
    The conclusions we all reach must not only be in the form of, 
``Part A broke, and part B got too hot.'' We must discern what were the 
factors that led to those parts being included in a vehicle entrusted 
with seven lives and such an important mission. What were the quality 
assurance protocols? Were corners cut?
    Furthermore, this investigation needs to be expeditious. We have 
three Space Shuttles with critical missions already planned. We also 
have the International Space Station, with three astronauts high up 
above us waiting to hear their own futures. Thankfully, we have 
partnered with our Russian allies and others and ensured that we have 
the means to get those astronauts home, even though we may need to 
ground our own fleet for some time. However, we cannot continually 
place American lives in the hands of another nation for long. Nor can 
we risk losing the use of the International Space Station that we have 
been working so hard, and investing so much, to achieve.

    [The prepared statement of Ms. Lofgren follows:]

            Prepared Statement of Representative Zoe Lofgren

    I'd like to thank Congressman Boehlert and Senator McCain for 
convening this hearing. Over the next few months, we will be asking 
some tough questions related to the breakup and loss of the Columbia, 
and the future of the United States space program. But first, our 
country has paused to reflect on the heroism of the seven astronauts 
who gave their lives so that the dreams of humans reaching for the 
stars can live forever. My thoughts go out to the families of our 
fallen, and to the extended NASA family.
    I am pleased the NASA Administrator Sean O'Keefe has joined us here 
today. I look forward to hearing from and working with you and the 
dedicated and hard working members of the NASA employee family, as we 
seek answers to our concerns about the future of the United States 
space program. I trust that you will ask us for help, keep us informed 
and be prepared to make your recommendations to this committee that 
will help us be able to move our space program forward. I firmly 
believe this committee must focus on asking the difficult questions 
that relate to how we are best able to resume our quest to explore 
space.
    This committee must work in a nonpartisan manner and should not 
waste any time in trying to assess blame or create excuses for things 
that should have been done to help prevent this immense tragedy and 
loss. To do so would be a waste of time and money and, more 
importantly, would dishonor the sacrifices made of the brave Columbia 
crew and devalue the efforts being made by all who seek to ensure that 
this never happens again.
    I believe that our pursuit of answers to this tragedy would best be 
served by the appointment of a truly independent board of inquiry, much 
like President Reagan appointed after the Challenger disaster. Until 
that happens, Mr. O'Keefe, I am pleased that you accepted some of the 
recommendations contained in a letter sent to the President last week 
by 16 Democratic members of the House Science Committee. I am sure many 
of our Republican colleagues would have joined us in expressing our 
concerns about the composition of the review board, and I am confident 
they would have echoed our concerns. Without these changes, I believe 
the results of this work would have been viewed with great skepticism 
and certainly would have suffered without the added, independent 
expertise of the new members of the board. Just as Columbia's crew went 
into space seeking to expand our knowledge of space, we must do all in 
our power to ensure that our investigations will answer more questions 
than they create.
    Mr. Chairman, I am committed to sending humans into space. We are 
explorers by nature, and I believe we must explore our own planet and 
those beyond. I believe these hearings need to focus not only on 
investigating the policy concerns that led to the Shuttle tragedy, but 
where we go from here in the exploration of space.

        <bullet> Has NASA shifted monies to the ISS and away from the 
        Shuttle program?

        <bullet> Are we going to develop the next generation of space 
        vehicle, and should we pursue a single-stage-to-orbit program?

        <bullet> Should we also develop the use of expendable rockets 
        to ferry equipment and personnel to the International Space 
        Station?

        <bullet> Are we prepared to fund this program--as I think we 
        should--in the current budget climate?

    With this in mind, I believe this committee can best honor the 
memory of Columbia's crew by conducting an honest examination of the 
role, if any, of recent budget cuts played in this disaster. Should we 
take this opportunity to acknowledge that the Space Shuttle has never 
lived up to its dreams of being a cost effective way of traveling to 
space? Or are we better served by pursuing a new generation of space 
vehicles, one that can take advantage of the tremendous advances in our 
knowledge and our technologies than those present in the remaining 
Shuttle fleet?

STATEMENT OF SEAN O'KEEFE, ADMINISTRATOR, NATIONAL AERONAUTICS 
AND SPACE ADMINISTRATION; ACCOMPANIED BY FREDERICK D. GREGORY, 
    DEPUTY ADMINISTRATOR, AND WILLIAM O. READDY, ASSOCIATE 
                 ADMINISTRATOR FOR SPACE FLIGHT

    Mr. O'Keefe. Good morning. Thank you, Mr. Chairman, 
Chairman Boehlert.
    I appreciate the opportunity to appear before this hearing 
of the Senate Commerce, Science, and Transportation Committee 
and the House Science Subcommittee on Space and Aeronautics to 
discuss the tragic loss of the courageous crew of the Space 
Shuttle Columbia----
    Chairman McCain. Could you pull the microphone a little 
closer?
    Mr. O'Keefe. --the ongoing investigation into this tragedy 
and the implications of the loss of Columbia to the Nation's 
space exploration efforts.
    This morning, 11 days after the accident, our work 
continues to honor the solemn pledge we made to the astronauts' 
families and to the American people, that we'll find out what 
caused the loss of the Columbia and its crew, correct what 
problems we find, and do our utmost to make sure this never 
happens again.
    We welcome the Joint Committee's interest in working with 
NASA to determine how we can learn from this tragic accident so 
that we continue advancing the Nation's research and 
exploration objectives in space while at the same time striving 
to ensure that we make human space flight as safe as possible.
    Throughout NASA's 45 years of serving the public interest, 
Congress has been our partner helping us achieve the goals 
outlined in NASA's congressionally authorized charter. This 
charter compels NASA to explore, use, and enable the 
development of space for human enterprise; advance scientific 
knowledge and understanding of the Earth, the solar system, and 
the universe; and use the environment of space for research; 
research, develop, verify, and transfer advanced aeronautics, 
space, and related technologies.
    With the support of Congress, NASA has amassed a record of 
significant achievements that have tangibly improved the lives 
of all Americans. And when we have erred, you have helped us 
right our course.
    This morning, you'll be asking tough questions, and that's 
as it should be. Believe me, none of the questions that you 
will ask can be any tougher than those we're asking of 
ourselves. I can assure you, however, that whatever 
determinations are reached regarding the cause of the accident, 
you'll find that complacency is not one of them.
    An ethos of safety is evident throughout the agency. For 
example, last year we temporarily halted Shuttle flight 
operations when tiny cracks of less than two inches were 
discovered in metal liners used to direct the fuel flow inside 
the propellent lines on two separate orbiters. We did not fly 
again until that problem was corrected. In a signal of our 
continuing commitment to rewarding such diligence, we also made 
it a point to praise a very young examiner, a fellow named 
David Strait, the young contract employee who had actually 
discovered the cracks.
    Other flight decisions made throughout the year were made 
with the goal of operational safety being paramount. And from 
working with the dedicated employees who keep the Shuttle 
flying safely, I know they have the utmost regard for the 
enormity of that duty.
    This week, at NASA centers throughout the country and in 
the field, with the support of more than 2,000 people from more 
than 20 federal agencies, state and local organizations, the 
important work of data analysis and recovery operations is 
continuing. We should all be extremely proud of the work that's 
being conducted by these dedicated public servants.
    President Bush observed last week, ``The people of NASA are 
being tested once again. In your grief, you are responding as 
your friends would have wished, with focus, professionalism, 
and unbroken faith in the mission of this agency. Captain Brown 
was correct, America's space program will go on.'' We intend to 
maintain that professionalism he referred to until we reach 
conclusion and beyond.
    This morning, to help frame our discussion, I'd like to 
review for you the significant actions NASA has taken since the 
morning of the accident in accord with our contingency plan. In 
addition to articulating notification of first-response 
procedures defining the roles and responsibility of mishap 
response and Mishap Investigation Teams, the plan specifies 
selections of persons outside of NASA to head an independent, 
seasoned, accident investigation team. Now, while we did not 
foresee this tragedy, our response has unfolded as we had 
planned and prepared for in that contingency plan that we had 
hoped to never have to activate.
    This plan was one of many positive outcomes from the 
terrible loss of the Space Shuttle Challenger 17 years ago. So 
we developed the plan shortly after that and have updated it 
before every flight. And a contingency was simulated for this 
very event just three months ago.
    When we first became aware of the problems with STS-107, I 
was waiting at the Space Shuttle landing strip at the Kennedy 
Space Center, Cape Canaveral, on Saturday morning, February the 
1st. At 8:59 a.m. eastern time, we lost communication with the 
Columbia. At 9:16, the countdown arrival clock reached zero, 
and there was no signal or sign of the Columbia. Captain Bill 
Readdy, our Associate Administrator for Space Flight and a 
former astronaut, declared a space flight contingency and 
activated the recovery control center at the Kennedy Space 
Center. At that point, Bill Readdy and I departed the landing 
strip and headed to the launch control center.
    We arrived at the launch control center 13 minutes later. 
At 9:29 a.m., we activated the contingency action plan for 
space flight operations. Through the White House situation 
room, we notified the President as well as other senior staff 
of the loss of communications. In addition, Members of Congress 
and the Government of Israel were notified. Homeland Security 
Secretary Tom Ridge and the National Security Council were also 
made aware of the situation and were present there in the 
situation room that morning.
    Secretary Ridge then began assessing the possibility that 
this situation was terrorism related. Shortly after, he made 
the determination it was highly unlikely terrorism was 
involved. Secretary Ridge then announced that the Federal 
Emergency Management Agency would be the lead federal agency 
for the recovery effort on the ground.
    Meanwhile, the family members of the Columbia astronauts 
were escorted from the landing strip to the astronauts' crew 
quarters. Later that morning, at about 11:30, we met with the 
families at the crew quarters at Kennedy Space Center to 
express our condolences, offer any and all support we could 
give, and assure them that we would offer that support 
throughout this entire ordeal, and stated our commitment to 
find the cause of the accident, fix the problems we find, and 
continue the work that their loved ones had started.
    Data at all the NASA sites and contractors were impounded 
at 10 a.m., and the headquarters action team in Washington, 
D.C., was activated with NASA personnel moving immediately to 
their duty stations. By 10:30, an hour after the contingency 
plan had been activated, the mishap response team convened to 
assess the preliminary data and focus on the location of the 
crew compartment through the Rescue Coordination Center at 
Langley Air Force Base in Virginia. The rapid response team was 
activated for deployment to Barksdale Air Force Base in 
Louisiana that day.
    The process of initiating the Columbia Accident 
Investigation Board began about 10:30 a.m. on Saturday, 
February 1st, one hour after the contingency plan was 
activated. I placed a call to the NASA deputy administrator, 
Fred Gregory, also a former astronaut, who was at NASA 
headquarters in Washington. Mr. Gregory then began calling the 
Columbia Accident Investigation Board members, which are 
specified by position in the contingency action plan.
    At 1:15 that afternoon, I made a brief televised statement 
expressing our national regrets for the tragic accident and 
informed the public about the appointment of the Columbia 
Accident Investigation Board.
    The Accident Investigation Board was formally activated 
during the NASA Mishap Investigation Team teleconference, which 
occurred at 5 p.m. that afternoon, Saturday, February the 1st, 
less than eight hours after the event.
    By 6 p.m., during a teleconference with the White House 
situation room, we briefed officials from the Department of 
Homeland Security, the Federal Emergency Management Agency, the 
Department of Defense, the FBI, and the Federal Aviation 
Administration about the current status of the accident 
investigation.
    At 6:40 that evening, staff members of the National 
Transportation Safety Board departed Washington and traveled to 
Barksdale Air Force Base in Louisiana to assist as part of the 
Mishap Investigation Team, that day. They were later made 
available to the Columbia Accident Investigation Board.
    On Sunday, February the 2nd, the Accident Investigation 
Board, chaired by retired United States Navy Admiral Hal 
Gehman, held its first meeting at Barksdale Air Force Base in 
Louisiana, less than 30 hours after the accident. We also began 
the practice of twice-daily briefings at headquarters in 
Washington and at the Johnson Space Center in Houston.
    Membership of the Columbia Accident Investigation Board 
consists of persons selected for their positions in heading 
civil and military offices with responsibility for aerospace 
safety, accident investigations, and related skills. Many have 
been chief investigators on major accidents. And between them, 
board members have the experience of some 50 major 
investigations to draw upon. Quite simply, the people who are 
now on the board are some of the best in the world at what they 
do, and they were activated immediately. You have our assurance 
that this distinguished board will be able to act with genuine 
independence.
    When the board assembled, it modified its charter to 
eliminate any reference to NASA directing the administration of 
the investigation. The framework that was contained in the 
contingency plan was modified and will continue to be to ensure 
the independence of this board. NASA accepted the changes to 
the charter without objection, as I will continue to do in the 
future, as well, for any changes they propose.
    Further, the NASA Inspector General Robert Cobb is an 
observer on the Columbia Accident Investigation Board, having 
arrived on Monday, February the 3rd. He will help assure the 
independence of the board, as he reports both to the President 
and to the Congress under the terms of the Inspector General 
Act.
    There are additional details about the Columbia Accident 
Investigation Board and its activities that are, I think, 
important to note. The board has taken over hardware and 
software releases of NASA so that we cannot alter anything 
unless the board approves. We've already begun to honor 
document requests from the board, as we have all along, and 
have also supplied additional documents to the board which were 
not requested, but we believe might be helpful in their work as 
we move along. And, finally, the board has instructed NASA to 
conduct a fault-tree analysis that it intends to independently 
validate, to look at all the possible causes that could have 
occurred and to examine those in a very methodical way, which 
they will then, in turn, independently validate.
    On Sunday, the NASA Mishap Investigation Team was on the 
ground and working with local officials in Texas and Louisiana. 
The State of Texas activated 800 members of the Texas National 
Guard to assist with the retrieval of debris, and I am 
eternally grateful to Governor Rick Perry for his immediate 
response within hours of our request.
    By Tuesday, there were nearly 200 NASA and NASA contractor 
personnel working recovery operations in Texas, Louisiana, 
Arizona, and California. They were part of the more than 2,000 
people from Federal Emergency Management Agency, the 
Environmental Protection Agency, the FBI, the Department of 
Defense, Department of Transportation, the U.S. Forest Service, 
Texas National Guard, Louisiana National Guard, and state and 
local authorities working to locate, document, and collect 
debris.
    By Wednesday, the astronauts' remains were transferred to 
Dover Air Force Base in Delaware. At Dover, NASA Deputy 
Administrator Fred Gregory, and former astronaut, and 
ceremonial honor guard were present to pay our respect to the 
seven fallen astronauts.
    Throughout the week, we were able to make steady progress 
in our efforts to recover debris from the accident. We have, 
thus far, recovered upwards of 12,000 elements of debris. The 
search effort, as you know from our press conferences, is a 
large, complex, and ongoing effort with hundreds of square 
miles with challenging weather and terrain conditions. And, 
indeed, the graphic that's up now is that 500-mile swath from 
Dallas/Fort Worth area to just south of Shreveport, Louisiana, 
in and around the Lufkin, Texas, area.
    We're very grateful that no one was injured on the ground 
as a result of flying debris from the accident, and we're 
working with our agency partners to assure recovery operations 
remain safe as we continue this effort.
    Throughout the course of this activity, I've also briefed 
the President and the Vice President on a near-daily basis to 
advise and apprise them of all the progress we're making, as 
well as the cooperation of all of the federal agencies, who 
have been extremely participating in this effort.
    The Federal Emergency Management Agency command post was 
set up in Lufkin, Texas, on Saturday, the 1st of February, and 
has been operating nonstop since then. Debris collection 
activities began at Barksdale Air Force Base on Sunday, 
February the 2nd.
    Yesterday, we began transporting debris on trucks to the 
Kennedy Space Center where they'll be assembled and analyzed as 
part of the comprehensive accident investigation directed by 
the Gehman board.
    I visited Texas and Louisiana this past Saturday to get my 
own assessment of the operation, but, more importantly, to 
personally thank the volunteers, in addition to all the 
federal, state, and local public servants, who have been 
working so tirelessly to support the debris recovery effort.
    Let me touch briefly on the Space Shuttle fleet as it is 
today. Discovery is continuing to undergo major inspections and 
upgrades, which will be completed by April of 2004. Atlantis is 
currently assembled and stacked in a Vehicle Assembly Building 
at the Kennedy Space Center for STS-114, the next mission due 
to have, or planned to have, been flown. The Endeavour, the 
third of the orbiters, is in the Orbiter Processing Facility 
and being prepared for STS-115, which was scheduled a couple of 
months later.
    The next Shuttle mission, STS-114, was to have been to the 
International Space Station in March, that mission commanded by 
Colonel Eileen Collins, United States Air Force. And I met with 
her on Friday to further advise that the mission is on hold 
until we understand the causes of the Columbia accident and are 
able to resolve any issues identified.
    At this time, we don't know how long it will be before we 
can resume Shuttle flights. We will only know when the Columbia 
Accident Investigation Board concludes its work and presents 
its findings to all of us.
    Columbia was the first orbiter in the Shuttle fleet, having 
flown 28 successful missions, or just over a quarter of its 
certified life of a hundred flights. In February 2001, a little 
over a year ago, Columbia completed a major scheduled 18-month 
overhaul and update of its systems, a process we call ``Orbiter 
Major Modifications.'' The STS-107 mission was Columbia's 
second flight following that major overhaul. A successful 
servicing mission that had been conducted, the first one, was 
to the Hubble Space Telescope in March of 2002. So this was the 
second flight after it had been nearly completely rebuilt.
    Prior to the loss of Columbia and her crew, the projected 
Shuttle flight rate was five per year, starting in 2004, and 
funding is requested for that flight rate in the budget the 
President just submitted last week. The flight rate will be 
adjusted as needed, of course, once we determine when we can 
return to flight safely.
    The crew of the International Space Station is, of course, 
deeply saddened by the loss of Columbia and her crew, as are 
all of our partners and people around the world. I spoke with 
International Space Station crew members, Ken Bowersox, the 
commander, United States Navy, Don Pettit, who is our science 
officer aboard, and Nikolai Budarin, who is a cosmonaut 
engineer, on Sunday, February the 2nd for the first time in our 
discussions, to inform them of the accident and how we're 
proceeding. Despite the tragedy, the crew is continuing its 
busy schedule of work.
    The day after the loss of STS-107, our Russian partners 
conducted a successful planned launch of an unmanned, 
autonomous Progress resupply vehicle to the station. The 
provisions carried on Progress 10P should provide the crew 
sufficient supplies to maintain normal operations through June 
2003, through this summer. Progress resupply flights to the 
International Space Station by our Russian partners will 
continue as scheduled. The next flight is scheduled for June 
2003.
    We're working with Rosaviakosmos, the Russian Aviation and 
Space Agency officials, to determine what we might want to 
place on that flight to make sure we have the best use of the 
space available. In addition, a regularly scheduled Soyuz crew 
transport vehicle exchange is planned already for the launch in 
April 2003, as it had been prior to February 1st.
    Study teams formed almost immediately after the accident to 
assess the impact on the International Space Station. These 
teams are focused on how we will, first, sustain the station, 
second, continue to assemble the station, as it is not yet 
complete, and, third, to maximize the utilization of this 
unique research platform.
    We have kept our International Space Station partners 
informed of our recovery efforts. Further, we have met with our 
international partners just last week, and continue to each 
day, to plan future meetings in the weeks ahead to develop an 
International Space Station partner plan.
    We can maintain a permanent crew on the International Space 
Station as long as it is necessary, with support from Soyuz and 
Progress flights. The International Space Station is stable and 
has sufficient propellent to maintain its orbit for at least a 
year without support from the Space Shuttle.
    But the nearer-term issue for crew support beyond June is 
water. The International Space Station cannot support a crew of 
three after June with the currently planned support in 
progress. As a consequence, we're discussing with our 
international partners the possibility of changing the April 
Soyuz flight from a taxi mission to a crew exchange mission, as 
well as the feasibility of adding Progress resupply flights. 
But I want to really emphasize that there are no decisions that 
have been made, and all options are being examined at present.
    I talked to the Expedition 6 crew that Captain Bowersix 
commands, now in orbit, and they've expressed determination and 
desire to do whatever is necessary to continue the research and 
deal with any changes in crew rotation schedule that may be 
necessary.
    As we look forward to determine our nation's best course of 
action in responding to the Columbia accident, I'd like to 
point out that NASA developed an Integrated Space 
Transportation Plan, which was submitted by the President to 
the Congress in November as an amendment to the fiscal year 
2003 budget. So three months ago, that plan was presented at 
that time. The Integrated Space Transportation Plan could help 
us address many of the near-term issues we're facing, even 
though it was developed prior to the loss of Columbia.
    The plan reflects the tight coupling required across the 
Space Station, Space Shuttle, and the Space Launch Initiatives. 
It is intended to ensure that necessary access to the 
International Space Station can be supported for the 
foreseeable future. It consists of three major program 
elements--the Space Shuttle, the Orbital Space Plane, and the 
Next-Generation Launch Technology.
    This new plan makes investments to extend Shuttle's 
operational life for continued safe operations. The Orbital 
Space Plane is designed to provide a crew transfer capability 
as early as possible to assure access to and from the 
International Space Station. And the Next-Generation Launch 
Technology program funds next-generation Reusable Launch 
Vehicle technology in areas such as propulsion, structures, and 
operation. This initiative will focus on the Orbital Space 
Plane and the Next-Generation Launch Technology, including 
third-generation Reusable Launch Vehicle efforts.
    Now, the 2003 budget amendment that the President submitted 
last November, in 2002, also proposed adding funds to 
International Space Station reserves to assure that we could 
successfully reach the milestone of U.S. core configuration and 
maintain progress on the long lead items for enhanced research 
aboard space station and the continued buildout of that 
remarkable research laboratory platform.
    Space flight is a means to an end at NASA. That end is 
research, exploration, discovery, and inspiration. The crew of 
STS-107 were engaged in a wide array of scientific research 
that could be conducted nowhere else but in space and had 
significant potential benefits for the public. Columbia's crew 
took great pride in their research aimed at fighting cancer, 
improving crop yields, developing fire-suppression techniques, 
building earthquake-resistant buildings, and understanding the 
effects of dust storms on weather. As was recorded by the 
media, Columbia had a cargo of human ingenuity.
    The crew of International Space Station is also conducting 
research now that cannot be conducted anywhere else. Thus far, 
more than 60 experiments spanning such scientific disciplines 
as human physiology, genetics, plant biology, Earth 
observations, physics, and cell biology have been conducted on 
the International Space Station. From these experiments, 
scientists are learning better methods of drug testing and 
about dynamic models of human diseases, the physics of 
fundamental processes in manufacturing, antibiotic synthesis, 
and changes in Earth climate, vegetation and crops.
    The International Space Station is the centerpiece 
initiative of human space flight at NASA. Our objectives in 
this regard are very clear. First, we will keep on-orbit 
International Space Stations crews safe. Second, we intend to 
keep the International Space Station continuously occupied in 
order to assure the reliability of the station itself. And, 
third, we intend to return to assembly--as soon as we're able, 
to return the Shuttle fleet to safe operations and complete the 
research goals for ourselves and for our international 
partners.
    To accomplish these aims, we need to create a long-term 
crew-return capability to complement and augment the Soyuz 
vehicles now provided by our partners. We intend to build that 
new return capability to create a new crew-transfer system that 
will allow us to rotate crews on the International Space 
Station independent from the Space Shuttle.
    We also firmly believe that extending the operational life 
of the remaining Shuttle fleet is a good investment, because it 
will help maximize the science return from the International 
Space Station.
    We designed our Integrated Space Transportation Plan to 
ensure that we have coordinated resources to exploit the unique 
research environment of space and the International Space 
Station in the near-, mid-, and long-term. We thought the plan 
was a good one when we proposed it, and we believe that it's 
not only valid today, but even more compelling to pursue. While 
we believe that this plan is a good one, we will re-examine it 
as necessary in light of the investigative findings of 
Columbia.
    Just over a week ago, although it seemed more like a 
lifetime, the President spoke so eloquently and powerfully at 
the Johnson Space Center memorial service in Houston, Texas. He 
said, ``The cause of exploration and discovery is not an option 
we choose; it is a desire written in the human heart. We're all 
part of a creation which seeks to understand all creation. We 
find the best among us, send them forth into unmapped darkness, 
and pray they will return. They go in peace for all mankind, 
and all mankind is in their debt.''
    The noble purposes described in the President's words frame 
all that we do and how we do it. These purposes drive our 
mission goals, which are to understand and protect our home 
planet, to explore the universe and search for life, and to 
inspire the next generation of explorers as only NASA can.
    And even while our nonstop work to recover from this 
terrible tragedy and to continue safe operations on the 
International Space Station will be our chief focus in the days 
and weeks and months ahead, the American people should know we 
will also press ahead with other activities to achieve these 
important goals.
    This centennial flight year, we are launching the Mars 
exploration rovers, the Mars spacecraft, the space infrared 
telescope facility, and a number of Earth science spacecraft 
and instruments, as well as continuing our work to help improve 
aviation security on behalf of our homeland defense. In these 
activities and in all that we do at NASA, we strive for 
unmatched excellence. When it comes to human space exploration, 
those margins are razor thin, and we know we're graded on an 
extremely harsh curve. For us, 96 percent to 99 percent is not 
an ``A.'' One-hundred percent is the minimum passing garde.
    Now, despite this harsh truth, we know the lesson from this 
terrible accident is not to turn our backs on exploration 
because it is hard or risky. John Shedd once said about the age 
of ocean exploration, ``A ship in safe harbor is safe, but that 
is not what ships are built for.''
    Human history teaches us that in exploration, after 
accidents like this occur, we learn from them and further 
reduce risks, although we must honestly admit that risk can 
never be eliminated.
    President John F. Kennedy observed once, some 41 years ago, 
speaking of our fledgling space program at that time, ``All 
great and honorable actions are accompanied with great 
difficulties, and both must be enterprised and overcome with 
answerable courage.''
    The immediate task before our agency is clear. We'll find 
the problem that caused the loss of Columbia and its crew, 
we'll fix it, and then we'll return to flight operations that 
are as safe as humanly possible in pursuit of knowledge. We 
have no preconceptions about what caused the failure or what it 
will take to make it so that it will never happen again. We 
have an independent Accident Investigation Board of truly 
outstanding and eminently quality individuals, and they, and 
only they alone, will determine the cause of the accident and 
its remedy, no matter where it leads. We're ready and willing 
to support the addition of any experts that Admiral Gehman 
deems necessary to the effective conduct of the board's 
investigations.
    Part of my job as Administrator is to remind folks of what 
NASA does and what we are capable of doing. It's a 
responsibility I take very, very seriously. And, at the same 
time, I am saddened beyond words at the loss of seven 
outstanding men and women of STS-107. I'm also very proud and 
humbled by the focus, dedication, and professionalism of the 
NASA family and all those throughout the country who are 
assisting in this challenging recovery effort.
    Today, February the 12th, is also the birthday of President 
Lincoln. And some of his words, spoken for an entirely 
different purpose, have come to mind this past week. ``It is 
rather for us to be here dedicated to the great task remaining 
before us, that from these honored dead we take increase 
devotion to that cause for which they gave the last full 
measure of devotion.''
    We have an opportunity here and now to learn from this loss 
and renew the boundless spirit of exploration present at NASA's 
beginning. We will do this by being accountable to the American 
people for our failings and, we hope, credible and compelling 
in pursuit of research, exploration, and inspiration for future 
generations.
    And, finally, during the 16-day STS-107 mission, we had no 
indication that would suggest a compromise to flight safety. 
The time it has taken me to present this testimony is about the 
same amount of time that transpired between when mission 
control first noticed anomalies in temperature measurements and 
the accident.
    (Pause.)
    I just paused for a few seconds. That's the same amount of 
time that transpired from mission control's last communication 
with the crew and our loss of signal with the heroic Columbia 
astronauts.
    May Good bless the crew of STS-107.
    Chairman McCain, Chairman Boehlert, thank you all very much 
for you attention.
    [The prepared statement of Mr. O'Keefe follows:]

                   Prepared Statement of Sean O'Keefe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Good morning. I appreciate the opportunity to appear before this 
hearing of the Senate Commerce, Science and Transportation Committee 
and the House Science Subcommittee on Space and Aeronautics to discuss 
the tragic loss of the courageous crew of the Space Shuttle Columbia, 
the ongoing investigation into this tragedy, and the implications of 
the loss of Columbia to the Nation's space exploration efforts.
    This morning, eleven days after the accident, our work continues to 
honor the solemn pledge we've made to the astronauts' families and to 
the American people that we will find out what caused the loss of the 
Columbia and its crew, correct what problems we find, and do our utmost 
to make sure this never happens again.
    We welcome the Committee's interest in working with NASA to help 
determine how we can learn from this tragic accident so that we may 
continue advancing the Nation's research and exploration objectives in 
space while at the same time striving to ensure we make manned 
spaceflight as safe as humanly possible.
    Throughout NASA's forty-five years of serving the public interest, 
Congress has been our partner, helping us achieve the goals outlined in 
NASA's congressionally authorized charter. This charter compels NASA 
to:

        <bullet> Explore, use, and enable the development of space for 
        human enterprise.

        <bullet> Advance scientific knowledge and understanding of the 
        Earth, the Solar System, and the Universe and use the 
        environment of space for research.

        <bullet> Research, develop, verify, and transfer advanced 
        aeronautics, space, and related technologies.

    With the support of Congress, NASA has amassed a record of 
significant achievements that have tangibly improved the lives of all 
Americans. When we have erred, you have helped us right our course.
    This morning you will be asking us tough questions. That's as it 
should be. Believe me, none of the questions you will ask can be any 
tougher than those we are asking of ourselves.
    I can assure you, however, that whatever determinations are reached 
regarding the cause of the accident, you will find that complacency is 
not one of them. Last year we temporarily halted Shuttle flight 
operations when tiny cracks were discovered in metal liners used to 
direct the fuel flow inside propellant lines on two different orbiters. 
We did not fly again until that problem was corrected. To signal our 
continued commitment to rewarding such diligence, we also made a point 
to praise David Strait, the young contractor employee who discovered 
the cracks. Other flight decisions made throughout the year were made 
with the goal of operational safety being paramount. And from working 
with the dedicated employees who keep the Shuttle flying safely I know 
they have the utmost regard for the enormity of their duty.
    This week, at NASA Centers throughout the country and in the field, 
with the support of more than 2000 people from more than 20 federal, 
state and local organizations, the important work of data analysis and 
recovery operations is continuing. I am extremely proud of the work 
that is being conducted by these dedicated public servants. As 
President Bush said last week, ``The people of NASA are being tested 
once again. In your grief, you are responding as your friends would 
have wished--with focus, professionalism, and unbroken faith in the 
mission of this agency. Captain Dave Brown was correct: America's space 
program will go on.''
    This morning, to help frame our discussion, I would like to review 
for you the significant actions NASA has taken since the morning of the 
accident in accord with our contingency plan. In addition to 
articulating notification or first response procedures, defining the 
roles and responsibilities of mishap response and mishap investigation 
teams, the plan specifies selection of persons outside of NASA to head 
an independent, seasoned accident investigation team.
    While we did not foresee this terrible tragedy, our response has 
unfolded as we had planned and prepared for that contingency plan. This 
plan was one of the many positive outcomes from the terrible loss of 
the Space Shuttle Challenger seventeen years ago. The plan is updated 
before every flight and a contingency was simulated just three months 
ago.

First Response: Saturday February 1, 2003

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    When we first became aware of the a problem with STS-107, I was 
waiting at the Space Shuttle Landing Strip at the Kennedy Space Center 
on Saturday, February 1. At 8:59 a.m. eastern time, we lost 
communications with the Columbia.
    At 9:16 a.m. the countdown arrival clock reached zero and there was 
no sign of the Columbia. Captain Bill Readdy, our Associate 
Administrator for Space Flight, declared a spaceflight contingency and 
activated the Recovery Control Center at the Kennedy Space Center. At 
that point, Bill Readdy and I departed the landing strip and headed to 
the Launch Control Center.
    We arrived at the Launch Control Center thirteen minutes later, at 
9:29 a.m., and we activated the Contingency Action Plan for Space 
Flight Operations. Through the White House Situation Room, we notified 
the President as well as other senior staff of the loss of 
communication. In addition, Members of Congress and the Government of 
Israel were notified. Homeland Security Secretary Tom Ridge and the 
National Security Council were also made aware of the situation. 
Secretary Ridge then began assessing the possibility that this 
situation was terrorism-related. Shortly after, he made a determination 
that it was highly unlikely terrorism was involved.
    Secretary Ridge then announced that the Federal Emergency 
Management Agency would be the lead federal agency for the recovery 
effort.
    Meanwhile, the family members of the Columbia astronauts were 
escorted from the landing strip to the astronauts' crew quarters. Later 
that morning, at about 11:30 a.m., I met with the families at the crew 
quarters at Kennedy Space Center to express my condolences, offering 
any and all support we could give, and stated our commitment to find 
the cause of the accident, fix any problems we may find, and continue 
the work that their loved ones had started.
    Data at all NASA sites and contractors were impounded at 10:00 a.m. 
and the Headquarters Action Center in Washington, D.C. was activated 
with NASA personnel moving immediately to their duty stations.
    By 10:30 a.m., the NASA Mishap Response Team convened to assess the 
preliminary data and focus on the location of the crew compartment 
through the Rescue Coordination Center at Langley Air Force Base in 
Virginia. The Rapid Response Team was activated for deployment to 
Barksdale AFB in Louisiana.

Columbia Accident Investigation Board

    The process of initiating the Columbia Accident Investigation Board 
began about 10:30 a.m. on Saturday, February 1, when I placed a call to 
NASA Deputy Administrator Fred Gregory, who was at NASA Headquarters in 
Washington. Mr. Gregory then began calling Columbia Accident 
Investigation Board members currently listed in our contingency plan.
    At 1:15 p.m., I made a brief televised statement expressing our 
``deepest national regrets'' for the tragic accident and informed the 
public about the appointment of the Columbia Accident Investigation 
Board.
    I verbally activated the Columbia Accident Investigation Board 
during the NASA Mishap Investigation Team teleconference, which 
occurred at 5:00 p.m.
    By 6:00 p.m. during a teleconference with the White House Situation 
Room, we briefed officials from the Department of Homeland Security, 
the Federal Emergency Management Agency, the Department of Defense, the 
FBI, and the Federal Aviation Administration about the current status 
of the accident investigation.
    At 6:40 p.m. staff members of the National Transportation Safety 
Board departed Washington and traveled to Barksdale Air Force Base in 
Louisiana to assist as part of the Mishap Investigation Team. They were 
later made available to the Columbia Accident Investigation Board.
    On Sunday, February 2, the Columbia Accident Investigation Board, 
headed by retired U.S. Navy Admiral Hal Gehman, held its first meeting 
at Barksdale AFB, less than 30 hours after the accident. We also began 
the practice of twice daily briefings at Headquarters in Washington and 
at the Johnson Space Center in Houston.
    Membership in the Columbia Accident Investigation Board consists of 
persons selected for their positions in heading civil and military 
offices with responsibilities for aerospace safety accident 
investigations and related skills. Many have been chief investigators 
on major accidents and between them the Columbia Accident Investigation 
Board members have the experience of some 50 major investigations to 
draw upon.
    Quite simply, the people who are now on the Board are some of the 
best in the world at what they do.
    You have our assurance that this distinguished Board will be able 
to act with genuine independence. When the Board assembled, it modified 
its Charter to eliminate any reference to NASA directing the 
administration of the investigation. NASA accepted the changes to the 
Charter without objection. Further, the NASA Inspector General, Robert 
Cobb is an observer on the Columbia Accident Investigation Board and he 
will help assure the independence of the Board as he reports to the 
President and Congress.
    There are some additional details about the Columbia Accident 
Investigation Board and its activities that are worth noting. The Board 
has taken over hardware and software releases of NASA so that NASA 
cannot alter anything unless the Board approves. NASA has already begun 
to honor document requests from the Board, and has also supplied 
additional documents to the Board which were not requested that we 
believe may be helpful to their work. And finally,. the Board has 
instructed NASA to conduct fault tree analysis that it intends to 
independently validate.

Recovery Operations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    On Sunday, the NASA Mishap Investigation Team was on the ground and 
working with local officials in Texas and Louisiana. The State of Texas 
activated 800 members of the Texas National Guard to assist with the 
retrieval of debris.
    By Tuesday, there were nearly 200 NASA and NASA contractor 
personnel working recovery operations in Texas, Louisiana, Arizona, and 
California. They were part of the more than 2000 people from Federal 
Emergency Management Agency, Environmental Protection Agency, Federal 
Bureau of Investigation, Department of Defense, Department of 
Transportation, U.S. Forest Service, Texas National Guard, and state 
and local authorities working to locate, document, and collect debris.
    By Wednesday, the astronauts' remains were transported to Dover Air 
Force Base in Delaware. At Dover, NASA Deputy Administrator Fred 
Gregory and a ceremonial honor guard were present to pay our respects 
to the seven fallen astronauts.
    Throughout the week, we were able to make steady progress in our 
effort to recover debris from the accident. We have thus far recovered 
upwards of 12,000 elements of debris. The search effort, as you know 
from our press conferences, is a large, complex and ongoing effort over 
hundreds of square miles with challenging weather and terrain 
conditions. We are very grateful that no one was injured on the ground 
as a result of flying debris from the accident and we are working with 
our agency partners to ensure recovery operations remain safe.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Federal Emergency Management Agency command post was set up in 
Lufkin, Texas on Saturday, February 1, and has been operating non-stop 
since then. Debris collection activities began at Barksdale Air Force 
Base on Sunday, February 2. Yesterday, we began transporting debris on 
trucks to the Kennedy Space Center where they will be assembled and 
analyzed as part of the comprehensive accident investigation directed 
by the Gehman Board. I visited Texas and Louisiana this past Saturday 
to get my own assessment of the operation and to personally thank the 
many volunteers who have worked so tirelessly to support the debris 
recovery effort.

Space Shuttle Status

    Let me touch briefly on the Space Shuttle fleet as it is today. 
Discovery is continuing to undergo major inspections and upgrades which 
will be completed by April of 2004. Atlantis is currently assembled and 
stacked in the Vehicle Assembly Building at the Kennedy Space Center 
for STS-114. The Endeavour is in the Orbiter Processing Facility and 
being prepared for STS-115.
    The next Shuttle mission, STS-114, was to have been to the 
International Space Station in March. That mission, commanded by Col. 
Eileen Collins, U.S. Air Force, is on hold until we understand the 
causes of the Columbia accident and are able to resolve any issues 
identified. At this time we don't know how long it will be before we 
can resume Shuttle flights. We will only know when the Columbia 
Accident Investigation Board concludes its work and presents its 
findings.
    Columbia was the first Orbiter in the Shuttle fleet, having flown 
28 successful missions or just over a quarter of its certified life of 
100 flights. In February 2001, less than a year ago, Columbia completed 
a major scheduled eighteen month overhaul and update of its systems, a 
process we call Orbiter Major Modifications (OMM).
    The STS-107 mission was Columbia's second flight following OMM and 
a successful servicing mission to the Rubble Space Telescope in March 
2002.
    Prior to the loss of Columbia and her crew, the projected Shuttle 
flight rate was five flights per year starting in FY 2004, and we have 
requested funding for that flight rate in this budget. The flight rate 
will be adjusted as needed once we determine when we can return to 
flight.

International Space Station Status

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The crew of the International Space Station is of course deeply 
saddened by the loss of Columbia and her crew--as are all of our 
partners and people around the world. I spoke with International Space 
Station crew members Ken Bowersox, Don Pettit, and Nikolai Budarin on 
Saturday, February 1st to inform them of the accident and how we are 
proceeding. Despite this tragedy, the crew is continuing its busy 
schedule of work.
    The day after the loss of STS-107, our Russian partners conducted a 
successful launch of an unmanned, autonomous Progress resupply vehicle 
to the Station. The provisions carried on Progress 10P should provide 
the crew sufficient supplies to maintain normal operations through June 
2003.
    Progress resupply flights to the International Space Station by our 
Russian partner will continue as scheduled. The next Progress flight is 
scheduled for June 8, 2003. We are working with the Russian Aviation 
and Space Agency officials to determine what we want to place on the 
flight to make sure we make the best use of the space available. In 
addition, a regularly scheduled Soyuz crew transport vehicle exchange 
is already planned for launch in April 2003.
    Study teams formed almost immediately after the accident to assess 
the impact on the International Space Station. These teams are focused 
on how we will 1) sustain the Station, 2) continue to assemble the 
Station, and 3) maximize the utilization of this unique research 
platform. We have kept our International Space Station partners 
informed of our recovery efforts. Further, we met with our 
international partners last week and plan future meetings in the weeks 
ahead to develop an International Space Station partner plan.
    We can maintain a permanent crew on the International Space Station 
as long as is necessary with support from Soyuz and Progress flights. 
The International Space Station is stable and has sufficient propellant 
to maintain its orbit for at least a year without support from the 
Space Shuttle. A nearer, term issue for crew support beyond June is 
water. The International Space Station cannot support a crew of three 
after June with the currently planned support from Progress. As a 
consequence, we are discussing with our international partners the 
possibility of changing the April Soyuz flight from a taxi mission to a 
crew exchange mission as well as the feasibility of adding Progress 
resupply flights.
    I should emphasize however, that no decisions have been made and we 
are examining all options. I have talked to the Expedition Six crew now 
on-orbit and they have expressed determination and desire to do 
whatever is necessary to continue their research and deal with any 
changes in the crew rotation schedule that may be necessary.

Integrated Space Transportation Plan

    As we look forward to determine our nation's best course of action 
in response to the Columbia accident, it is worth noting NASA's 
Integrated Space Transportation Plan (ISTP), which was submitted by the 
President to Congress in November as an amendment to the Fiscal Year 
2003 federal budget. The Integrated Space Transportation Plan can help 
us address many of the near-term issues we are facing, even though it 
was developed prior to the loss of Columbia.
    The Integrated Space Transportation Plan reflects the tight 
coupling required across the Space Station, Space Shuttle, and Space 
Launch Initiatives efforts. It is intended to ensure that necessary 
access to the International Space Station can be supported for the 
foreseeable future. It consists of three major programs: the Space 
Shuttle, the Orbital Space Plane, and Next Generation Launch 
Technology.

        <bullet> The new plan makes investments to extend Shuttle's 
        operational life for continued safe operations.

        <bullet> The Orbital Space Plane is designed to provide a crew 
        transfer capability as early as possible to assure access to 
        and from the International Space Station.

        <bullet> The Next Generation Launch Technology Program funds 
        next generation reusable launch vehicle technology developments 
        in areas such as propulsion, structures, and operations.

        <bullet> The SLI will focus on the Orbital Space Plane and 
        Next Generation Launch Technology, including Third Generation 
        RLV efforts.

    The FY 2003 budget amendment also proposed adding funds to 
International Space Station reserves to assure that we could 
successfully reach the milestone of U.S. core complete and maintain 
progress on long-lead items for enhanced research aboard the Space 
Station.

Science and Research Objectives

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Space flight is a means to an end and at NASA that end is research, 
exploration, discovery and inspiration.
    The crew of STS-107 were engaged in a wide array of scientific 
research that could be conducted nowhere else but in space, and had 
significant potential benefits for the public. Columbia's crew took 
great pride in their research aimed at fighting cancer, improving crop 
yields, developing fire-suppression techniques, building earthquake-
resistant buildings, and understanding the effects of dust storms on 
weather. As was written in the press, ``Columbia had a cargo of human 
ingenuity.''
    The crew of the International Space Station is also conducting 
research now that can be conducted nowhere else. Thus far, more than 
sixty experiments spanning across such scientific disciplines as human 
physiology, genetics, plant biology, Earth observations, physics, and 
cell biology have been conducted on the International Space Station. 
From these experiments scientists are learning better methods of drug 
testing, and about dynamic models of human diseases, the physics of 
fundamental processes in manufacturing, antibiotic synthesis, and 
changes in Earth climate, vegetation, and crops.
    The International Space Station is the centerpiece initiative of 
human space flight at NASA. Our objectives in this regard are very 
clear. First, we will keep our on-orbit International Space Station 
crew safe. Second, we intend to keep the International Space Station 
continuously occupied in order to assure the reliability of the 
International Space Station itself. Third, we intend to return to 
assembly as soon as we are able to return the Shuttle fleet to safe 
operations, and complete the research goals set for ourselves and our 
international partners.
    To accomplish these aims, we need to create a long-term crew return 
capability to complement and augment the Soyuz vehicles now provided by 
our Russian partners. We intend to build on that new return capability 
to create a crew transfer system that will allow us to rotate crews on 
the International Space Station independently from the Space Shuttle.
    We also firmly believe that extending the operational life of the 
remaining Shuttle fleet is a good investment because it will help 
maximize the science return from the International Space Station.
    We designed our Integrated Space Transportation Plan (ISTP) to 
ensure that we had the coordinated resources to exploit the unique 
research environment of space and the International Space Station in 
the near-, mid-, and long-term.
    We thought the plan was a good one when we proposed it and we 
believe that it is not only valid today but even more compelling to 
pursue. While we believe the ISTP is a good plan, we will re-examine it 
if necessary in light of investigation findings on Columbia.

Moving Forward

    Just over a week ago--although it seems more like a lifetime--the 
President spoke eloquently and powerfully at the Johnson Space Center 
in Houston, Texas. He said:

        ``The cause of exploration and discovery is not an option we 
        choose; it is a desire written in the human heart. We are that 
        part of creation which seeks to understand all creation. We 
        find the best among us, send them forth into unmapped darkness, 
        and pray they will return. They go in peace for all mankind, 
        and all mankind is in their debt.''

    The noble purposes described in President Bush's words frames all 
that we do and how we do it. These purposes drive our mission goals, 
which are:

        To understand and protect our home planet; To explore the 
        Universe and search for life; and, To inspire the next 
        generation of explorers as only NASA can.

    And even while our nonstop work to recover from this terrible 
tragedy and to continue safe operations on the International Space 
Station will be our chief focus in the days ahead, the American people 
should know that we will also press ahead with our other activities to 
achieve these important goals.
    This Centennial of Flight year we will be launching the Mars 
Exploration Rovers, the Mars Express spacecraft, the Space InfraRed 
Telescope Facility, and a number of Earth Science spacecraft and 
instruments, as well as continuing our work to help improve aviation 
security on behalf of our Homeland Defense.
    In these activities and in all we do at NASA, we strive for 
unmatched excellence. And when it comes to human space exploration, 
where margins are razor thin, we know we are graded on a very harsh 
curve. For us, ninety-six percent to ninety-nine percent is not an 
``A.'' One hundred percent is the minimum passing grade.
    Despite this harsh truth, we know the lesson from this terrible 
accident is not to turn our backs on exploration simply because it is 
hard or risky. As John Shedd wrote about the age of ocean exploration, 
``A ship in harbor is safe, but that is not what ships are built for.'' 
Human history teaches us that in exploration, after accidents like this 
occur, we can learn from them and further reduce risk, although we must 
honestly admit that risks can never be eliminated. And as President 
John F. Kennedy said some 41 years ago, speaking about our fledgling 
space program, ``All great and honorable actions are accompanied with 
great difficulties, and both must be enterprised and overcome with 
answerable courage.''
    The immediate task before the Agency is clear. We will find the 
problem that caused the loss of Columbia and its crew, we will fix it, 
and we will return to flight operations that are as safe as humanly 
possible in pursuit of knowledge. We have no preconceptions about what 
the cause of failure was or what it will take to make sure it never 
happens again. We have an independent accident investigation board of 
truly outstanding and eminently qualified individuals and they, and 
they alone, will determine the cause of the accident and its remedy--no 
matter where it leads.
    We are ready and willing to support the addition of any experts 
that Admiral Gehman deems necessary to the effective conduct of the 
Board's investigations.
    Part of my job as Administrator is to remind everyone of what NASA 
does and what we are capable of doing. It's a responsibility I take 
very seriously. At the same time that I am saddened beyond words for 
the loss of the seven outstanding men and women of STS-107, I am also 
very proud and humbled by the focus, dedication and professionalism of 
the NASA family and all those throughout the country who are assisting 
us in the recovery effort.
    Today, February 12, is also the birthday of President Lincoln. And 
some of his words, spoken for a very different purpose, have come to be 
in my mind this past week:

        ``It is rather for us to be here dedicated to the great task 
        remaining before us--that from these honored dead we take 
        increased devotion to that cause for which they gave the last 
        full measure of devotion.''

    We have an opportunity here and now to learn from this loss, and 
renew the boundless spirit of exploration present at NASA's beginning. 
We will do this by being accountable to the American people for our 
failings and, we hope, credible and compelling in pursuit of research, 
exploration, and inspiration for future generations.
    Finally, during the 16-day STS-107 mission we had no indications 
that would suggest a compromise to flight safety. The time it took me 
to present this testimony is about the same amount of time that 
transpired between when Mission Control first noticed anomalies in 
temperature measurements and the accident.
    I just paused for a few seconds. That's the same amount of time 
that transpired from Mission Control's last communication with the crew 
and our loss of signal with the heroic Columbia astronauts.
    May God bless the crew of STS-107.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Boehlert. Thank you very much, Mr. Administrator.
    The Chair recognizes the Ranking Member of the House 
Science Committee, the gentleman from Texas, Mr. Hall.

STATEMENT OF HON. RALPH M. HALL, U.S. REPRESENTATIVE FROM TEXAS

    Representative Hall. Thank you, Mr. Chairman, and thank 
you, Chairman McCain, and I thank this group.
    Mr. O'Keefe, I thank you, your Deputy and your Associate 
Administrator for Space Flight and those valiant people who sit 
behind you there that contribute so much day in and day out. 
We're grateful to you.
    And I speak for Bart Gordon, who is the Ranking Member of 
the Space Subcommittee, who has the same respect I have for the 
leadership. And this is a day and time when we should be 
neither Republicans nor Democrats, but Americans. And I think 
it's a day in time when we come together.
    And, Mr. Administrator, you did a great job that Monday, 
that fateful Monday, in Houston. Thank you for that.
    I think, certainly, that this one of the most painful 
hearings that I've ever had the duty to try to get prepared 
for. It's less than two weeks now since the Shuttle broke apart 
in the sky up over my home in my area in Texas. I'm saddened 
every time I think of these seven brave astronauts and the 
grief-stricken families that they left behind. I knew three of 
them very well.
    And the young lady from India, who had accomplished so much 
and came so far, came to my district on more than one occasion, 
had a great sense of humor, was really great for the program. 
In one of her speeches to one of the classes in Canton, in 
Vanzant, Texas, one of the students said, ``We have a hard time 
pronouncing your name.'' She said, ``That's all right. I have a 
hard time pronouncing yours.''
    (Laughter.)
    Representative Hall. She had a way with youngsters and was 
very helpful.
    I know that there are a lot of questions about what went 
wrong, and I'm going to shorten my speech here because we have 
so many others that really should be heard from and we have 
questions that we have to ask you.
    There has also been a lot of speculation as to what or who 
may be to blame for the accident. The reality is that it 
doesn't appear that anyone yet knows what caused the accident, 
although the NASA Administrator may have some information in 
the progress of the investigation to share with us here today. 
And you've done that, and I thank you. And I think the 
questions will elicit more information and will be helpful to 
us.
    So it might be some time before we'll be clear on what 
factors have contributed to the accident. Thus, it's important 
that we have a thorough and, I want to stress, independent, as 
Mr. Gordon has stressed, investigation of the accident so that 
the American people can be assured that everything's on top of 
the table. And I know that's what everybody in this room wants. 
Anything less would be a disservice to the courageous men and 
women who died on the Columbia.
    Our nation is grieving. We're mournful at this time. And 
the families are in mourning. But time lessens and sometimes 
heals that. But that same time is going to bolster the need for 
an independent investigation, and that's what we're looking 
for. And, Mr. Administrator, I understand that you've pledged 
to do that, and we thank you for that.
    I think we need to take a very close look at what can be 
done to improve Shuttle crew survivability. As a long-time 
Member of this committee, I've always had problems cutting the 
NASA budget, because not having the knowledge that you men 
have, not having the exposure of life or death that so many of 
you have, I didn't know how to cut it or how to recommend 
cutting it without endangering someone. So we've had to call on 
the Administrator to do that. We had to call on Dan Goldin to 
do that. He did it, and, I think, did it in a good manner. We 
call on you, Mr. O'Keefe, to give us that same type leadership, 
and we pledge our support to you as we seek out causation and 
how to keep it from ever happening again.
    NASA's talking about spending upwards of $9 to $13 billion, 
by its own estimates, over the next decade to develop a still-
to-be-defined Orbital Space Plane. That's long-range planning. 
We have to have that, and we have to have some short-range 
decisions.
    I think we need to examine whether some of that money would 
be better spent on developing crew escape systems for the 
existing Shuttle fleet and on completing a simply, reliable 
U.S. crew rescue vehicle for the International Space Station, 
and doing both of these things as soon as possible.
    With that, Mr. Chairman, I'd like unanimous consent to put 
my full speech in the record, and I yield back the time.
    Thank you.
    Chairman McCain. Without objection.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    This is one of the most painful hearings that I have had to prepare 
for in all my years in Congress. It is now less than two weeks since 
the Space Shuttle Columbia broke apart in the sky over my home state of 
Texas. I'm saddened every time I think of those seven brave astronauts 
and the grief-stricken families and friends that they left behind. They 
made the ultimate sacrifice for the cause of space exploration, and we 
shall miss them dearly.
    When the STS-107 mission was launched into orbit in mid-January, I 
was looking forward to what we would learn from it. As many of you 
know, it was a mission dedicated to research. As a result, it was a 
mission that offered the promise of improving the lives of our citizens 
back here on Earth. That is the vision I have long had for our space 
program: learning things in space that can be used for the benefit of 
all Americans. It is what the International Space Station should be 
about if this nation will step up and honor our long-standing 
commitments to complete the project. And it is what the astronauts of 
STS-107 were trying to accomplish on their ill-fated mission.
    I know that there are many questions about what went wrong. There 
has also been a lot of speculation as to what or who may be to blame 
for the accident. The reality is that it doesn't appear that anyone yet 
knows what caused the accident, although the NASA Administrator may 
have some information on the progress of the investigation to share 
with us today. So it's likely to be some time before we can be clear on 
what factor, may have contributed to the accident. It thus is important 
that we have a thorough, independent investigation of the accident so 
that the American people can be assured that nothing is being hidden. 
Anything less would be a disservice to the courageous men and women who 
died on Columbia.
    Whatever the specific cause of the Columbia accident, we in 
Congress need to take a hard look at where we go from here. NASA's 
latest proposal doesn't envision having an alternative means of 
launching crews into space for another decade or more. And in any 
event, NASA seems to lie committed to flying the Shuttle to the Space 
Station throughout the lifetime of the Station. A decade or more is a 
long time. If, God forbid, there is another accident sometime during 
that decade, will we be able to look back and say we had done all we 
could to improve the crew's chances of survival? I hope so.
    For example, the Aerospace Safety Advisory Panel's March 2002 
report found that 17 years after the Challenger accident the Shuttle 
program still is facing a situation where:

        ``there is no in-flight crew escape system for the Orbiter 
        other than for abort below 20,000 feet during a controlled 
        glide''

    and it recommended that NASA:

        ``complete the ongoing studies of crew escape design options 
        and implement an improved system as soon as possible.''

    I think we need to take a close look at what could be done to 
improve Shuttle crew survivability. NASA is talking about spending 
upwards of $9 to $13 billion by its own estimates over the next decade 
to develop a still-to-be-defined Orbital Space Plane. I think we need 
to examine whether some of that money would be better spent on 
developing crew escape systems for the existing Shuttle fleet and on 
completing a simple, reliable U.S. crew rescue vehicle for the 
International Space Station--and doing both of those things as soon as 
possible. I don't think the brave men and women who serve in our 
nation's space program should be needlessly put into harm's way any 
longer than necessary if there are practical remedies available.
    Thank you, and I yield back the balance of my time.

    Chairman McCain. Senator Stevens has to return quickly to 
chair the conference concerning the Omnibus Appropriations 
bill, which all of us eagerly await the result of his work, and 
so he'd like to make a brief statement.
    Senator Stevens.

    STATEMENT OF HON. TED STEVENS, U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman, I thank you, and I do have 
to return to that conference. I have come because the gentleman 
that's before you I consider to be one of the closest friends I 
have in the world. I think members should know who he is.
    He came to Washington as a White House fellow. He worked 
for the Department of Navy, and then he became a Senate 
employee and became the chief of staff of the Defense 
Appropriations Subcommittee. He went from there to become the 
Comptroller of the Department of Defense, the Secretary of the 
Navy. He subsequently became a professor at Syracuse 
University, then a deputy director of the Office of Management 
Budget, and is now the administrator of NASA.
    I know of no one who has committed himself to good 
government and conducted himself in the finest of our 
traditions than Sean O'Keefe. He is a man of integrity, of 
complete honest and openness in all he does. I would back him, 
as I know he would me, with my life. And I urge you to listen 
to Sean O'Keefe today. He'll tell you the truth.
    Thank you very much.
    Mr. O'Keefe. Thank you, Senator.
    Chairman McCain. Thank you very much, Senator Stevens.

                               Discussion

             Effects of Budget Decisions on Shuttle Program

    Thank you, Mr. O'Keefe, for your presentation.
    Look, one of the issues that is going to be talked about a 
lot today by a lot of the members is the issue as to whether 
the NASA's budget was, ``starved,'' cut to the bone. There will 
be allegations that certain recommendations were made by 
certain people.
    For example, the Aerospace Safety Advisory Panel annual 
report for 2001 stated, ``The current and proposed budget are 
not sufficient to improve or even maintain the safety risk 
level of operating the Space Shuttle.'' I've seen a lot of 
rhetoric in the media, and you have too, that you were 
``starved.'' That was not my experience, as Chairman and 
Ranking Member of the Commerce Committee, but I think it's very 
important that you take that issue head on and immediately.
    Mr. O'Keefe. Yes, sir. No, I fully agree. There is no 
question, this is a concern that we continue to have, as well, 
and to assure that all of the facts that are laid out on that 
particular matter. As it pertains the views of the ASAP and the 
advisory committee, as well, their reports, I think, reiterate 
consistently their view that the future concerns about Space 
Shuttle operations and safety considerations were the matter 
they were most focused on. As a consequence, their continued 
effort that I see in the report before us always is that they 
quote specifically, ``It's important to stress that the panel 
believes that safety has not yet been compromised. NASA and its 
contractors maintain excellent safety practices and processes, 
as well as an appropriate level of safety consciousness. This 
has been--contributed to significant flight achievements in the 
defined requirements for operating, and an acceptable level of 
risk are always met.''
    So their concerns were always presented in the context of 
future approaches. And, as a matter of fact, if we call up 
slide number 35, that will cover that particular question, as 
well. Their focus was always on the future operations as well 
as future efforts that were to be engaged in.
    At the present time, in terms of current operations and 
activities they certified as recently as a year ago, they felt 
that the current operations were concentrated on very 
specifically to assure flight safety as a primary paramount 
objective.
    Chairman McCain. I think you're going to be confronted with 
some numbers in further questioning, and I hope you will have 
responses to that, as well.
    At a Commerce Committee September 6th, 2001, hearing on 
Shuttle safety, William Readdy, then Deputy Associate 
Administrator of the Office of Space Flight, acknowledged the 
challenges NASA was facing to maintain Shuttle safety in light 
of budgetary constraints, but, nevertheless, stated, ``The 
safety of the Space Shuttle has also been dramatically improved 
by reducing risk by more than a factor of five.'' Later in his 
testimony, he said, quote, ``The Space Shuttle is the safest, 
most capable and reliable transportation system in the world.''
    Mr. Blomberg, the former chief of NASA's Aerospace Safety 
Advisory Panel, testifying before the House Science Committee 
in April 2002 on behalf of the advisory panel, stated that, 
quote, ``In all the years of my involvement, I have never been 
as concerned for Space Shuttle safety as I am right now. The 
concern is not for the present flight or the next or perhaps 
the one after that. In fact, one of the roots of my concern is 
that nobody will know for sure when the safety margins have 
been eroded too far. All of my instincts, however, suggest that 
the current approach is planting the seeds for future danger.''
    How do we reconcile those two statements by two highly 
regarded individuals who are within the bureaucracy of NASA?
    Mr. O'Keefe. Yes, sir. Well, just to clarify the record on 
that, Bill Readdy, of course, is the Associate Administrator 
for Space Flight. Richard Blomberg was a independent external 
member of and a chairman of the advisory panel for safety, so 
he was not a full-time NASA employee in that regard. He was 
representing a panel view.
    Reconciling that is--I think if you trace the history just 
a little bit, the plan that had existed until this past 
November contemplated the retirement of the Space Shuttle fleet 
as early as the middle of this decade, certainly no later than 
2012, so it altered over the course of several years from about 
'95 forward, the best I can tell, over the history of this.
    Based on the recommendations of that advisory panel on 
safety, as well as the testimony and comments made at several 
different committee hearings, as well, we went back and really 
looked seriously at the question of what it would take in order 
to maintain Shuttle operations for a sustained period of time, 
what kind of continued upgrades would be necessary, 
modifications necessary, in order to assure safe flight 
operations, and on the basis of that, as recently as last 
summer, went through that planning effort, which ultimately 
yielded the amendment that was sent forward by the President on 
November 13th of last year to propose a specific change in the 
funding profile for Shuttle, which envisioned a maintenance of 
that asset for a sustained period of time, though next decade.
    So the focus of these concerns, which were all exactly as 
you stated, Mr. Chairman, in context of future concern, were 
the things we were very mindful of, took heed of, made 
adjustments to, and specifically put in plan in order to assure 
that we covered those kinds of concerns in the future and 
addressed those.
    As it pertained to current flight operations, again there 
was no indication that I knew of that raised concerns along the 
way of current flight operations. If anything, the diligence 
that I see among the entire folk in NASA, in the community, is 
very much that of a culture that's dedicated to assuring safe 
flight operations, or else the launch doesn't occur. And that 
is the mindset and ethos we continue to encourage and will 
continue to encourage in the future.

         Changes Needed to Assure an Independent Investigation

    Chairman Boehlert. Mr. O'Keefe, as I mentioned in my 
opening statement, I remain concerned about language throughout 
the charter of the Columbia Accident Investigation Board. The 
language would appear to indicate that everything the board 
does is subject to NASA approval, and that, to me, raises some 
fundamental questions about the independence of the board. And 
we all want the board to be independent, and not just in name, 
but in fact.
    Are you willing to re-examine that charter and remove some 
of the language that raises these questions and make 
adjustments in other places?
    Mr. O'Keefe. Yes, sir. We'll continue to work with Admiral 
Gehman to assure whatever he needs in order to guarantee the 
independence and objectivity of that board. We will absolutely 
work with him, without objection.
    Chairman Boehlert. I mean, just to give you an example, the 
independent board will conduct activities in accordance with 
the provisions of applicable NASA policies and procedures. And 
then it goes on to say, ``The interim scheduled board 
activities, interim board reports, and the submission of final 
board report, in coordination with the NASA Administrator.'' I 
would think that they would have independence, they could 
schedule their meetings and determine the type of report they 
want to submit. Of course they will submit the report to you. 
But the report should come also to the--the final report--not 
just to the NASA administrator, but to the President, the 
Congress, and the American people. So I think that charter has 
to be revisited, and very promptly.
    We've already had conversations with each other, and I have 
had with Admiral Gehman, and both have assured me that 
additional members from outside the community, so to speak, and 
experts in different fields, will be added to the board. I 
think that's very important.
    It's essential that we maintain the independent nature of 
the board.
    Mr. O'Keefe. I fully concur, Mr. Chairman. And, as a matter 
of fact, I think in Admiral Gehman's press conference 
yesterday, he was very explicit that all of the factors he 
needed in order to maintain independence and to be an objective 
investigator in this particular case, for all of his board 
members, was what the present condition required.
    Having said that, if, on examination, the latest change 
that was made to the charter at his request, we made it, if he 
wants further changes they'll be made, as well, anything that 
it takes in order to guarantee their independence, because we 
will be guided by their findings. And, as I've reiterated 
publicly as well as to you, sir, and to him, that about the 
only thing that will be unique about the reporting requirement 
is that he'll be putting an address that says NASA on it, on 
the envelope, sending it to us. But that report will be made 
public concurrent with its receipt. So he will be reporting to 
the President, to the Congress, to the American people, to all 
of us simultaneously.

                 Contractor Incentives and Obligations

    Chairman Boehlert. Well, I was comforted by my conversation 
with Admiral Gehman, because he is insisting on independence, 
and he has also indicated, obviously, he'll have to have a 
liaison with NASA and use some of your resources, but the 
staffing will be independent of NASA, and I think that's 
essential.
    Obviously, we're all going to be spending a lot of time 
looking at Shuttle contracts even though there's no indication 
at this point that they are a problem. How comfortable are you 
that the incentives in the current contracts captured the 
proper balance between efficiency and safety? And then, as a 
follow-on, do the contracts have clauses that will ensure that 
the contractors have to, must, cooperate with fully with the 
Gehman investigation?
    Mr. O'Keefe. Yes, sir. On the first part, the emphasis on 
safety in the current Space Flight Operations Contract that we 
have very much emphasizes the safety parameters. And, indeed, 
they have tremendous incentives to do better each and every 
time. And as a consequence of that, there are a series of 
weighted factors in the guidelines that heavily look at the 
metrics of any difficulties or problems on orbit or at launch 
or any other time. As they drive those factors down, they're 
given a specific incentive to do better in each of those cases. 
So they've got a powerful motivation to want to move in that 
direction.
    In doing so, I think the approach also yields some 
efficiencies. But that's a secondary matter, at most. And so, 
as a result, there are real advantages and real emphasis on the 
safety considerations that are currently built into that 
contract framework.
    As it pertains to their cooperation with the Gehman Board, 
positively we will advise them, and have, that we fully expect 
everyone to be cooperative with that board. We have absolutely 
nothing to hide. There is no evidence or no fact that we can 
think of out there, short of national security information or 
some private proprietary issue that some individual may want to 
assert, that would preclude us from making any information 
available. And so everyone within the contractor community 
should feel the same as we do.
    Chairman Boehlert. But is there something more than a moral 
obligation or a desire? Is there something that binds them, 
commits them, to cooperate fully with the Gehman investigation 
board?
    Mr. O'Keefe. I will take you up on your opening statement 
that, on that contract clause, I don't know, but I'll find out.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Boehlert. Thank you very much.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    Chairman McCain. Senator Hollings.

                      NASA's Budget Request to OMB

    Senator Hollings. Right to the point with respect to costs, 
and I'm sure you don't have, Mr. O'Keefe, the actual figures 
with you, but on the shortchanging of the space program, we had 
a report yesterday in the New York Times stating that we cut 
the space program $800 million. I've been checking it 
overnight. At my check, it's $700 million.
    Be that as it may, what's the truth? That's what we want. 
Last week I asked Mitch Daniels, Director of the Office of 
Management and Budget, to furnish the Budget Committee the 
figures of what was requested by NASA. I want you to furnish 
the figures that were requested by NASA of OMB for the last 10 
years. And not just this Administration, but the past 
Administrations so we can see the trend line and exactly how we 
financed it.
    Yes, we all are trying to find out the cause. But, in the 
meantime, as you try to piece together the retrieved parts and 
everything else like that, I don't know how long that'll take, 
a year or months, whatever it is, we all want to see the space 
program continue. And for this senator, I don't want it to 
continue with upgrades.
    I've heard enough about these upgrades. We've lost 14 
astronauts and $5 billion in hardware with upgrades, and we had 
a new reusable launch vehicle. We had a spaceship that was 
cancelled the year before last. Then we had a Reusable Launch 
Vehicle, and that was cancelled last November, just a couple of 
months ago. And you said we were going to use these vehicles, 
Shuttles, until 2020. Are you willing to use one of these 
Shuttles with all of the tiles flying off? And after all of 
these losses, you'd still want to use them until 2020 and not 
get new technology, Mr. Administrator?
    Mr. O'Keefe. Yes, sir. No, thank you. As I understand the 
history here, the effort during the course of the '90's was in 
anticipation of a retirement of Shuttle concurrent with the 
introduction of a new Reusable Launch Vehicle. That was 
envisioned to be the X-33, as I understand it. Based on a 
variety of technical issues, which were based on the assumption 
that a series of unconquerable engineering and laws of physics 
challenges would be overcome, ultimately that--two-plus years 
ago, the choice was made to cancel that program and to continue 
with Shuttle operations.
    What we proposed a year ago and is not a cancellation of 
any RLV effort, Reusable Launch Vehicle, instead it's a 
selection, if you will, of looking at the Integrated Space 
Transportation Plan.
    What's included in the November amendment that the 
President sent forward for the 2003 budget is a selection 
specifically of an Orbital Space Plane option which, frankly, 
is not a technology leap. It is the capability of putting 
aboard an Expendable Launch Vehicle, a orbital space system, 
space plane, that would be launched in a conventional manner 
using an Expendable Launch Vehicle.
    The next generation beyond that is what we focus on our 
Next-Generation Launch Technology. So we've tried to narrow and 
focus a lot more the Space Launch Initiative efforts in order 
to get some near-term gain to supplement, to complement, the 
Space Shuttle and to provide that dynamic as well as flexible 
return system and transfer system to the International Space 
System and also to pursue the development of a Reusable Launch 
Vehicle that may be, hopefully, the product of breakthroughs 
that were not possible that forced the motivation or the 
cancellation a few years ago of the X-33.
    So we're trying to do both of those concurrently, but to 
get some near-term capability, and, in the meantime, use 
Shuttle in the future as a cargo lift, heavy lift capacity, 
which is what it was really designed to do in the first place, 
rather than a crew transfer capability. So we're trying to 
balance both ends of that to utilize capabilities for their 
best purposes as we move along.
    Senator Hollings. We've got to find out what you think we 
ought to Appropriate. We all want to continue space 
exploration, but we just don't want to waste time waiting on 
the results, on the one hand, and trying to find out what we 
already know. Let's get on and get your best advice on how we 
should proceed to get going on this thing, and not just with 
upgrades.
    Mr. O'Keefe. Yes, sir. No, the----
    Chairman Boehlert. Thank you very much, Senator.
    Mr. Hall.

                          Crew Escape Systems

    Representative Hall. Mr. O'Keefe, you heard my opening 
statement. And I'm, quite frankly, disappointed that 17 years 
after the Challenger accident so little attention has been 
given to developing crew escape systems for our astronauts, 
whether they're flying on the Shuttle or whether they're in the 
space station. I know you share that.
    I share with you the disappointment and the blame--I've 
been here 23 years, so it's a partnership for us, and that's 
what it is, that's what it'll continue to be, but especially 
since NASA has indicated that the Shuttle is going to fly for 
another decade and a half, and maybe, probably, longer than 
that, and in light of a media report, I think on February the 
5th, that NASA's most recent effort in that regard was a $5 
million so-called ``study'' in 2001.
    To put that study in context, the amount expended on that 
study of potential a Shuttle crew escape system amounted to 
just a little bit more than one-tenth of one percent of a 
single year's budget. That doesn't strike me as being very 
aggressive in your effort to look for ways to improve the odds 
of survival for astronauts in the event of a Shuttle accident.
    That leads me to say that I have no doubt that it's going 
to be challenging to develop practical crew escape systems for 
the Shuttle, but NASA is in the business of performing 
miracles, NASA is in the business of meeting challenges, and we 
call on you to do that.
    I'm very afraid that a clue as to why NASA has not done 
more is found elsewhere in that article, namely, and I quote, 
``The proposed fixes were also seen as prohibitively expensive 
additions to an already aging and financially strapped Shuttle 
fleet.'' We've seen a similar situation with regard to 
developing a Crew Rescue Vehicle for the International Space 
Station.
    So, as you know, NASA decided to cancel the ongoing 
development of U.S. Crew Rescue Vehicles, just a demonstration 
vehicle, we thought was nearing its flight test. And now we're 
dependent on the Russians for their Crew Rescue Vehicles until 
the end of this decade.
    So, in the meantime, I guess my question to you is, Did you 
explicitly consider investing in the development of Space 
Shuttle crew escape systems when you revised the Integrated 
Space Transportation Plan that you announced last November?
    Mr. O'Keefe. Yes, sir. We're continuing to look at what we 
would use as enhancements, if you will, of the Space Shuttle as 
part of that November amendment that was submitted last 
November, and we're getting together here, had planned to all 
along, to identify that priority set of what will emphasize the 
highest safety margin improvements that could be yielded from 
different modifications of the orbiter system.
    But with regard to the specific crew escape efforts, recall 
that since Challenger there have been a number of operational 
changes made. There is an egress system that was put into place 
right after the Challenger accident that was part of the Rogers 
Commission recommendations--that ultimately stemmed from it, I 
should say--that we put in to place that now still exist to 
this day.
    Once launched, though, there is a number of different 
approaches that have been proposed, examined, reviewed, and all 
of which added significant amounts of weight, I'm advised, to 
the overall effort, and so, as a consequence, were viewed to be 
technically infeasible.
    What we have instituted, though, is, again, a series of 
abort procedures. And, as recently as the December launch of 
the STS-113, on a perfectly clear night at Cape Canaveral in 
Florida, where everything was nominal, everything was ready to 
go, all the systems were completely operational, we scrubbed 
the launch because the alternate abort site at Zaragossa, 
Spain, the weather continued to be marginal. So we take every 
precaution in this process in order to assure that, all the way 
through assent, that every possible opportunity is there as 
much as possible.
    But, again, the idea of an escape system was looked at, 
examined very thoroughly, and the conclusion was that the 
weight factor would almost be prohibitive in terms of its 
technical clarification.
    So we'll continue to look at that. We'll go back and look 
at it again, you bet. In light of this circumstance, we really 
do need to focus entirely on what all the alternatives are, and 
I guarantee you, sir, we'll make that part of our effort 
underway now as part of this November amendment that is before 
the Congress to consider for the 2003 program, that we'll 
factor that into the equation and proceed as appropriate.
    Representative Hall. Even on a local level, city councils 
rarely ever fix a bad bridge or a bad turn in the road until a 
teenager gets killed, and then it's too late. It seems to me 
that we launched the vehicle without any ability to dock. We 
lost the vehicle because we didn't have telescopic ability to 
inspect. We have three birds left. I just urge caution. And I 
thank you for your time.
    I yield back my time.
    Mr. O'Keefe. Thank you, Congressman. I appreciate it very 
much.
    Chairman McCain. Senator Brownback.

                Questioning NASA's Goals and Objectives

    Senator Brownback. Thank you very much, Mr. Chairman. And, 
Mr. O'Keefe, thank you very much for coming in front of our 
Joint Committees here and your great leadership at NASA in a 
very difficult and trying and challenging time.
    We all grieve the loss of human life that's happened to 
NASA. And at this particular point, I'm chairing a subcommittee 
in the Senate that'll be dealing with this, and I want to work 
with you and your agency as we lay out the future of manned 
space flight in the United States.
    I want to ask you about the broad objectives and broad 
program objectives that we're talking about right now. It seems 
to me that the space program is really at a critical juncture 
and that the totality of the space program is. And it's got to 
decide amongst a couple of competing options. One is to 
maintain the current set of programs and current missions. The 
second one that you read a lot about in the newspaper and 
people speculate is to dramatically reduce manned space flight, 
go into more robotics and different types of vehicles, 
questioning about the safety and to try to be more safe. And 
the third, a number of people are saying that our vision is too 
small in space currently right now, that we need new 
initiatives, we need to go back to the Moon, we need to go to 
Mars. And we're at this tremendous fork-in-the-road decision of 
which path to take.
    It's certainly my intent in the Subcommittee to look 
closely at where NASA has been and where you are today and 
where we plan to go into the future. And, most importantly, we 
need to discuss, as well, the financial situation, the terms of 
how we get NASA where it needs to be. I'm glad to see that, in 
the Appropriations Committee, we're putting in an additional 
$414 million over the President's request.
    The goal is to reflect an accurate and effective 
determination for the future of NASA, and I would simply like 
to ask you, What have you done recently--and I realize you're 
dealing with the tragedy mostly now, but--to look at this need 
for a review of the mission of NASA amongst these three policy 
objectives, have you had a chance to start contemplating some 
of that? And I hope you'll be open to working openly with the 
Congress as we look at this fork in the road we're in right 
now.
    Mr. O'Keefe. Yes, sir. Of course, Senator, I'd be delighted 
to work with you and any other Members of Congress to sort 
through really what is the proper role and objective of NASA in 
our pursuit of exploration objectives, always.
    We have, indeed, had an opportunity prior to February 1st 
to really think seriously about what is the strategy and the 
focus of how we concentrate on what we do best, and do that 
only in a way that guarantees and assures that we--to offer to 
folks that we can actually deliver on and have a capability to 
look at longer-term exploration objectives. And I think that's 
contained in the strategic planning documents that were all 
forwarded, along with the budget that was submitted by the 
President just last Monday.
    Prior to that, in all the efforts we put into it, was to 
think seriously about the very kind of questions you've raised, 
and, again, to narrowly focus on the kinds of exploration and 
discovery objectives we think we do exceptionally well. And, 
for those that are done by others or can be pursued elsewhere, 
to leave that to folks who have expertise or capabilities that 
would otherwise have to be duplicated by us.
    What it leads to, I think, is a stepping-stone approach, an 
exploration strategy, if you will, that assumes that we start 
off with a series of robotic capabilities, and moves forward 
then, thereafter, toward other exploration objectives that may 
or may not involve human involvement.
    The best example that we've seen played before us in the 
last several years is the Hubble Space Telescope. There was a 
$2 billion capability that, when launched in 1992, in fairly 
short order was deemed to be, as a marvelous robotic capacity, 
a capability that was in need of an eye examination, if you 
will, a lense correction. And it was, at that time, determined 
to be a $2 billion piece of space junk. A year later, we were 
able to send a Shuttle flight with astronomers and other 
engineering capability that was resonant among the astronauts 
there to make that correction. That could not have been done 
remotely.
    And so the human intervention that was necessary to adjust 
that, and all the servicing missions we've done since that 
time, have yielded the kind of astronomy breakthroughs and 
discovery, just in this past year, that we never dreamed 
imaginable. So that combination, that heel-toe kind of approach 
towards a strategy that utilizes robotic capabilities, much 
like we're going to do here in the coming months when we send 
the Mars explorers in May and June of this year intended for 
landing in January of '04, is to then consider all the efforts 
we've got to do to prepare for, then, the follow-on kinds of 
exploration objectives.
    But, again, the reiteration of the first commitment to you, 
positively we'll continue to work together and refine this 
strategy to assure that we do it with least risk, but the 
greatest opportunity for exploration and discovery potential.
    Senator Brownback. Thank you. And I look forward to working 
with you on that design of where we----
    Chairman McCain. The gentleman's time has expired.
    Mr. O'Keefe. Thank you, Senator.
    Chairman Boehlert. Mr. Rohrabacher.
    Representative Rohrabacher. Thank you very much.
    First and foremost, I'd like to associate myself with the 
remarks and the concerns of Chairman Boehlert about the basic 
nature and the importance of the integrity of this commission's 
investigation and our oversight of that commission's work.
    Second of all, I would like to just note that, at the 
memorial service down in Texas I was touched particularly by 
the people of Texas, and especially by the children of Texas, 
who, as we went to this memorial service, they came out on the 
streets and roads and waved little American flags and had 
little signs up to encourage us, and it was very encouraging 
for our country. So we recognize that there was a special bond 
between the children of America and our astronauts.
    And today we're building, and we're going to make sure that 
we build a better future for our children. And if there's going 
to be a better future for our children, we've got to have a 
viable space program that will keep them in the forefront of 
this great human endeavor of going into space and pioneering 
space.
    So let me--I have a few thoughts, and I'll have a few 
questions for you. The hardworking and patriotic people of NASA 
have always understood and appreciated the risks with space 
exploration, especially manned missions. Unfortunately, in the 
past 17 years, we have been reminded of the dangers of human 
space flight with the destruction of the Space Shuttle 
Challenger in 1996--or '86, I should say --and now the 
Columbia.
    Seventeen years ago, we took a step backwards for a few 
moments to take a look at that tragedy and pinpoint to our 
satisfaction what caused it and then correct those causes, at 
least the technical causes of the loss.
    Today, I am confident that Admiral Gehman and his 
commission will get to the truths that will help us understand 
Columbia's fatal accident. However, many questions need to be 
addressed that transcend the immediate technical and managerial 
problems of this tragedy.
    We're going to hear a lot about the technical end of it, 
but there's a lot of other questions that go way beyond that. 
The lack of long-term goals or a unifying vision for America's 
space effort, for example, needs to be addressed to fully 
understand this tragedy. This failing, I believe, weaken the 
efforts that would have been taken to replace the Shuttle 
system long before age became a factor. And we will find out, I 
believe, that age was, indeed, a factor.
    Perhaps Mr. Hollings, or Senator Hollings, is right, 
perhaps it's simple what we're looking at. Perhaps it was the 
tiles and--in terms of a simple answer; and a more complex 
answer might be facing--it might be age. But this tragedy and 
this investigation, nonetheless, gives us an opportunity to 
revisit the fundamentals and make recommendations that will 
chart America's future space endeavors.
    NASA's leadership has faced, and will continue to face, the 
challenge of exercising responsible stewardship with limited 
resources while providing a coherent blueprint of what can be 
accomplished and how it can be accomplished. But hopefully, 
forward-looking strategies will lead us to incremental advances 
that will then permit us to achieve long-term objectives. A new 
propulsion system might be a good start, as well as, perhaps, a 
look at robotics and remote control on the part of NASA, a new 
commitment on that end. But before we move forward, we must 
fully understand why these seven people perished.
    My question to you today is, the age factor, Was this 
Shuttle's age, a 30-year-old system, a major factor in this 
tragedy we're investigating today?
    Chairman Boehlert. Administrator O'Keefe.
    Mr. O'Keefe. Well, thank you, Congressman. And, again, I 
associate myself entirely with your observation that ultimately 
the investigation will be what guides us to that conclusion. 
And if that is a factor, you bet, that's exactly what we'll 
operate on.
    Having said that, it is worth noting two really important 
factors on this. The Columbia, indeed, is the oldest, or was 
the oldest, of the four orbiters. It was delivered in late 
1970's. Its first flight was in 1981. It was half the age of 
the average bomber aircraft that flew in Afghanistan just a 
year ago that prosecuted that very important effort that we 
were engaged in there.
    So the air frame condition on this--each time we go through 
this orbiter major modification I referred to in the opening 
statement--is essentially the equivalent of the same kind of 
effort the military, the Defense Department, goes through of 
tear-down of every single element of the capability of the 
orbiter itself, its structural integrity inspected and examined 
very carefully, then rebuilt to modernize it to contemporary 
capability. That particular effort had just been conducted, an 
18-month tear-down of the Shuttle Columbia, and delivered early 
last year in advance of the March flight that went to Hubble, 
that did the servicing mission. STS-109 was the first flight of 
Columbia after that particular Orbiter Major Modification 
effort, which, again, is patterned very much after the depot 
kind of approach that's taken at all of the Defense Department-
related assets, only even more exhaustively to conduct the 
upgrades. This was the second flight after that particular 
tear-down.
    So the age factor, again, you're exactly right, the 
investigation may yet prove or may demonstrate to us that there 
was a contributor there. But in terms of our efforts to assure 
that not be a factor, again, it appears to be every element of 
diligence could be done to assure that, there was a previous 
flight that operated just perfectly, no difficulty whatsoever 
on Columbia, no structural defects upon return. And upon every 
single orbiter flight return, we examine all of the elements of 
the Shuttles themselves, the orbiters themselves, and we move 
it through the Orbiter Processing Facility to assure that any 
damage, any structural problems, anything are detected. And 
there was absolutely nothing wrong with the Columbia that we 
could detect in that regard. So when it flew on its second 
flight, it was in the same shape it was when it left the 
Orbiter Major Modification program just a year before.

                    History of Tile Damage and Loss

    Chairman McCain. Senator Breaux.
    Senator Breaux. Thank you, Mr. Chairman.
    Mr. O'Keefe, thank you. I want to also congratulate you on 
the method in which you've handled this tragedy and the 
openness that I think we've seen from NASA in how you are 
approaching the investigation, both internally and with the 
external investigation, as well.
    Let me ask, do we have any idea of how many times the 
insulating tiles have come off a Shuttle during launch and how 
many tiles have actually come off during the history of the 
Shuttle launches?
    Mr. O'Keefe. To the best of my recollection, sir, in our 
efforts there, it's no more than a half a dozen times that was 
specifically related to it. After each flight, there is always, 
again, as I mentioned just a moment ago to Congressman 
Rohrabacher, an assessment summary that's conducted to look at 
each element of the orbiter when it returns. There's also an 
inspection of the external tank, which, as you're aware, when 
it reaches the upper atmosphere, it disintegrates. The two 
Solid Rocket Boosters, once expended, drop back into the 
ocean----
    Senator Breaux. Well, but on the tiles themselves.
    Mr. O'Keefe. I'm sorry.
    Senator Breaux. How many times have the tiles come off, and 
how many tiles have come off during the history of the Shuttle 
launches?
    Mr. O'Keefe. Yes, sir. At each flight, there's typically a 
ding or a scratch or whatever else from all the various efforts 
that occur as they are re-entering, as well as on ascent. I'll 
provide, for the record, a full summary of all of the times on 
each flight that a tile has been missing or lost or whatever 
else. But it was never considered to be significant, in terms 
of its safety-of-flight consideration that we've examined on 
the orbiters when we moved it through the Orbiter Processing 
Facility to look at the condition of the orbiters after each 
flight. But we'll submit that for the record, sir.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Breaux. If engineers on this particular case had 
determined that insulating tiles had, in fact, departed the 
Shuttle at some point and that it was in an area that was 
important and very key, could the angle of attack on the re-
entry of the Shuttle have been adjusted to deflect the heat?
    Mr. O'Keefe. That's a potential maneuvering capability. 
But, again, there are more than 4,000 sensors aboard each 
Shuttle orbiter, and if there were any indication that there 
were any abnormalities as a consequence of tile loss or 
whatever else, they likely would have shown up during that 16-
day orbiting mission.
    More importantly, during the course of that time, recall 
that in each orbit you're looking at a sunset and a sunrise 
every 90 minutes, which means every 16 times a day, the 
temperature variation on an orbiter or a Shuttle flight varies 
by as much as three to four hundred degrees, plus--200 degrees 
during the sunlight, and minus about 150-plus during the 
darkness period of that 90-degree rotation--or 90-minute 
rotation each time it orbits. So that wide range of temperature 
variation, if there had been exposure, almost certainly would 
have shown up on one of those 4,000 sensors that are aboard the 
Shuttle orbiter to have given us an indication.
    The fact of the matter remains, there were no abnormalities 
that would suggest that problem until 8:53 the morning of 
Saturday, February the 1st.
    Senator Breaux. But is there no way that these sensors or 
any other methodology would have determined if any of the tiles 
had departed the Shuttle during the actual mission, before it 
returned to Earth?
    Mr. O'Keefe. We don't think so. Every effort that were made 
on previous flights to examine any structural damage or change 
or whatever else using any kind of visual capabilities were 
either inconclusive or not of the level of granularity that 
really gave us that much detail. And, again, all the supporting 
data would have also suggested if there were problems on it.
    Again, the reality remains, over that 16-day mission--and, 
again, the investigation may find some data that we're not 
aware of right now, because everything was locked down within a 
half an hour after the incident. If there's something else that 
emerges to suggest to the contrary, we're going to get to the 
bottom of it. But all the information we have now and after the 
flight and after the examination of it, suggests no 
abnormalities that would have pointed in that direction at all.
    Senator Breaux. What degree of certainty----
    Chairman McCain. The gentleman's time has expired.
    Chairman Boehlert. Mr. Gordon.

      Reiterating the Need for an Independent Investigation Board

    Representative Gordon. Thank you, Mr. Chairman. And 
welcome, Mr. O'Keefe. I'm glad you joined us today.
    Before I move to discuss other issues, I just want to 
stress my concern that the investigation of the Columbia Space 
Shuttle accident ultimately must be perceived as objective and 
independent if Congress, the President, and the American 
taxpayers are going to reach a consensus on how to move forward 
with our space program. It's no reflection on you or the 
Admiral, but that's not going to be possible if there are 
lingering questions regarding the independence of the board.
    As you know, I've raised this question for several days 
now. And having checked with your office this week and the NASA 
Web site this morning, there seems to be a clear disconnect 
from your statements about the board's independence and the 
rules you're laying down for the board.
    Let me quote just a few examples of your rules, as Mr. 
Boehlert had earlier. The current board not only includes NASA 
employees, but you also require it to be staffed by NASA 
employees who will help write the board's final report, which 
goes to you. You require that the board must, and I quote, 
``schedule board activities, interim board reports, and submit 
the final board report in coordination with the NASA 
administrator in accordance with the applicable NASA 
policies.''
    Now, Mr. O'Keefe, I am afraid this will not pass anybody's 
smell test of independence. So please, let us move forward in a 
concrete way and put this bipartisan concern behind us.

                         ASAP's Safety Concerns

    Now, let me turn to another issue that is troubling. As you 
know, there have been numerous warning flags regarding the 
health of the Shuttle program in recent years. Just a few 
examples. April 2002, Richard Blomberg, head of the independent 
Aerospace Safety Advisory Panel, issued a blunt warning when he 
testified before this House Subcommittee. And I quote, ``In all 
the years of my involvement, I have never been as concerned for 
the Space Shuttle safety as I am now.''
    A month earlier, the Aerospace Safety Advisory Panel gave 
you a report that stated, and I quote, ``The current and 
proposed budgets are not sufficient to improve or even maintain 
the safety risk level of operations for the Space Shuttle.''
    Yet in spite of these warnings, you sent over a NASA budget 
request that cut the budget for Shuttle upgrades by $500 
million, even while finding a billion dollars for new 
initiatives.
    Because of my concern, I asked Fred Gregory, who was then 
the NASA Associate Administration for Space Flight, the 
following question at this same April 2002 hearing. ``Mr. 
Gregory, how would you support the space station in the event 
you lost a Shuttle and the rest of the fleet was grounded for 
some period of time?'' Mr. Gregory responded, ``There would be 
no way to do that.''
    Now, I assumed that such an admission would have kicked off 
an intense effort to develop a contingency plan for supporting 
the space station. However, at your press briefing Monday, you 
indicated that over the next few weeks NASA would be working 
with the space station international partners to come up with a 
plan. You reiterated that earlier today.
    Given the fact that you've had numerous warnings and you 
knew the Shuttle was grounded for two-and-a-half years after 
the loss of Challenger, I would assume Mr. Gregory's admission 
nearly a year ago would have been a wake-up call.
    So my questions are, Did NASA prepare a contingency plan 
for the space station last year? If so, what was in the plan, 
and why do you now believe that you need to redo it? And, 
finally, if you didn't have a plan, why not?
    Mr. O'Keefe. Yes, sir. We did prepare a contingency plan. I 
guess I've outlined a number of those options. You've 
acknowledged that you heard those as part of presentation and 
the testimony. We'll continue to look at those alternatives 
using Soyuz as well as Progress vehicles, and we're also 
hopeful of an expeditious conclusion that would tell us what 
occurred on Shuttle Columbia that would give us an opportunity 
to return to flight expeditiously.
    All those factors are in play. Those are all part of that 
contingency plan. I think the specific reference in this case 
from the testimony you cite, was no way to get back with 
Shuttle immediately given the safety considerations that we 
will always ground the fleet under those circumstances.
    I fully concur on your opening comments, too, as it 
pertains to charter revisions, to the extent they are 
necessary. As I pledged to Chairman Boehlert, we will make 
those changes in any way that Admiral Gehman feels he has to 
have in order to guarantee that independence.
    I have no difficult whatsoever understanding his 
requirements for independence, and he has reiterated those, and 
I intend to comply exactly with that approach.
    Chairman McCain. Senator Fitzgerald.

                      Questioning an Aging System

    Senator Fitzgerald. Thank you, Mr. Chairman.
    Mr. O'Keefe, the day after the Columbia accident, I 
happened to be having a town hall meeting in Champaign, 
Illinois, and I asked--there were about two, maybe two-hundred-
fifty, people in the room--I asked them whether they thought we 
should continue with manned exploration of space, and I 
explained to them that it could cost us billions of dollars and 
years to make ourselves able to continue going forward in 
space.
    To my surprise, I'd say about four-fifths of the people in 
that room wanted us to go back and continue human exploration 
of space. And my state of Illinois has very little in the way 
of spending that it benefits from. We're not Florida or Texas. 
And I want the space program to continue.
    And I wondered if you had a gut impression at this point--
and I know it's early, but it seems to me we can go in one of 
two directions. We could spend billions of dollars and perhaps 
years trying to patch up and fix whatever may be wrong with the 
Shuttle program, but you're basically dealing with a 30-year-
old design. My understanding is there are some 1.2 million 
checks that have to be done by hundreds of people before a 
single Shuttle flight can take off. It's extraordinarily 
complex.
    My question is, Do we go forward and spend that time and 
that money reinforcing the Shuttle program, or would we be 
better off not diverting the resources to reinforcing this 30-
year-old Shuttle program, and, instead, try and proceed with a 
new vehicle and focus all our effort on that?
    Mr. O'Keefe. Well, thank you, Senator. The factors, I 
think, that lead to the complexity of the Shuttle and the 
amount of checking that goes on there certainly is driven by 
the technology, no doubt about that, the number of moving parts 
on that asset. But I would submit that any asset we have that 
we would use, for the purpose of a Reusable Launch Vehicle 
capability to launch, would also require an awful lot of 
checks, as well, because of the absolute dedication, the 
unwavering commitment to safety, that we always pursue.
    Every time we launch a Shuttle flight, no matter what that 
asset would be, it would require, I think, a review of all the 
systems checks. And the ethos that we have within the agency 
and all that are part of the community is that if there's a 
single thing that is wrong or that appears to be wrong in the 
judgment of any individual, there is a process set up to stop 
the launch.
    Two weeks in advance, there's a Flight Readiness Review 
that runs to ground every issue involved in that. If there's 
any residual issues all the way up to the moment of launch, we 
don't do that. I don't envision that changing. Even if we had a 
system today that was brand new, I think that same ethos would 
have to dominate, because we really are committed to that 
objective to minimize the risk. We'll never drive the risk out 
of it completely. And so I think that same approach would be 
employed no matter what assets or capabilities.
    Having said all that, if the investigation leads us to 
conclude that there is anything structurally deficient about 
the continued safe operations of the Shuttle system, we 
positively will take that as a very strong element of the 
investigation findings and make judgments accordingly that may 
lead us in the kinds of directions you're talking about.
    In the interim, again, our approach is, as I discussed with 
Congressman Rohrabacher, we tear down this system about every 
eight to ten flights, essentially rebuild it as new, and it 
goes through that 18- to 24-month Orbiter Major Modification 
Program. And so every time that asset goes up there, it is as 
safe as we know how to make it.
    We'll never drive the risk out entirely, but we're trying 
to manage it down to the lowest possible level and assure that 
anything that appears even vaguely awry is beaten to parade 
rest before we let the flight take off, and during orbit, as 
well.
    Chairman Boehlert. The gentleman's time has expired.
    Mr. Calvert.
    Representative Calvert. Thank you, Mr. Chairman.
    Thank you, Mr. O'Keefe, for attending today. And certainly 
my sympathies to the family and to the NASA family that's 
certainly still grieving over this loss.
    I think all of us here today share one thing, and that's 
that we desire an independent assessment, unbiased and with the 
highest integrity, to ensure that future astronauts, NASA, this 
Congress, and the country have confidence in its ultimate 
result. Certainly you're off to a good start, and I certainly 
appreciate that, and I know that we do and the country does. 
But as Chairman Boehlert has indicated, it may be necessary 
that changes be made to make sure we maintain that confidence. 
And I'm thankful that you're open-minded to that.
    It's reported that we have a certain amount of money 
appropriated, I believe about $50 million, for NASA to complete 
this investigation. Is that funding adequate to pursue, in your 
mind, to the levels that we're discussing?
    Mr. O'Keefe. I don't know, sir. As I understand it, that's 
part of the current appropriations conference deliberations. 
I've read the same press accounts you have. I have no other 
knowledge of what you and your colleagues may have in mind for 
that Omnibus Appropriations bill provision, and so I can't make 
an assessment of that. And I don't know what the cost of this 
will be, other than to say that whatever it costs, that's what 
we ought to spend in order to be sure that we reach the answers 
to what caused this accident.
    Representative Calvert. Obviously, NASA is not the only 
agency that's going to be involved in this investigation. Are 
you receiving cooperation from other agencies, full 
cooperation?
    Mr. O'Keefe. Yes, sir. It's overwhelming. There is no 
hesitancy, there is no confusion of how that process works. 
I've just been amazed to see how forward-leaning 20 different 
Federal agencies, state and local law enforcement officials 
from Texas and Louisiana, have been in helping us work through 
what is a real nightmarish circumstance in a way that's 
professional, aboveboard, and fully cooperative. No hesitation 
on that point at all.
    Representative Calvert. And that also would apply to the 
contractors that are involved in this program?
    Mr. O'Keefe. Yes, sir, absolutely.
    Representative Calvert. I know I've read the press quotes. 
You mentioned, just as of yesterday, that you had no favorite 
theories of what occurred, and I understand that. However, as 
we move forward in this Congress, I guess that what Mr. 
Rohrabacher and others have indicated, do you believe, because 
of the age of the Shuttle, there is any systemic problem that 
may be there? And what's our alternatives if, in fact, that's 
the case?
    Mr. O'Keefe. Again, none that I'm aware of. And, again, we 
go through an exhaustive process to assure that that the 
safety-of-flight operation is adhered each and every time. This 
is not a one-shot deal. It's every--every time it comes back, 
the orbiters return, we do a careful inspection, we go through 
a very exhaustive review of everything, and we do not roll it 
out immediately. There's an orbiter processing facility effort 
that goes on for the better part of three months as we move it 
through an exhaustive examination. And then when it gets out to 
the launch pad, typically it's there for the better part of 30 
days in order to make sure that every single thing checks out.
    So if there's something systemically wrong, we will be 
guided by the Gehman board's view of that and we'll correct it. 
But based on our assessment right now and everything we've 
done, it sure doesn't look like a systemic failure. But if it 
is, we positively will correct that before we launch ever 
again.
    Representative Calvert. Thank you.
    Mr. O'Keefe. Thank you, sir.
    Representative Calvert. Thank you, Mr. Chairman.
    Chairman McCain. Senator Dorgan.

                  Suggesting a Presidential Commission

    Senator Dorgan. Mr. O'Keefe, thank you for being here 
today. I think most of us feel that a nation that doesn't 
explore is a nation that's standing still, and this space 
program must continue exploring the frontiers of space.
    I want to ask you a question, and I don't want you to think 
the origin of my question poses any distrust for you or the men 
and women of NASA. I have great admiration for your leadership 
and also for the men and women of NASA. But as we attempt to 
find out what happened with this tragedy, it seems to me that 
in almost any circumstance of this type, an agency can't very 
effectively investigate itself. I feel there ought to be a 
Presidential Commission empaneled. I would ask the question, 
Have you had a chance to visit with President Bush about the 
prospect of that? And can it be done enveloping reconfiguring 
the kind of commission that you have now created?
    Mr. O'Keefe. Yes, sir. Oh, yes, indeed, we have visited on 
the question, to the President as well as the Vice President 
and all the senior staff on the issue. And I guess the approach 
that--history is a guide in these cases.
    In the Challenger accident, it was five days after the 
accident that President Reagan announced the intent to appoint 
a commission. It was the better part of 10 days to two weeks 
before they assembled. It was probably the better end of three 
to four weeks before they were fully prepared to engage and 
really start taking testimony and doing the things that were 
necessary. And they still, nonetheless, produced a set of 
findings and recommendations by June of 1986. So roughly six 
months after the accident they were able to reach some 
conclusions.
    In this circumstance, given the development of this 
contingency plan that we've put together as a lesson learned 
from Challenger, and there was an awful lot that we learned out 
of that event, that really informed us about how we ought to go 
ahead and look at ourselves and how we do business. And what it 
called for as part of that contingency plan was to identify, by 
positions, the kinds of people that ought to be activated, who 
are non-NASA individuals and experts, and mobilize them right 
away.
    And so as a consequence, what we defaulted in favor of in 
this case was speed. We had an opportunity then to have all the 
members except one, who was a NASA center director of a non-
space-flight center, who has no involvement with space flight 
at all, who was appointed to that particular board. Everybody 
else is removed from it, and we're moving ahead in that regard 
as independent as we can possibly make that.
    Senator Dorgan. Can I make the point that I think you did 
exactly the right thing, because you don't want time to elapse. 
You took action and did the right thing. I'm asking, I guess, 
as we go along, whether a presidential commission can now 
envelope, reconfigure the commission that you have started.
    I really do think that a year from now, three, five years 
from now, the question people will ask is, Could NASA really 
have investigated itself? Again, I don't say that with any 
distrust at all. I think you've got a great organization. But I 
really do hope, as we go along here, we're finding a way to 
perhaps have a Presidential Commission. We don't want to 
duplicate different investigations, but I think this could be 
done in the right way and will resolve these questions of 
independence.
    Mr. O'Keefe. Yes, sir.
    Senator Dorgan. So let me wish you well, and please extend, 
on behalf of all of us in the Congress, our thoughts and 
prayers to the men and women of NASA.
    Mr. O'Keefe. Thank you, Senator. We're committed to exactly 
the same objective. We want to find the answers, and we want it 
to be credible. I mean, there's no question about that at all. 
So whatever it's going to take in order to do that, that's what 
we are committed to doing.
    And the process, again, is not investigating ourselves. 
This is an independent group of folks who have no, baggage to 
carry as it pertains to, NASA biases. Admiral Gehman came from 
a distinguished naval career that had no involvement whatsoever 
with NASA, and yet, at the same time, I think he's had a lot of 
experience, as all the other members did, of better than 50 
different investigations into accident situations.
    So this is not a group of NASA investigating itself. This 
is going to be an independent group that's going to reach some 
conclusions, and we want to make sure that's as credible as we 
can possibly make it, because that's going to turn on--I think 
the trust and confidence of the American people depend upon 
that. Your point is exactly right. I associate myself with that 
sentiment, as well.
    Chairman Boehlert. Mr. Lampson.
    Representative Lampson. I want to thank you, Mr. O'Keefe, 
for coming to Capitol Hill to testify today. As the member of 
Congress who represents the Johnson Space Center, I would also 
like to thank you and your NASA team for the support and 
encouragement that you've provided to the space center 
community in Houston during this very difficult time.
    I'm somewhat of a reluctant participant in this hearing. 
Today is the 11th day since the tragic loss of Space Shuttle 
Columbia. There's so much that we do not yet know and perhaps 
some things that we may never know.
    It's my understanding that there were no Congressional 
hearings on the Challenger investigation in 1986 until after 
the Rogers Commission completed their report four months later. 
And while I know we're operating under different circumstances, 
with three astronauts orbiting the Earth in the International 
Space Station, I do question the merits of having this hearing 
so soon after the Columbia Shuttle accident.
    I believe Congress needs to allow the investigation to move 
forward and to let the accident investigation board members do 
their work. Hopefully we will complement your efforts and not 
impede the process.
    That being said, I firmly believe that the Administration 
needs to move forward with a truly independent investigation 
similar to what President Reagan appointed in 1986 after the 
Challenger accident.
    I think NASA made a good first step by revising the board's 
charter last week, but I still believe, as my colleagues have 
stated, that NASA's external investigation team is too closely 
tied to the agency.
    As NASA Administrator, the board's charter allows you to 
appoint the team members, to staff the board with NASA 
employees, and to receive the final report. In order for this 
review to have credibility, I believe it needs to have team 
members who are truly independent and who report to the White 
House and Congress.
    Also, seeing all the cameras and the media presence in this 
hearing room today begs the question, Where was all this 
attention to our human space flight programs before February 
1st? While I applaud the renewed interest, I regret that it 
takes the loss of seven fine astronauts for our space program 
to make the front page of the newspaper or the top story on the 
evening news.
    And while it may seem routine, the work that is being done 
by NASA in outer space is far from routine. We're doing so many 
great things in space that benefit us right here on Earth. My 
hope is that somehow this terrible tragedy will spur the 
Administration to develop an interest in a real, truly robust 
space program.
    And I'd like to call for a new space race for the 21st 
century. This space race is not against the old Cold War enemy 
or an emerging power in the East, but rather our new space race 
needs to be against ourselves for our own future.

                        ISS Contingency Planning

    And let me ask two things, Mr. O'Keefe. First, a copy of 
the contingency plan for the International Space Station that 
you referred to a few minutes ago, could you possibly get that 
to us within the next week or so? We would appreciate it.
    [The information follows:]

    Copies of the following documents have been provided to the 
Committee:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    And then let me ask, in 1999, when problems with the 
experimental X-33 Reusable Launch Vehicle demonstrator made it 
clear the Space Shuttle would have to be relied on for many 
more years, perhaps until 2020, the Clinton Administration's 
OMB sensibly increased the Shuttle upgrades budget 
significantly. However, in 2001, the Bush Administration's OMB, 
of which you were deputy director, simultaneously cancelled X-
33 program and cut the Space Shuttle safety upgrades budget. 
How can that possibly have made sense, and can you tell us why 
you did that?
    Mr. O'Keefe. Again, I'd have to go back and take a look at 
when NASA cancelled the X-33 program and exactly what was 
leading to that particular case. But if I can get slide 16, 
please? The history over the course of time, as I understand 
it, was a span that you'll see on this particular slide that 
was for Shuttle funding over the course of that time. The 
increase that you see occurred, again, as part of the fiscal 
year '03 budget proposal that we made, and '04, that was just 
submitted to the Congress last Monday.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    So my reading of the data and the information is that 
there's an awful lot that contributed to this particular change 
in funding profile over this span of time, but it was primarily 
driven by a concurrent, I think, focus on safety improvements 
and kind of concentrating on all of the factors that would lead 
to safe-flight operations, and, concurrently, efficiencies that 
drove down the cost of guaranteeing those particular safe-
flight operations through the '90's.
    And the most significant increase that's occurred is part 
of the fiscal year '03 budget amendment the President submitted 
last November, and the fiscal year '04 budget was submitted 
last Monday. So those are the primary increases that I've been 
able to examine, but I'd certainly be prepared to submit all 
that for the record for your consideration, sir.
    Representative Lampson. Thank you.
    Chairman McCain. Senator Allen.
    Mr. O'Keefe. One other comment, if I could, Senator, is 
just to reiterate again that the Gehman Commission will report 
to all of us. He's going to report to the President, to 
Congress, to all the American people as soon as they reach 
findings. I have no intention whatsoever of putting any value 
added to their findings. As soon as the ink is dry, it will be 
released by Hal Gehman. There is no other approach that I can 
think of that would be a more appropriate way to handle this so 
we can move on with finding what the solution is to the 
problem, get the answers to it, and make the corrections 
necessary to get back to flying safety.
    Representative Lampson. Thank you.
    Chairman McCain. Senator Allen.

                    Role of Automation and Robotics

    Senator Allen. Thank you, Mr. Chairman. Thank you, Mr. 
O'Keefe, for being here.
    I want to associate myself with some of the thoughts and 
philosophy stated in the beginning by our chairman, Senator 
McCain. And I want to focus on the long-term goals of NASA, 
broader goals.
    If anything good can come out of this tragedy, I think it 
would be the reinvigorated focus on the mission, primary 
mission, of NASA, which ought to be scientific research that 
has benefit for people here on Earth. And I think such sensible 
strategic planning would be a salutary goal and part of the 
legacy of the tragic loss of these brave men and women. And I 
know that of paramount concern to you and all the people in 
NASA is safety, safety for humans primarily.
    Previously, before this tragedy, I know you're on record as 
supporting refurbished or upgraded Shuttles so they can remain 
operational for the next 10 to 20 years. I think, in examining 
the broader goals of NASA, it would be helpful if we'd have 
some consideration of what is going to be the next orbiter. 
There are so many questions that we have to determine, and this 
is just the beginning of this examination. Once we get into our 
committees in the House and Senate, we'll get in greater 
detail.
    But my question is specific on automation and robotics, and 
how can robotics and automation and advances in technology, how 
can that make it safer? It is less costly, but it's also safer 
for human life. And so is NASA considering an entirely new 
space plane orbiter or downsizing the manned space flight? 
Depending on which option is chosen, how will that shape our 
efforts, our efforts also as the $30 billion, of course, that 
we've already invested in this space station, the International 
Space Station, as an investment? But where are we in embracing 
some of these advancements in automation and robotics? And in 
the strategic planning, will it effect the continued 
dangerously underfunding of aeronautics, which I think have 
tangible benefits to us militarily as well as in the commercial 
markets?
    So I'd like your thoughts on these key paths that we need 
to go down and decide which ones we're going to go down in the 
future.
    Mr. O'Keefe. Thank you, Senator. It is, in my judgment, not 
an issue of either/or, robotics or human space flight. It's how 
do you do it compatibly? How do you find the appropriate role 
for robotic capabilities that set, in advance, the kind of 
knowledge base that you need in order to then support, when 
necessary, and in circumstances where human intervention and 
human involvement then becomes very critical.
    Again, the Hubble Telescope is the classic example. It's a 
marvelous piece of machinery that didn't work, and the only way 
it could be adjusted was to have human involvement in order to 
make those adjustments on each of the respective servicing 
missions that have gone on. And now it is rewriting the 
astronomy books. It is a classic example of how that 
compatibility between robotics and the use of human space 
flight intervention, when necessary, can advance the knowledge 
base dramatically.
    But we have to really focus on the risk management side of 
this and assure that we always use those robotic capabilities, 
I think, as you've suggested, as a way to fully beat down any 
of the manageable risk that we see before involving a human 
space flight capability for that reason, as well as being 
careful about when you utilize the human involvement dimension 
to this. That's part of the reason, and a lot of the reason, 
why the Mars program that we're pursuing for the Mars landers 
that are planned for later this year and arriving in January of 
'04 is to advance that knowledge base, understanding fully 
what's going on in order to then fully support what could be, 
down the road, a human--a mission that could support that case, 
if deemed appropriate, necessary, and supported by the research 
and the science opportunities that could be yielded.
    So the strategy you've talked about and the approach that 
you're alluding to is precisely the direction we're trying to 
develop now, and have been for some time, as a means to 
complement those capabilities and always use the robotic 
capacity up front as the means to inform those judgments.
    Chairman Boehlert. The gentleman's time has expired.
    Mr. Lucas.
    Representative Lucas. Thank you, Mr. Chairman.
    Mr. Administrator, down at the Smithsonian, they have a 
piece of your old equipment hanging for all the world to see, 
the X-15 from the 1960's, which is a symbol of a debate and a 
decision by the generation ahead of you and I that, in the 
spirit of satisfying the common need of the United States 
Congress and the American people for immediate gratification, 
it was better to strap men and women and equipment on ballistic 
missiles than it was to focus on creating space planes.
    Your comments today--you point out about the potential 
future for an Orbital Space Plane and the Reusable Launch 
Vehicles--with reasonable budget and reasonable focus, how far 
down the road are we talking about before we have functioning 
replacement systems like that?
    Mr. O'Keefe. Well, the budget before the Congress as part 
of the amended fiscal year '03 proposal the President made last 
November, would contemplate a technology demonstrator of the 
Orbital Space Plane as early as fiscal year '06, flight testing 
and so forth to occur as soon as next summer that would lead up 
to that technology demonstrator. Then, from there to developing 
as we've now completed the essential baseline requirements, if 
you will, look for competing approaches--not a technology 
demonstrator, but an operational vehicle--that would accomplish 
the objectives of both rescue and return capacity as well as 
transfer to the International Space Station. It would be 
online, we would hope, as early as the end of this decade, and 
we're kind of moving in that direction to try to establish 
that.
    This would be a complementary capability to the Space 
Shuttle and use the Space Shuttle primarily as a cargo 
capacity, heavy-lift ability, rather than trying to make a 
vehicle that's all things to all requirements. This would be a 
crew transfer capability that would be maneuverable, flexible, 
and responsive to those kinds of circumstances where needed 
most.
    Representative Lucas. Booster, slash, plane, or a two-stage 
plane, Administrator?
    Mr. O'Keefe. It is initially planned as a capability 
mounted atop an Expendable Launch Vehicle. And that technology 
demonstrator will be that initial capability that we will 
utilize at that time.
    Representative Lucas. Along that line, since it's obvious 
that, with that amount of effort required and the need, as 
you've pointed out so succinctly, to keep the workhorse, the 
old Shuttle, up and going, could you address for a moment some 
of the discussion we've had on the committee for some time 
about the effect on the reduction in the number of people who--
full-time employees who support the Shuttle over the last 
decade--literally, what, one-third less people still making, if 
not the same number, but even a greater number of safety 
checks?
    Mr. O'Keefe. Absolutely. I think the history appears to 
suggest--and, again, we'll be guided a lot by the review that 
the investigation board will go through in terms of looking at 
the systemic causes of what may have been there. So their 
charter is very broad, and their scope is rather extensive. But 
it would appear as though that the--exactly as you've 
suggested, the history is that while cost reductions and 
efficiencies were gained over the course of that period, as 
previously described on a slide, there were also improvements 
in the safety margins as well as the reduction of incidents 
prior to launch, on-orbit incidents, you name it, there were--
all the trends were moving in a direction that proved or 
demonstrated greater efficiency in addition to slide 18, if you 
will, that would prove the capabilities, I think, that have 
significantly improved over the span, both decreasing incidents 
and increasing efficiencies.
    But, again, all that is, is based on the data and the 
information we see over this particular trend line. We're going 
to be guided by what the systemic causes are that the 
investigation board may come back and look at for this 
information and say that may or may not have been a 
contributing factor to it. And we'll be guided by their view.
    Representative Lucas. Thank you, Administrator.
    Mr. O'Keefe. Thank you, sir.
    Chairman McCain. Senator Boxer.
    Senator Boxer. Thank you very much.
    Mr. O'Keefe, I want to join my colleagues in sending my 
condolences to the families and also my feelings of condolence, 
as well, to NASA. In California, we're the birthplace of the 
Shuttle program. We hold a very special place in our heart for 
the heroes who conduct these flights. And it's in this spirit 
that I ask my questions.

                          Crew Escape Systems

    In the year 2000, your safety panel made a very clear 
recommendation. I ask unanimous consent that I place this page 
in the record. I trust, without objection, that will be done.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Boxer. This is a quote, ``The Presidential 
Commission on the Shuttle Challenger Accident addressed crew 
escape in their report and recommended that NASA make all 
efforts to provide a crew escape system. NASA responded by 
initiating crew escape studies.'' This is in this safety panel. 
Then it says, ``Over the lifetime of the Space Shuttle, the 
reliable post-launch crew escape system will provide the 
largest potential improvement in crew safety. NASA has 
completed or has underway a number of studies that also suggest 
such a system is feasible.'' And then they say, ``The time is 
past due for the implementation of a more capable crew escape 
system.''
    Now, Mr. O'Keefe, after that report was filed, members of 
the safety panel were fired. And I ask unanimous consent to put 
in the record the New York Times story entitled NASA Dismissed 
Advisors Who Warned About Safety.
    Mr. Chairman, will you put that in the record for me? Mr. 
Chairman? Mr. Chairman?
    Chairman Boehlert. Without objection.
    Senator Boxer. Thank you.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Boxer. And after that report and after the people 
were fired, four board members were fired, two consultants were 
fired, one board member quit because he was upset at the 
firings. That left you two people. You changed the charter of 
the panel.
    And I ask unanimous consent that the new charter and the 
old charter be placed in the record.
    Chairman Boehlert. Without objection.
    [The information referred to follows: the old charter, 
dated April 29, 1999; the new charter, dated May 1, 2001. 
Please see Appendix 2: Additional Material for the Record for 
the charter dated May 1, 2003.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Boxer. And, in essence, without going through the 
bureaucratic talk in here, the new charter, Mr. O'Keefe, gives 
you much more power--the NASA Administrator, not you 
personally; in this case, you personally--more power to 
essentially veto who they choose as chair of the panel.
    So I put all these pieces together, Mr. Chairman, and I 
have concern. I see a report that clearly doesn't mince words 
here that time is past due for the implementation of a more 
capable crew escape system. I see members being fired. I then 
see a new charter where now there's less independence of the 
safety panel.
    I want to know how you feel about this array of facts. 
First of all, do you agree that the time is past due for the 
implementation of a more capable crew escape system? And if you 
do, why haven't we seen more done about it? Number two, why do 
you think those folks were fired? And, number three, would 
agree, in light of your, I believe, very sincere comments that 
safety is a priority, that you would go back to the old charter 
where the panel could choose its own leader and not have the 
NASA administrator veto it?
    Mr. O'Keefe. Well, thank you, Senator.
    On the first issue, as it pertains to crew escape, again 
there were a series of very important recommendations that came 
from the Rogers Commission or outgrowths of the post-Challenger 
experience--that changed operational procedures as it pertained 
to crew escape and capabilities that were recommended therein. 
And prior to launch, there is a complete safety regime that's 
in place that didn't exist prior to the Challenger, because of 
their recommendations. It's a very significant change.
    Having said that, my understanding is that the analysis 
that went on a couple or three years ago following that 
particular set of reports of the options all led to a series of 
technical modifications to the Shuttle which have increased its 
weight dramatically, its operations, its maneuverability, and 
so, therefore, were deemed to be a marginal improvement in 
safety that could be attained, if at all, and yet dramatically 
increased weight, which would have compromised the safety of 
on-orbit capabilities.
    Senator Boxer. So you didn't agree with this recommendation 
of the----
    Chairman McCain. And the gentlewoman's time is expired.
    Mr. O'Keefe. No, I----
    Senator Boxer. Well, Mr. Chairman, I'm just trying to see--
--
    Chairman McCain. No, I'm sorry, the gentlewoman's time has 
expired.
    Senator Boxer. I know that you're sorry.
    Chairman McCain. Go ahead. We'll recognize the next----
    Senator Boxer. I know that you're sorry. Thank you.
    Mr. O'Keefe. I'm sorry, Senator.
    No, it is--my agreement, notwithstanding or not, I, again, 
am not fully aware of all of the parameters of it. I'm advised 
that's what led the folks to conclude two or three years ago.
    Having said that, we are going to look at anything that the 
investigative board comes back with and says, ``These are the 
changes that must be made in order to guarantee safe flight 
operations.'' If it contains that particular set of questions, 
which, by the way, were primarily pertaining to, as I 
understand it, ascent requirements, not descent capabilities, 
that, in turn, those kinds of requirements be factored in and 
that we make the changes appropriate to do so.
    To your second point as it pertains to the safety panel 
board composition, its charter, and so forth, that occurred 
prior to my tenure. I don't know exactly what the circumstances 
were, short of the press accounts and the folklore or legend 
that may have gone into who did what to who when. Nonetheless, 
I do understand that, in '97, based on a report from the 
Inspector General at that time, offered as how a cadre of panel 
members with long-term experience and in-depth NASA knowledge 
is important. But to be most effective, this group must be 
routinely infused with the fresh perspective of new, diverse 
members. So, as a consequence, the Inspector General's 
position, as I understand it, was acted upon by my predecessor.
    Suggestions were made as to the charter to limit the 
duration of the tenure to two terms, I believe, of six years 
each. We'll certainly go back and re-examine that. If it's the 
desire on the part of the panel members to look at a different 
tenure period of time that they think enhances their wisdom and 
understanding of the safety issues, I am all ears on that.
    The prior chairman introduced himself to me within 30 days 
of my arrival at NASA as the outgoing chairman. So I don't know 
how they arrived at who was going to become the chairman and 
who would be the next chairperson, but the current chair is the 
individual that was anointed and appointed, I guess by me, but 
with the concurrence of the board prior to that time. I made no 
objection to it. And the only individual who is new to the 
board is one individual who was added to it during the course 
of my tenure. No one else has been released.
    So I've really been trying to look at what the composition 
of the panel is, and assure its advisory status, that's the 
strongest we can possibly make it, and changes made prior to 
that we'll certainly go back and revisit to assure that if they 
have different views that would enhance or strengthen their 
position, that's what we want to hear. We want to make sure 
that safety of operation is adhered to at all times.
    Chairman Boehlert. Thank you very much.
    Mr. Udall.
    Chairman McCain. Could I just say, I want to apologize to 
all members for enforcing the time limits. We do have such a 
large number of questioners, and our members have been very 
patient, and I appreciate that.
    Chairman Boehlert. Mr. Udall.
    Representative Udall. Thank you, Mr. Chairman.
    I, too, want to thank Mr. O'Keefe for taking his time to 
join us today. And I found your testimony insightful, 
enlightening, and, in fact, quite moving, and I want to thank 
you for your leadership.
    Mr. O'Keefe. Thank you.
    Representative Udall. I know you're beginning to think 
you're in an echo chamber, but I did also want to associate 
myself with the remarks of our Chairman on the House side and 
the Ranking Member and others, who have urged you to create as 
independent a commission as possible and that we'll all be well 
served when those results are announced.
    Mr. O'Keefe. Yes, sir.
    Representative Udall. In my experience in my previous 
career as an outdoor educator and someone who was very involved 
in the climbing and mountaineering communities, we found that 
when we had accidents, that independent entities that had no 
fiduciary relationship or other relationship with those 
involved could make quite accurate and objective determinations 
of what occurred. So I want to lend my voice to those of others 
here.
    Mr. O'Keefe. Yes, sir.
    Representative Udall. I did also want to acknowledge the 
tremendous sacrifice and the bravery of our astronauts and send 
my condolences to the family members and friends of the brave 
astronauts. We in Colorado have a proud history of involvement 
with NASA. In fact, Kalpana Chawla was one of the members of 
the crew, and she was a graduate of the University of Colorado, 
so we feel that loss very deeply in Colorado.
    Mr. Chairman, if I might, I'd like to include in the record 
an article from the New York Times on Monday, February 10th, 
that talks about all the tremendous benefits that have been 
generated by the space program. I know there are some----
    Chairman Boehlert. Without objection, so ordered.
    Representative Udall. Thank you.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                  Replacing the Space Shuttle Orbiter

    Representative Udall. There have been debates and 
discussions and comments that the astronauts were involved in 
minor science projects while they were orbiting the Earth. And 
I think if you look into the record, in fact, what's resulted 
from our space program is truly remarkable, and day in and day 
out we see the results of those advancements here on Earth.
    If I could, I'd like to focus a little bit on the Space 
Shuttle orbiter and whether we ought to replace it. Have you 
gotten to the point where you have an opinion in that regard 
about the replacement of the Space Shuttle orbiter?
    Mr. O'Keefe. Yes, sir. The Integrated Space Transportation 
Plan we're currently working with was devised over the course 
of last year and culminating in the November 13th, 2002, 
amendment that the President submitted to the 2003 budget that 
the Congress is still deliberating on at this time. It's 
reinforced in the 2004 budget submission the President made 
last Monday, which is to look at all the elements of how these 
particular systems support each other.
    I think, for a long time, all the trends seemed to suggest 
that every one of these were looked at as individual, 
standalone programs. But there's a great interrelationship 
between them. And the requirement for Space Shuttle 
capabilities, both in terms of crew transfer, which is how we 
typically have rotated the crews aboard the International Space 
Station, as well as the launch of cargo assets--in other words, 
all of the new pieces that are being installed on International 
Space Station to build out that laboratory that can't be 
duplicated here on Earth--is a capability we've really got to 
look at in relationship to each other and to consider a crew 
transfer and rescue return capacity that can be introduced more 
aggressively than we presently have.
    So the combination of both Shuttle and how we maintain its 
cargo lift capacity for capabilities to continue to not only 
support, but finish building, the International Space Station, 
the capability to transfer crew in order to rotate the 
expedition crews that we've seen now in our--here we are in our 
third year of permanent presence onboard that system--as well 
as the Orbital Space Plane that would provide that capability, 
all three of those dimensions and the Next-Generation Launch 
Technologies to ultimately replace the cargo capacity is our 
focus in that amendment, as well as in the present budget 
before the Congress right now.
    Representative Udall. Mr. Chairman, I don't know where my 
time is, but what is the status of the orbiter----
    Chairman McCain. Your time has expired.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Administrator O'Keefe, when I chaired your confirmation 
hearings, I found you to be honest and candid, and we're going 
to need an awful lot of that in the days ahead, and we 
appreciate your being here.

                       NASA Workforce Legislation

    My first question deals with the huge brain-drain situation 
at NASA. It seems to me that you all are hemorrhaging talent in 
key areas, like electrical engineering. And I think this has 
implications both for the short-term and the long-term.
    The February 1st date, for example, on that date, you all 
were being pushed to, in effect, use more outside contractors 
and fewer people within the agency, and so some, of course, are 
saying that when we have a chance to study this, it's going to 
back ``the people.''
    So I'd like you to comment on the brain-drain problem, both 
from the short-term and the long-term, and what's being done to 
address it.
    Mr. O'Keefe. Thank you, Senator.
    Indeed, that is a concern that, as we've discussed 
previously, as well as we've talked about in various hearings, 
over the course of the last dozen years or so, we've seen a 
very clear trend in the direction of an aging workforce that 
are capable, very strong professionals, but it is, nonetheless, 
a very mature workforce. We've got three times as many 
scientists and engineers that are over 60 as we have under 30. 
And so the consequence of that set of decisions made in years 
gone by of bringing in additional talent at gradations, there's 
no way to instantly grow longevity as well as experience base.
    What we submitted last June to the Congress was a series of 
legislative initiatives specifically focused on strategic 
management of human capital, as has been advised by the General 
Accounting Office. Dave Walker, as the Comptroller General, has 
consistently talked about this. So we forwarded this series of 
legislative provisions. They have been sent to the Congress, 
they're in the appropriate committees of jurisdiction, and are 
under consideration to try to deal with what those tools would 
be that we could use for the purpose of not only retaining for 
the near-term period the kinds of capabilities and talent we 
have today, but also recruiting talent with some experience 
base with a variety of walks and backgrounds, as well as 
bringing in new graduate students and doctoral students who 
would replace that roughly 60 percent of the workforce that is 
of scientific and technical background. You're exactly right, 
it's a concern, and we want to act on it.
    Senator Wyden. I want to ask----
    Mr. O'Keefe. We look for to the Congress' early enactment 
of all those provisions to move us along that way.
    Senator Wyden. I want to ask one other quick question. I 
think when we get to the bottom of this, I think we're going to 
see that we've got to address this issue, and I just pray that 
this tragic loss hasn't been due to some human error.

                     Manned vs. Unmanned Spacecraft

    The second question I had deals with manned versus unmanned 
space flight. I think that manned flights represent the 
aspirations and hopes of so many Americans, but I will tell 
you, I personally believe we're going to need to do more in the 
unmanned area. I think it is going to be an imperative in the 
days ahead. And I'd like your judgment as to how to make that 
call.
    For example, I'm attracted to the argument that when you're 
talking about the space station a few hundred miles, you know, 
up, that wouldn't be as high a priority as really looking to 
distant worlds. But I'd be curious how you'd go about tackling 
this question and making the tough calls with respect to manned 
versus unmanned space flight. I want to see the manned 
expeditions go forward, but I do think we're going to have to 
have a bigger role for unmanned expeditions in the days ahead, 
and I'd like to hear you tell us how you'd go about making 
those calls.
    Mr. O'Keefe. Sure, thank you, Senator. I think you've hit 
the nail right on the head.
    The strategy we've tried to employ here, again, is not an 
either/or, but very much a combination of how do you best 
employ the robotic capabilities that we have to advance our 
knowledge base and understand what the challenges will be in 
order to assure the greatest probability of safety of flight 
operations when and if called upon to engage humans in that 
science and research set of objectives.
    So the approach that we've devised, for example, in the 
case of the Mars landers that are planned, and explorers that 
are planned, for later this year, due to arrive there in early 
'04, is to continue to build that knowledge base understanding 
the challenges and difficulties we will work with.
    And the inhibitors on exploration much beyond where we are 
today typically are human related, to be sure, but it's partly 
technology related. The first one is that our limitations on 
capacity for propulsion, speed, to get anywhere is currently 
restricted by the same laws of physics we've been living with 
for 40 years. And so as a result, until we develop a new space 
propulsion capacity to dramatically reduce the time as well as 
the capacity to get anywhere, we're going to be really 
restricted, in terms of the capabilities we have in that 
regard.
    The second is how to assure that humans survive the 
experience. And as it stands now, the exposure that we see and 
that we're learning on International Space Station as a 
consequence of long duration spaceflight are the debilitating 
effects on human beings of space travel and space exploration. 
We're looking to conquer those. Part of the budget proposal you 
have before you as part of the '04 submission that the 
President just made is an intensive effort to look at human 
factors. And only then, after we've conquered those kinds of 
challenges of degradation, of muscle mass, bone mass, radiation 
effects, all those things, should we venture much beyond where 
we have the capacity to do today, which is a very important 
pursuit of science and research aboard station and other 
objectives.
    So the whole strategy here is to lay this out in a way that 
informs the knowledge base by robotic capabilities, follow 
along to the extent necessary and when human intervention gives 
us the opportunity to expand that knowledge base, and make sure 
they can only do it when there's a safety-of-flight capability 
that we can assure.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. O'Keefe. Thank you, Senator. I appreciate it very much.
    Chairman Boehlert. Mr. Weldon.
    Representative Weldon. Thank you, Mr. Chairman.
    Administrator O'Keefe, thank you for coming. And I have the 
highest confidence in your leadership, as I do in Admiral 
Gehman's leadership, who did an outstanding job in 
investigating the USS Cole.

                         Thermal Tile Adhesive

    I have a very specific series of questions that you may not 
be able to answer here, but I would like a thorough response 
for the record, relative to one aspect of the operations of the 
Shuttle, and it deals with the tiles.
    The tiles are glued to the Shuttle by a special adhesive. 
That adhesive has, as it's primary component, urea. The urea 
that's produced is produced around the world, and much of it's 
for agriculture and industrial purposes. But the specific urea 
that NASA has used for the glue for the tiles was produced by 
one plant, and that one plant was in Fort Saskatchewan, 
Alberta, Canada. And the reason why that plant was selected was 
because none of the U.S. manufacturers were able to meet the 
very stringent requirements that NASA had established for the 
urea, for the glue for the tiles.
    About five years ago, that plant was acquired by another 
Canadian firm that does business in Cuba. And because of that, 
they were concerned about the implications of Helms-Burton 
legislation, and so they no longer supplied NASA the urea for 
the glue for the tiles.
    The U.S. manufacturer of the adhesive that used that 
specific urea was very concerned at the time about finding a 
new source of urea that would meet the very specific, tough 
requirements that NASA had for the glue to hold the tiles on. 
And I would say there are millions of tons of urea consumed in 
the U.S. every year. But only a very, very small portion of it 
would be used specifically by NASA for the glue for the tiles. 
And, as I said before, up until that takeover five years ago, 
it was from one plant in Canada that had a separate mechanism 
for producing that urea that U.S. manufacturers did not, or 
perhaps could not, achieve the same quality standards that NASA 
required.
    So what my concern is, whether or not we found an equally 
reliable supplier of urea. And, for the record, I'd like you to 
give us that information relative to the specifics of NASA 
specifications.
    Thank you.
    Mr. O'Keefe. Yes, sir. No, I don't know. I really am not 
aware of the nuances there, but I positively will provide that 
for the record.

    Representative Weldon. Thank you.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. O'Keefe. Thank you, sir.
    Representative Weldon. Thank you, Mr. Chairman.
    Senator Brownback. Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman. And welcome, Mr. 
O'Keefe. I know this a very trying time for you and the NASA 
family and most certainly the families of the astronauts. And 
it just reminds us how fortunate we are as a nation to have 
been blessed with men and women like these astronauts who are 
willing to take risks for this country.

                 Debris Assessment and Need for Imagery

    I'm trying to get at the picture of how NASA approaches 
certain decisions--what is minimized, what is discounted. We 
know that for 12 days, from the time that you all learned of 
the debris that hit the Shuttle and then the Shuttle was 
scheduled to land, no action was taken other than doing some 
computer model simulations to predict damage and to rely on 
past experiences where Shuttles had returned safely, even 
though there had been several Stanford studies in 1990 and 1994 
that had already warned of some potential damage that a single 
piece of debris could have had on the tiles.
    Could you tell me as to why no request was made for 
military telescope imaging? We know that a camera was not 
working at the time of orbit that really could have shown the 
damage that was done on the underside of the Shuttle. Why 
wasn't that requested at some point in time during the flight 
to do a greater examination of this type of damage, rather than 
relying on computer modeling when you really didn't know what 
had happened, rather than doing the modeling on something that 
you knew had happened?
    Mr. O'Keefe. Thank you, Senator.
    The investigative process, and certainly the Gehman Board, 
if they come to find we should have done something else, 
positively we'll be, you know, guided by that particular 
finding. Nonetheless, the approach that was taken here is, this 
is a piece of foam material that was about a foot and a half by 
six inches of which there have been incidents like this before. 
And, as I mentioned earlier, there are cases where after the 
flight, there's a full examination of every square inch, every 
single element of the orbiter when it comes back, to see what 
the damage effect was. It was determined, in previous cases of 
comparable circumstance, not to have been a safety-of-flight 
consideration.
    Again, the circumstances here were, it came off of the 
external tank as the entire Shuttle orbiter system was 
traveling at 3600 miles an hour. The piece came off, dropped 
roughly 40 feet at a rate of something like 50 miles an hour, 
so it's the functional equivalent, as one astronaut described 
to me, of a Styrofoam cooler blowing off of a pickup truck 
ahead of you on a highway. And every incident we'd seen before 
that, every model we ran, every analysis that had been done on 
every prior case demonstrated no significant damage in that 
circumstance.
    Of the 4,000 sensors aboard the Shuttle orbiter, none of 
them indicated any anomalies during that 16-day flight. And 
given the wide variation of heat of several hundred degrees 
that was experienced 16 times a day, if there was any 
penetration, any damage that could have been evident, the 
assumption was those sensors would have picked it up.
    Nonetheless, if the Gehman Board finds that we really erred 
by not examining this in yet another direction, based on all 
the historical evidence, we positively will run that finding to 
ground and make corrective actions as necessary.
    Senator Snowe. But wasn't this piece of debris the largest 
documented piece ever to hit the Shuttle?
    Mr. O'Keefe. Not to my knowledge, but I will correct that 
for the record if that proves to be in error. I don't know 
whether that's true or not, but I certainly will provide that 
for the record.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Snowe. I guess----
    Senator Brownback. The time of the senator is up. I'm 
sorry.
    Senator Snowe. Thank you.
    Chairman Boehlert. Mr. Wu.
    Representative Wu. Thank you for being with us during a 
very difficult time, Mr. O'Keefe.
    During my colleagues' questions, I took the liberty of 
drawing up a little diagram to illustrate my inquiry to you. 
It's not a PowerPoint presentation; it's just felt tip pen on a 
piece of paper. Across the bottom here, cuts in your budget. 
And going up, risk. And the red line is the typical hockey puck 
kind of curve that some of us in high tech like to see in 
financial returns, but we don't like to see in this kind of 
context.
    And earlier, I heard you say that you are pounding out as 
much of the risk as possible before each and every Shuttle 
launch. But we also have a history of delayed improvements, 
perhaps delayed in future generations of crafts which may be 
safer. And I am concerned that the tragic loss of seven 
astronauts tells us that we are somewhere out on this leg of 
the curve and not somewhere here, you know, in the flatter 
portion.
    It's our job to try to set policies which maintain 
reasonable safety, a job which we share with you. You are a 
very good team player. You should be. But in response to 
specific congressional inquiry, I think that you are free to 
answer those inquiries.
    And I want to make this a standing congressional inquiry, 
if you will, that whatever the optimal budget is, as we are 
adjusting that budget, can you work with us to find that 
inflection point? I'm concerned that we have gone past that 
inflection point in risk where the risk has become unacceptably 
high.
    It is always going to be inherently risky to put human 
beings in space. I'm a strong supporter of human space 
exploration. But I want to invite you to work with us to find 
some reasonable point in here where we are not expending 
exceptional resources, or unnecessarily expending resources, 
but we are doing everything reasonable to keep humans safe in 
space.
    Mr. O'Keefe. Sure. No, absolutely, Congressman. I'm 
delighted to work with you to try to find what that breakpoint 
is. And, again, my appreciation--slide 18 again, please--is 
that over the course of time, we've seen a reduction in cost of 
activities, there has, at the same time, been an improvement in 
efficiencies as well as the reduction of in-flight anomalies, 
technical scrubs have dropped by a lot, all of the basic 
factors that would drive you to conclude that, as your chart 
suggests, as you reduce resources, you should see an 
enhancement of risk. If anything, what appears to suggest here 
is a case where efficiencies have been attained and risk has 
been reduced.
    So the extent there are differences of view about that over 
the course of this past decade of whether or not that is the 
contributing factor to it, we really are looking forward to 
trying to determine how to correct that. And if we've crossed 
that threshold I think you've so eloquently alluded to, we 
really ought to figure out exactly where we make those 
adjustments as necessary.
    But the trends are the things that I think we need to 
analyze here, as well as just the basic theory, that you've 
advanced, which is a sound one.
    Representative Wu. Well, this is why I drew it in this way, 
because if you have effectively reduced cost and reduced risk, 
you've shifted this curve to the left or to the right, up or 
down, or diagonally, but the curve is still here----
    Mr. O'Keefe. Yes, sir.
    Representative Wu.--if you make these assumptions that such 
a point could be statistically determined. And I just want to 
invite you, as this curve shifts, as policy shifts, to help us 
look for this curve. You and I have been in this discussion 
before----
    Mr. O'Keefe. Yes, sir.
    Representative Wu.--about the worthiness of human space 
flight. And I want to remind you of our conversation that Lewis 
and Clark went west 200 years ago. They got an Appropriation of 
$2,500. They spent $38,000, and that caused President Jefferson 
a lot of heartache. But that turned out to be a pretty good 
deal for America in the long-term.
    And I would just encourage you to aggressively ask for what 
you need and to keep the explorers safe out there.
    Senator Brownback. The gentleman's time has expired.
    Representative Wu. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you, Mr. Wu.
    Senator Burns.
    Senator Burns. We need you on Appropriations.
    (Laughter.)
    Senator Burns. Mr. O'Keefe, I wish we were meeting under 
different circumstances, but we are not. And my question is a 
general question, because I was pretty close to the 
negotiations of the International Space Station and the 
agreement that we signed with Russia.
    And at that time, I asked a question that we really didn't 
pursue for some reason or other. I think it would help this 
committee if--as you know, we look at programs and the 
infrastructure that it takes to carry those programs out. At 
the time we built the orbiter, was there any estimates of--what 
every program goes through is, there is a point diminishing 
returns whenever upgrades are not sufficient to carry out the 
mission, and I'm wondering if any estimates early on this 
program were made by engineers of at what point do we come to a 
point of diminishing returns. And if we could look at that and 
then--and I know programs change and missions change, and if 
history tells us anything, we should be looking at those kind 
of things in order to change the way Congress should be 
shouldering its responsibility.
    Mr. O'Keefe. Yes, sir.
    Senator Burns. And I would just ask if there were--any 
research could be done in your records of when do we reach that 
point, did we reach that point, and what was--and as programs 
change, what is being dictated in the future if this equipment 
is going to be asked to do things maybe it was never intended 
to do.
    I'm not going to go over the past, because I've been 
intimately involved with it. And no other program stimulates 
the curiosity or the interest in our sciences and our 
mathematics in our schools like this particular agency of the 
United States Government. And so I deem it very, very 
important.
    But if we could have a history and see the things that we 
can do, and then you do what you do best, we may have to call 
on our older end of the engineers, so to speak, to make those 
determinations, but I think it would help us a lot if we could 
reach back there and look at history, take a look at what 
happened, and then make some decisions to enable you. We don't 
want to see this happen again, but we know that this will 
happen. Accidents will happen, especially in the area of going 
into the unknown.
    And I thank you for being here today and some explanations 
we've reached today. I'm looking for history, something that we 
base policy on into the future, upon your recommendations.
    Mr. O'Keefe. Well, thank you, Senator. I'd be delighted to 
provide that. We'll go through that consideration. There is no 
question that as it pertains to current flight operations, and 
I want to reiterate, we have a culture that is just obsessing 
over not letting anything go until it's all exactly right. If 
the investigation board found that systemically we have failed 
in that quest, that's precisely what we'll be guided by, as 
well.
    But your point is very well taken. I think we've got to 
really be thinking seriously about where is that stage where we 
really make those decisions, and I think we'll provide that, 
for sure. I'll work through that analysis and provide it for 
the record, as well.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Burns. Thank you for your leadership, and I 
appreciate your cooperation.
    Chairman Boehlert. The time of the Senator has expired.
    Mr. O'Keefe. Thank you, Senator. I appreciate it very much.
    Chairman Boehlert. Thank you very much. We're going to take 
a brief five-minute break. Five minutes only. And then we're 
right back. And when we come back, Mr. Nethercutt starts the 
questioning.
    [Recess.]
    Chairman Boehlert. The Committee will resume.
    The Chair recognizes Mr. Nethercutt.
    Representative Nethercutt. Thank you, Mr. Chairman.
    Mr. O'Keefe, I want to welcome you, sir. Over here.
    (Laughter.)
    Representative Nethercutt. I know, I moved.
    I appreciate your being here, and I appreciate the 
sensitivity with which you and the entire NASA team reacted to 
this terrible tragedy. I certainly was touched by Senator 
Stevens' remarks and agree with him with respect to your 
integrity and your qualifications.
    Mr. O'Keefe. Thank you, Congressman.
    Representative Nethercutt. Thank you.
    The crew that we lost touched my Eastern Washington 
District. Michael Anderson was a proud product of our 
community, and Ron Dittemore certainly is, too. And so it 
touched our community very deeply. But in that respect, we're 
respectful of all that they have done and, in the case of the 
NASA team, will continue to do.
    This was a science-driven crew. They spent 16 days in space 
and were 16 minutes from landing. And in the process, with the 
space research double module, we're doing tremendous numbers of 
experiments, as I understand it. And with the loss of the 
Columbia, the question comes, what data might we have been able 
to collect with respect to their 16 days of scientific research 
efforts? And maybe that's my question, basically, is what were 
we able to retain and preserve with respect to their scientific 
research legacy?
    Mr. O'Keefe. Yes, sir. No question, it was an extraordinary 
mission. It was intensively science focused. You've 
characterized it exactly right. Over 16 days, a lot of the data 
and returns from many of those experiments were relayed back, 
and so the scientific community has the benefit of that 
information. But, to be sure, the physical laboratory as well 
as the physical experimentation that was aboard STS-107 is lost 
for all eternity. There's no question there.
    But let me provide for you for the record a rundown of the 
kind of data and information we have gotten back, categorized 
by the kind of areas. But it was a phenomenal trove of 
information that I think will yet prove to be very enlightening 
information as research continues on a range of biomedical as 
well as physical sciences research and material research 
activities in the future.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Representative Nethercutt. Let me ask you if there is any 
support that NASA will offer to the principal investigators who 
lost scientific capability as well. Have you been able to 
assess that yet or make any judgments about the principal 
investigators and what losses might have been sustained as the 
Columbia was lost?
    Mr. O'Keefe. Yes, sir. There are a number of folks who had 
based a lot of experimentation, their entire dissertations were 
riding on this, so years of research activity has really been 
set back dramatically as a result of that. That's 
inconsequential, though, by comparison to the loss of lives, to 
be sure, but it is something we need to be extremely mindful 
of.
    There was to have been a get together this past week, I 
think, with the biological and physical research components of 
our agency with all the principal investigators that had a 
stake, if you will, in the STS-107 experiment and research 
regime. We are certainly intent on trying to reconvene that 
session to find out what may be remedial for their efforts as 
we work through this, in terms of the kind of information we 
might look to in future flights. But we will work that. I 
assure you, that's something that's prominent on our minds, as 
well.
    Representative Nethercutt. Is your commitment lessened or 
diminished at all to scientific research and the value of 
station and the efforts that were undertaken by this crew?
    Mr. O'Keefe. No one iota. As a matter of fact, the families 
of the STS-107 crew, the most stoic, courageous people you 
would ever want to meet, within two hours of this activity were 
already saying, ``You know, you cannot give up on this set of 
objectives. They dedicated their lives to this. That's what 
they were committed to doing. You cannot move away from it.'' 
It had been an inspirational group, and that, in and of itself, 
has been sufficient cause in my mind to not step back from our 
commitments in this regard one inch.
    I appreciate it, Congressman. Thank you.
    Representative Nethercutt. Thank you.
    Senator Brownback. The time of the Member has expired.
    And if I could ask the people operating the door if you 
could keep that door closed as much as possible, there is some 
beautiful singing going on outside, but we don't need it in the 
room.
    Now, I have the only astronaut that's serving currently in 
the United States Senate, Senator Nelson, from Florida.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. O'Keefe, prior to you arriving at NASA, the Space 
Shuttle budget was whacked by some $1.4 billion. Basically, 
part of that over a nine-year period, this says. And, by the 
way, it's not the easiest to find this out, because prior to 
your arrival back in the early '90's, everything was lumped in 
together into a human space flight account--the Space Shuttle, 
the kinds of new technologies, plus the station. But when you 
break it out, what you find is that the Congress whacked part 
of it, about $600 million, out of the Space Shuttle, and then 
NASA itself whacked another $750 million.
    Putting those two together, you can see the years. And this 
is prior to you arriving, in '02. That year, the Congress had 
added some $45 million, and NASA had whacked $70 million to the 
Space Shuttle.
    So this will be an ongoing dialogue that we will have. But 
the question is, What is your opinion, prior to your arrival, 
as you look back, what had happened over that nine-year period? 
Sometimes the Congress would take the money out or just reduce 
it. Sometimes NASA would basically reprogram the money and take 
it out the Space Shuttle and put it elsewhere. Does that 
compromise safety?
    Mr. O'Keefe. Well, sir, I don't know the audit trail, 
clearly, as well as you've obviously researched this. But this 
particular, I think, matches with what you've projected here, 
which is the funding history. And the convergence of two 
events--and, again, I've got to really look at this in much 
greater detail to see the individual year changes that have 
occurred and so forth--but the trends seem to connote two 
things.
    The first one is that at the same time that efficiencies 
were being yielded and different ways of going about business 
that are more risk management and more what I would call 
quality-assurance-related approaches that raises and improves 
the risk-management probabilities, at the same time also 
yielded some cost reductions along the way by not having an 
intensive group of individuals involved in the activity. And so 
all the indicators over this same span of time seem to 
suggest--but, again, we've got to back and really look at this 
very, very carefully--would seem to suggest that there were 
improvements in incidents prior to launch, incidents on orbit, 
all of the trend lines that we use to measure the efficiency 
and performance of the space flight operations program seem to 
be moving in that kind of a trend line.
    That said, we're going to be guided by what the Gehman 
Board looks at as systemic causes. If this appears to have been 
a contributing factor, we will be right back here looking at 
what those fixes need to be to work on that.
    Senator Nelson. And we will carry on a continuing dialogue 
on this. I can tell you, there are people at NASA and in the 
astronaut office that feel like that safety has been 
compromised over the last 10 years as a result of the Space 
Shuttle budget being raided. And that's something that we've 
got to be concerned about.
    One other item----
    Mr. O'Keefe. We're happy to hear those comments and any 
other views from anybody inside to external to the agency. 
It'll come to ground truth and find the answers to what 
happened in this case, absolutely, Senator.
    Senator Nelson. Might you comment on the fact that if 
that----
    Senator Brownback. I'm sorry, the time of the Senator has 
expired. We're having to stay on very tight time frames.
    Chairman Boehlert. The Chair recognizes Mr. Weiner.
    Representative Weiner. Thank you. Welcome.
    I fear in your statement you have articulated, I guess, a 
strawman that some of my colleagues in their questions have 
knocked down. And when you said that we ought not turn our 
backs on exploration and that the research that was done on the 
Shuttle was valuable in cancer treatment, crop yield, and fire 
suppression, and dust storms. But it is a fact that all of that 
research could have, should have, and would have been done on 
the space station had it been completed. And, in fact, the 
Shuttle has, more often than not, not been a research vehicle, 
but a delivery vehicle supporting other platforms for science, 
whether it be satellites or telescopes or the space station.
    One of the many things that made the Columbia mission 
noteworthy was the fact that it was a pure science mission. 
Apparently only 11 of the last 46 Shuttles have been able to 
say that. It got to be so frustrating that in the 106th 
Congress there was actually language put into the Appropriation 
bill that this Shuttle should contain more research.
    You know, Shuttle astronauts, I fear to say, have become, 
more often than not, very high skilled, often brilliant, 
undeniably courageous cargo carriers. And to demonstrate this 
point, I don't have a graphic, but you do, and I'd ask you to 
put up number 20.
    Under something marked ``safety indicators'' is a chart 
that said launches more than ever cargo capacity up as much as 
100 percent. Cargo capacity being an indicator of safety leads 
me to the inescapable conclusion that having more cargo means 
fewer flights, means safer human beings. This should not be how 
we measure whether someone is safe or not, because, frankly, as 
we learned within, I guess, 48 hours after this horrible 
accident, an unmanned vehicle went up and brought cargo to the 
space station.
    And also, on chart number 18, the same chart that has the 
reduction of in-flight anomalies, monthly mishap frequencies, 
technical scrubs, brags about the increase in lift capacity to 
the Space Shuttle. It seems that we're mixing the need to keep 
people safe, which is something that I think you have 
articulated several times here today, with this ever-growing 
notion that the Space Shuttle is the only way should develop or 
the only way, the only means we should use to carry cargo.
    We want science to be done in space. Over and over again, 
we, in Congress, have been asked the question, because our 
colleagues put it to us, ``Do you want to continue the space 
station funding?'' We all say yes. I say yes. But we have to be 
careful not to confuse what the Shuttle has been as a science 
mission. It has been a UPS truck for Space Shuttle supplies. 
And I'm not sure that if you believe that increasing cargo is a 
way to make people safer than having a manned cargo carrier is 
the right way to go at all. And if you'd just address that, 
particularly chart number 20, if you could.
    Mr. O'Keefe. Sure. Thank you, sir.
    Cargo, in the term you've used here, means assembly and 
science, both. In the last four years, many of the Space 
Shuttle flights, and I think you've pointed out the history 
precisely right, that we have dedicated the use of Shuttle for 
the purpose of bringing up large sections of the International 
Space Station for on-orbit assembly.
    This is an engineering marvel we're building in space. You 
know, there's no other way to do this. There's no way to launch 
the completed International Space Station in one fell swoop or 
one piece, so each of it's been assembled on orbit. And by no 
means are these UPS truck drivers.
    Representative Weiner. No, the question, if you'll just 
understand, the question is not that. It is if you can bring 
food, if you can bring clothing, why can't you bring Space 
Shuttle?
    Mr. O'Keefe. I'm sorry, I didn't get to the answer fast 
enough. I apologize.
    Representative Weiner. I'm sorry, I'm----
    Mr. O'Keefe. The Progress vehicle that went up the Sunday 
after the accident did, in fact, contain groceries, logistics 
supplies, those kinds of things. That's not typically what we 
put aboard Shuttle. There are some of those things that are 
there, but mostly those are carried by those unmanned 
autonomous capabilities that are brought in to sustain the 
typical consumable requirements.
    Others are put aboard Shuttle, too, like water and a few 
other things, but typically what is, is the cargo section 
includes the components, the modules of the International Space 
Station that couldn't get there any other way, or the science. 
And as we see in this particular case of the STS-107 as well as 
on every one of the Shuttle flights, the science 
experimentation going up-mass to the International Space 
Station to bring those scientific experiments to there, there's 
no other way to do that. There's no way to put them aboard 
autonomous unmanned vehicles at this juncture that would do 
anything other than provide basic logistics requirements.
    So I get your point. You're exactly right. We're trying to 
maximize the yield of what can be, as we call it, up-mass to 
the International Space Station or in any other orbit pattern, 
but, at the same time, also minimize the risk to the 
individuals so that really the human involvement is minimized 
to the point where it's actually necessary.
    Senator Brownback. The time has expired. Thank you very 
much.
    We now have the Senator from the host state for the Johnson 
Space Center, state of Texas, Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    And I will just say, Mr. O'Keefe, I know how devastated you 
are. I've never seen a sadder face than yours in the last few 
weeks in all the pictures, and I think that you have handled 
the immediate aftermath very well, and I appreciate that.
    Mr. O'Keefe. Thank you, Senator.
    Senator Hutchison. I also want to say I appreciate Mr. 
Rohrabacher's mention of the Texas residents who never expected 
anything like this but have been so supportive of NASA 
throughout East Texas looking for the debris, and consider 
themselves, sort of, deputies in the investigation, and I'm 
very proud of my home state, and especially the NASA people and 
the NASA family. I grew up in the area. I have known the NASA 
family since the announcement that NASA would come to Johnson, 
and have known the close-knit nature of that community. And I 
appreciate all of them, as well.
    I want to talk about some of the experiments that have been 
successful and have made a difference in our lives really, from 
the National Science Biomedical Research Institute, which is 
not the old, past successes of space research, but the newer 
ones. They have developed portable infrared sensors to 
determine blood and tissue chemistry noninvasively, which could 
help us in intensive care units and ambulances be able to test 
people quickly and determine hemorrhaging or other maladies; 
developed a biosensor for microbes and toxins that has an 
application in the bioterrorism field for early detection and 
treatment, could be used by military searching caves in 
Afghanistan or by weapons inspectors; helped further 
development of a focused ultrasound system for hemorrhage 
control and for destroying unwanted tissues or tumors that 
could one day allow bloodless surgery.
    Right there on the Columbia, they dealt--dealing with 
combustion, they created the weakest flame ever seen in a 
laboratory environment, about one/two-hundredth that of a 
match, which would be significant since soot contributes to 
60,000 premature deaths each year in the United States.
    My question is this. We do have a future in medical 
research. Your own board of scientists came back to you and 
said that is a future for manned space research. The question 
is: If the Space Shuttle is grounded for a year or six months, 
what would be the impact on research, or do you foresee 
something even further down the road for the use of the 
Shuttle? And, secondly, if the space station is not serviced by 
the Shuttle regularly for a long period of time, what would the 
capability be to continue the use of those microgravity 
conditions? Or do any of our international partners have a 
vehicle capable of servicing, including assembly, the station?
    Mr. O'Keefe. Thank you, Senator.
    If I could, just on the front, associate myself with your 
comments about the folks from East Texas. Unbelievable support. 
And folks like C.G. Macklin, who is the city manager of Lufkin, 
Texas, Captain Paul Davis, from the Department of Public Safety 
down there, unbelievable people who have stepped up in a way 
that is just truly heroic, and we are grateful to them. They 
have never been associated with the NASA family, and yet here 
they are contributing in a way that really is remarkable, and 
we are eternally grateful to them for their assistance as we've 
moved through this very difficult time in working through the 
challenges there.
    The impact on station, to be sure, is a real difficult 
circumstance, given the fact that the next flight that was due 
in March would have been a crew rotation for Expedition 6 to be 
replaced by Expedition 7. To the extent that we are able to get 
answers to the current challenges that are underway that the 
investigative board is looking to. If we can get back to flight 
and resume flight operations, there should be no diminution of 
that support to station.
    To the extent that that doesn't happen and the best 
scenario is not realized, we do have the capability on the 
Soyuz flights, which is the twice-a-year rotation of the 
emergency egress capsule. Three cosmonauts were due to be sent 
up--cosmonauts and astronauts--were due to go up in April. 
We're looking at what that crew configuration is, consulting 
with our International Space Station partners to determine the 
best way to configure the crew to use it potentially as a 
rotation capability for the folks that are aboard International 
Space Station now. Ken Bowersox, Don Pettit, and Nikolai 
Budarin potentially have the opportunity to come back aboard 
that particular Soyuz return vehicle and send a replacement 
crew up. We're looking at what those options may call for.
    In terms of the long-term sustainment of the International 
Space Station for science, there's no question, between now and 
June there is an ample trove of science aboard the station 
right now that Ken Bowersox assures me, and, more important, 
Don Pettit, who is the science officer, says has got him 
occupied every single day and won't be a limiting factor 
between now and the time the summer rolls around.
    Beyond that, there's no question, it would end up likely be 
a sustaining capability, because, in pursuit of the earlier 
commentary we just had, and conversation, there is a--the up-
mass, or the capability to be able to lift the science 
experimentation in the mid-deck lockers and so forth that are 
aboard the Shuttle typically are what bring the scientific 
experimentation return or rotation for the International Space 
Station to that laboratory condition, and that would not be 
feasible to do. You can't get all that aboard a resupply 
vehicle like Progress, which is unmanned and for logistics and 
basic consumables. For everything you take out of it, it's that 
much less sustaining capability we have for the human beings 
aboard, and the humans are going to be the primary focus of our 
intentions. So, therefore, we would see a limitation and a 
diminution of the science focus that would be aboard.
    But, for right now, it is positively stationed today as it 
was yesterday and will continue through the balance of this 
time as the most capable laboratory condition we have, and we 
are maximizing the science, and that sustains for several 
months to come. We'll have to make adjustments beyond that, if 
this goes beyond that period of time.
    Chairman Boehlert. The Senator's time has expired.
    Mr. Etheridge.
    Mr. O'Keefe. Thank you, Senator. I appreciate it very much.
    Chairman Boehlert. Mr. Etheridge.
    Representative Etheridge. Thank you, Mr. Chairman.
    And, Mr. O'Keefe, thank you for being here. And let me also 
associate myself with expressing condolences to the families 
and others, and also with the concerns that many of my 
colleagues have expressed today to make sure this study is 
independent. I think that needs to be done for the confidence 
of this Congress and for the American people for the future of 
the program, which I strongly support and think it's important 
to continue.
    And let me say the people of North Carolina share with you 
greatly, because we will celebrate the 100th anniversary of 
flight this year in two of the four celebrations in this 
country. So we have a deep commitment to space and to flight.
    I was in school on Monday, right after the Saturday 
terrible disaster. Children were concerned, obviously, as they 
always are. You mentioned earlier, someone did, and I think 
it's appropriate to cover it, because this is a great teaching 
tool, not disasters, but space flight.
    In the 1960's, President Kennedy said we're going to put a 
man on the Moon before the end of this decade. We didn't know 
we could do it. We didn't know how to do it. But it spawned the 
growth of scientists and engineers that you talked about that 
were getting ready to age out. Don't you think it's about time 
we had another grand plan and decide we're going to put a man 
on Mars or some great planet? That may be above your pay grade, 
but someone needs to say it so we get another generation of 
excited young people to decide they want to get involved.
    I know the scientists we have in NASA, which is a very 
small, elite, capable group are there because they were 
excited. But we need a bigger core.
    Very quickly, because I have one more question I want to 
get to you. That is, beyond that--and I hope you'll speak to 
that--on March of this year or last year, the independent 
Aerospace Safety Advisory Panel reported to you that, simply 
stated, the panel believed that the repeated postponement of 
safety upgrades, restoring aging infrastructure, and the 
failure to look far enough ahead to anticipate and correct 
shortfalls and critical skills and logistical availability will 
inevitably increase the risk of operating the Space Shuttle. 
However, since then, I understand that NASA has cancelled 
planned upgrade projects, shifted funding for upgrading further 
out in time, and has indicated that it needed to do more 
studies of what the upgrades should be and how they would be 
undertaken.
    Can you tell us if that's true, and, if so, why and how 
that will help improve safety?
    Mr. O'Keefe. Yes, sir. To your first question on big goals, 
you bet, the approach that the President, I think, has advanced 
as a part of our plan that as a part of the strategic plan and 
all the objectives therein is to develop those enabling 
technologies that would then permit the establishment of those 
big goals to be attainable.
    And the two major limitations that I think we have got to 
beat down and be very, very thorough in our efforts to explore 
the technology opportunities to conquer is the ability get 
anywhere in a period of time and speed that would inform the 
research agenda and also assure that humans, when they go, can 
survive the experience for the full duration of that flight.
    And as it stands right now, based on our current 
technology, just to get to the edges of this solar system would 
take us 15 years. That's an unacceptable period of time it 
would take. And assuming that any of the scientists, the 
principal investigators, the research focus, are still 
interested by the time someone would arrive there is one of our 
biggest problems, because things change an awful lot in the 
span of a decade and a half.
    So our first objective, which you see dominantly in last 
year's budget and this year's budget, is how to beat and how to 
conquer the in-space propulsion power generation requirements 
we have.
    The second dimension of that is to look very carefully at 
how we can assure that humans survive the experience. And, 
again, the degradation we see of the five expedition crews who 
have been aboard International Space Station for sustained 
periods of four to six months or longer is typically a 
physiological challenge, and we've got to figure out how to 
conquer that, because the amount of time it would take to 
roundtrip to anywhere that seems to be of curiosity that would 
be informed by research and scientific objectives, and we've 
got to be sure that the folks can survive that experience.
    So that and the radiation effects, all those things, an 
intensive amount of effort that you see in the budget proposal 
before you, is concentrated on trying to conquer those kinds of 
limitations and understand what it would take to assure a safe 
roundtrip activity in that regard.
    As it pertains to the second point you raised of upgrades, 
what we have proposed in the budget amendment that came forward 
last November 13th of 2002 was a direct consequence of 
recommendations from both the General Accounting Office, the 
Safety Advisory Panel, all the different external groups that 
we have had reviewing what we do, have suggested that the 
longer-term Shuttle requirements, to the extent we want to 
sustain that capability, require that we look at modernizing 
and upgrading those capabilities each and every time, as we do 
in the Orbiter Major Modification Program. What's in the 
proposal for fiscal year '03 that the Congress is still 
deliberating on now and for the '04 program that the President 
just submitted a week ago is a very specific plan that would 
provide for those increases necessary to sustain this 
capability through the next decade, primarily for lift capacity 
of those requirements, as well as crew transfer capabilities to 
and from International Space Station and elsewhere. That's as 
maneuverable as we can make it.
    Chairman Boehlert. The gentleman's time is expired.
    Mr. O'Keefe. I appreciate it very much.
    Chairman Boehlert. Mr. Smith.

                      Re-evaluating NASA's Mission

    Representative Smith. Thank you, Mr. Chairman.
    I don't have any question beyond those that have already 
been asked, but I do have a statement I'd like to make and then 
I'd welcome Mr. O'Keefe's comments when I finish.
    Mr. Chairman, I have long supported our efforts to learn 
more about the universe around us. In fact, I've always thought 
that a great rallying cry would be ``one percent for space.'' 
That is, we should commit one percent of our national budget, 
or about double what we now spend, on scientific discoveries 
beyond the bounds of Earth.
    The Columbia disaster, though, has made me question not our 
financial commitment, but the nature of our space initiatives. 
Perhaps we should re-evaluate some of our missions.
    Launching astronauts into an inherently dangerous 
environment is always risky. Such efforts should be made only 
when the results justify the sacrifices. That may mean NASA 
undertakes fewer manned missions and more unmanned ones.
    From what I read and hear, astronauts on the space station 
spend most of their time on maintenance and conducting 
experiments that could be performed by mechanical means. Of 
course, human judgment sometimes is indispensable, so there 
always will be a need for manned missions. But robotics should 
be employed more often. They can achieve our scientific goals 
more cheaply and with less risk to astronauts' lives. In other 
words, can we justify decades of repetitious yet demonstrably 
lethal roundtrip Shuttle flights to a space station that has 
not met expectations?
    It's tempting to aim farther, at an inhabited outpost on 
Mars, for example. However, that endeavor could be one hundred 
times or maybe one thousand times more dangerous than a Shuttle 
flight. And through the video eyes of a Martian rover, we've 
seen what the planet already looks like up close.
    Nor are prospects great for exploring our cosmic 
neighborhood, considering the distances involved. Our fastest 
spacecraft can travel a hundred times faster than a bullet. Yet 
even at that incredible speed, such vehicles would take 100,000 
years to reach the nearest stars.
    There is a way to reach across the expansive space, seize 
the public's imagination, and learn more about ourselves and 
the cosmos, and that is to search for signs of life elsewhere 
in the universe. A new generation of telescopes launched into 
space would be able to identify life on worlds orbiting nearby 
stars. Other types of telescopes could detect radio or light 
signals from distant civilizations.
    Discovering the probable existence of life ``out there'' 
would cause more excitement than any news event in the history 
of humankind. It would certainly be a showstopper. And the 
possibility of extraterrestrial life, a show-starter for our 
next major space program. Searching for something more than 
microbes, for planets like the Earth, and for other sentient 
life forms could lift our faces again to the heavens with hope 
and expectation.
    Shuttle flights using new space planes would service these 
telescopes. No doubt, such operations will often require the 
good judgment and capable skills of astronauts. And astronauts 
who have gone before, such as those aboard the Columbia, will 
have laid a foundation from which we can push off seeking to 
discern the secrets of the universe.
    Mr. O'Keefe, I'd like for you to respond to the idea, if 
not my specifics, then the general idea of reframing the 
mission that we have in mind. And if you have other 
suggestions, I'd be happy to hear them. I mentioned one for 
seizing that public's imagination and yet I'm learning more 
about the universe, and I'd be happy for you to respond to 
those suggestions.
    Mr. O'Keefe. Yes, sir. Well, no, I thank you for the very 
thoughtful commentary. And those are, I think, the same kind of 
issues we're wrestling with, in terms of what our appropriate 
strategy should be.
    It's not an either/or proposition; it's a capability in 
which you build on the robotic unmanned, non-human intervention 
of capabilities that you can deploy and then utilize human 
requirements when necessary.
    Again, the best example I've come across in my short one 
year of tenure at NASA is the Hubble Space Telescope. It is 
just a remarkable instrument today. It's something that is 
rewriting the astronomy books. Folks are just marveling at the 
capacity and the imagery that's coming back from the 
information from the Hubble Telescope is not only the new 
imagery that we're getting, but it's also informing the 
archival data that was collected in the last few years that 
suddenly now makes more sense because of the information we're 
getting today that now puts that in a different context and 
makes it more spectacular.
    The reality is, that fantastic instrument would never have 
worked had we not had the capacity to launch a Space Shuttle 
and send folks to the Hubble Space Telescope to make the 
adjustments to correct the problems, which was, again, roundly 
considered to be space trash 10 years ago. This same instrument 
that was roundly, you know, dismissed as a mistake, has turned 
into a marvelous piece of machinery.
    Representative Smith. I just think we need more instruments 
just like that, but a bigger program and a more expensive----
    I know my time is up. Maybe we can discuss this further 
later one.
    Mr. O'Keefe. Yes, sir. But I hasten to add, as well, that 
what you see before you in the current configuration of 
International Space Station is the same kind of example. This 
is a work in progress. We are six flights away from still 
achieving what is a core configuration. It had been planned to 
be resumed by this time next year, is where we'd be in that 
configuration, to build the scientific laboratories around it. 
But, at present, we're still looking at an amazing laboratory 
condition that is, in contrast to your characterization, sir, 
with all due respect, they are spending a lot more time on the 
science on these--and, matter of fact, the last two 
expeditions, Peggy Whitson just returned as the first science 
officer aboard, as we have transitioned from this engineering 
phase to one that's more intensively focused on the science.
    It does take a lot, at least two folks to maintain it. No 
question about it. But it is--as we are able to build the crew 
capacity and focus on the scientific objectives, once we have 
reached a configuration that would permit that full use of the 
laboratory, it's going to be, I think, the same result that we 
saw out of Hubble in the long-term, which is going to yield the 
kinds of breakthroughs that we never dared imagine.
    As humans, we are impatient. We want to see it now. And 
yet, at the same time, I think the persistence that we're 
trying to exert is to say, and the perseverance, is to make 
sure that we have that capability so that those kinds of 
revelations, like what we see today coming from our Hubble in 
our stick-to-it-iveness over this past decade yields the return 
we'd hope for. And it is today, and it will tomorrow, if we 
keep this up.
    Chairman Boehlert. Thank you very much, Mr. O'Keefe.
    Mr. O'Keefe. Thank you, sir. I appreciate it.
    Chairman Boehlert. You will note, and you're a frequent 
witness our panel, the House members are particularly skilled 
at time management, because we operate under different rules. 
And so they've developed the knack for asking--using all their 
time to ask their question, and then obviously we'll give you 
the opportunity to respond, because no question should go 
unresponded to. But we're going to stick, as much as possible, 
to the time limitations in the interest of all concerns.
    The Chair now recognizes another skilled practitioner of 
the art of questioning, Ms. Jackson Lee.
    Representative Jackson Lee. Mr. Chairman, what an 
introduction.
    (Laughter.)
    Representative Jackson Lee. Let me thank the Chairman and 
the Chairman of the Senate Committee for this opportunity.
    And, to Mr. O'Keefe, you have shown the proudness and 
wisdom that we have seen over the last two weeks, compounded, 
of course, or matched, with your compassion and love for the 
NASA family. My sympathy to the extended family, and 
specifically to the families of the astronaut, Columbia seven. 
A local newspaper called them ``Astronauts, The Heroes Next 
Door.'' And I do want to announce to you, and we're very 
pleased, that now almost 80 members of Congress in H.R. 525 
have joined us to give them the Congressional Gold Medal, which 
is the highest civilian honor. And we look forward to NASA 
supporting us. We believe that we can move this legislation 
quickly. We are going to call on our Senate colleagues in that, 
and we are very grateful to Republicans and Democrats who have 
signed onto this legislation very quickly.
    I think the important message that I'd like to convey in my 
brief time is that the Shuttle will fly again, and that the 
challenge should be, for lack of a better term, that it flies 
sooner rather than later, sooner than two-and-a-half years, 
sooner than three years.
    You've heard this before, so let me focus on it again. I 
think it is extremely important that we have the Admiral's 
committee expanded, and I think it you need to consider the 
likes of a Nobel laureate, an academic, some industry engineers 
should be considered, some advocates of aviation. And, I 
believe, after 9/11, depending on their desires, family members 
or representatives should be considered to be part of this 
committee, because our job is to instill confidence in the 
employees, in the families, in the astronauts, not necessarily 
in that order, and the American people and this Congress.
    And I'm reminded of the Rogers Commission that had a 
subsection, the Silent Safety Program. And I assume if I was to 
read that, it would again comment on the issue of safety.
    Let me bring these points to you and tell you what I'd like 
to hear, whether it be in writing or you'll be able to say it 
now. I want actual dots, a road map, to lead me from --or to 
the conclusion, whether it be a conclusion that is not popular, 
that budgeting did not interfere with the safety of this 
program. I want an actual--we don't want to be presumptive, we 
don't want to speculate, and we don't want to be afraid of 
saying ``mistakes.''
    I want to be able to understand about the frozen foam that 
fell under the underbelly and then hit the left leaning wing, 
and how we can speculate that that didn't count, when we had a 
report in 1994 from Stanford and Carnegie that suggested 15 
percent of the tiles could count for 85 percent of the damage. 
And I understand an engineer in 1997, most recently, said that 
he thought debris falling might have an impact. And as we all 
know, this goes on its belly, and, therefore, it's possible for 
debris to hit while it was enroute or while it was in space. So 
I'd like the direct lines to that.
    I'd like to also say that an orbiter Shuttle is excellent, 
but I'm very interested in payload. I think it is a valuable 
part of what we do, and I would not want to just have a vehicle 
that transported human beings, because I want research to be 
able to be done, because we're saving lives. And if you can 
comment on that idea, because I understand that we're pushing 
forward with the research on the orbiter, I am certainly 
excited about that, but I want to make sure we can carry a good 
payload so that that research, that vital research, can be 
done.
    If you can comment on the fact of the icicle that fell, I 
call it that, and why we could suggest, or should suggest, that 
that was not a problem, and that you will instruct, or however 
the instructions are, to this commission, the committee headed 
by Admiral Gehman, that he will leave no stone unturned and 
that we'll be able to track or follow his tracks.
    Budget cuts that did occur did not have an impact. An aging 
vehicle did or did not have an impact, 30 some years old.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Boehlert. The gentlelady's time has expired, 
proving the point.
    Representative Jackson Lee. And I thank the distinguished 
Chairman.
    Chairman Boehlert. Mr. O'Keefe, you have.
    Representative Jackson Lee. I had come to an end of my 
sentence. If the----
    Chairman Boehlert. Well, thank you very much.
    Representative Jackson Lee. If he----
    Chairman Boehlert. Mr. Administrator----
    Representative Jackson Lee.--could comment briefly, I would 
appreciate it.
    Chairman Boehlert.--you'll have the opportunity to respond, 
by all means. We would not----
    Representative Jackson Lee. Thank you very much, Mr. 
Chairman.
    Chairman Boehlert.--cut off----
    Mr. O'Keefe. Thank you. Very probing questions, no 
question, all of which I think we should find the answers to, 
we must find the answers to, to understand exactly what 
happened to the Columbia. And the investigative board, when 
they come to conclusion on each of those points, we positively 
will be guided by it.
    But let me offer the following observations. Everything 
we've seen on the budget and the resource profile for Shuttle 
would suggest that concurrent with improvements in 
efficiencies, there were also improvements in performance. And 
to the extent that doesn't bear out, to the extent there are 
systemic problems that the investigative board concludes led to 
this tragedy, that's the kind of thing we'll have to fix, too. 
And their charter is broad enough to cover that range of 
issues. We're not just looking for a technical finding of what 
happened on this one flight. Anything else they want to 
observe, they are free to do so, and we'll be guided by their 
view.
    The operational problems, again, I really want to avoid any 
favorite theory of what it is that could have contributed to 
this. We have closed off no branch in this fault-tree analysis, 
if you will. We want to make sure that everything is analyzed, 
every possible thing that could have contributed to this, to 
include the foam pulling off the External Tank, whatever. All 
of those are theories that, again, are current. They're 
certainly plausible, and we're going to be guided by the 
investigative board's conclusions of what their ultimate 
contribution was in these kind of cases. So I really want to be 
sure we're not shutting off any of those avenues, but, at the 
same time, not pursuing one we think is more likely or 
favorable or not.
    In my limited experience with dealing with crisis 
circumstances or management of situations where you're 
responding to incidents, typically one of the variables that 
occurs, not always, but many, many times, the initial evidence 
proves to be not nearly as illuminating as it was when it first 
came out. And so rather than tracing or chasing what turns out 
to be a blind alley, and, therefore, foreclosing and letting 
the trail go cold on all kinds of other options, we're trying 
to maintain an even-keel approach of being sure that we not go 
out and favor one favored approach versus another, and to let 
all the evidence, let the facts speak for what ultimately 
occurred in this case. So we're avoiding that.
    And I, too, am looking forward to the assessment of the 
investigative board's conclusions about how that particular 
item--whether it was the contributor or not. And that's what 
I'll be guided by as we move along.
    Lastly, your observation that you asked the science 
content. Absolutely, we have to really maximize that. That's 
the--the risk that we deal with each day, those seven heroic 
folks who went aboard the Columbia were making a contribution 
to, ultimately, the science and research objectives. We have to 
have a equally intensive and disciplined approach about what we 
would ask them to risk their lives for, and be equally serious 
about it for every one of those cases in which we ask folks to 
venture off to do these things.
    And so we've got to be as disciplined as they are in their 
training of assuring that the science and the research yield we 
think could come from this meets that same test and standard. 
And that's what we're about, that's what I think we're 
attempting to do on International Space Station. We're trying 
to build that capacity to yield those kinds of breakthroughs 
that would never be possible were it not for that facility that 
can't be duplicated here on Earth. So we continue in that 
pursuit. We are completely in agreement on that, really, 
imperative to be that serious about it. And I thank you for 
your observations.
    Chairman Boehlert. Thank you very much, Mr. Administrator.
    Representative Jackson Lee. Thank you, Mr. Chairman.
    Chairman Boehlert. Mr. Feeney.
    Representative Feeney. Thank you, Mr. Chairman, and for 
Chairman McCain and the Senate for their hospitality today.
    Mr. O'Keefe, it's great to talk to you. I know it's been a 
very difficult weeks for you and your staff, and I would wonder 
if you could comment on a couple of thoughts that I had.
    Number one, within about 15 minutes of the Columbia's 
failure to land on time at Kennedy Space Center, there was a 
contingency plan put into place, and I'd like to know what, if 
any, steps you took upon assuming the control of the 
administration at NASA with respect to reviewing, familiarizing 
yourself with the contingency plan and what you found.
    And, secondly, I was struck by the portion of your 
testimony when you spoke. I think you used the phrase ``the 
ethos of safety at NASA,'' and I think you included the 
contractors who work for NASA, as well.
    Not long ago, you and I sat as we hoped for a liftoff. We 
didn't get one that day. But in the audience, a young man was 
introduced by the name of David Strait. I wasn't familiar with 
his name. I thought, by the reception he got from the people 
there that day, he must be a rock star or a TV star. I don't 
watch much TV or listen to much music, either.
    But I wonder if you could comment on the fact that the 
people involved in this program are passionate about it, what 
your view of their professionalism is, and what we can do as we 
go through this very difficult process of the investigation, 
the fix of the problem, and hopefully creating a new vision of 
space to enhance that esprit de corps during some tough times.
    Mr. O'Keefe. Thank you, Congressman.
    The issue of the contingency plan, no question, this was 
something that occupied my interest from the first hour that I 
was privileged to be in the capacity as administrator at NASA. 
On the first day I walked into the office, I asked folks to 
please take off the shelf whatever it is, whatever that plan 
is, of how we would respond to a disaster like Challenger. And 
I asked that that meeting occur within an hour of when I 
requested it so that nobody would have to feel like they have 
to run off and make something up, that they'd just pull off the 
shelf what was there. And we sat down and reviewed that plan, 
and it clearly is of the origin from the Challenger 
circumstance, no question, an awful lot of the contingency 
planning efforts that went into it. And I reviewed it in great 
detail, to assure myself that I would have some working 
familiarity with it.
    Then I asked our senior leadership folks to then benchmark 
it against the only other community I know of that is as 
equally obsessed with safety as NASA is, which is the nuclear 
reactors community, the naval reactors community, the legacy of 
Hyman Rickover and all the folks who have, over 40-plus years, 
have operated safely over 125 billion miles, they say, of safe 
operations of nuclear reactors.
    So we imposed upon Admiral Skip Bowman, who is the head of 
naval reactors today, who is Rickover's successor several times 
removed now, to benchmark, help us benchmark, relative to the 
approach of what they use as their contingency planning 
efforts. Over the course of the next six months, we were able 
to compare notes, if you will, upgrade our plan, he upgraded 
his based on the way we do business, too. We both benefitted by 
the exercise. The contingency plan was updated and republished 
in September of 2002. We ran a simulation of it in November, 
secure in the confidence we'd never have to use it. But, 
nonetheless, it was organized that way.
    And specifically, all the folks who were to be on the 
Independent Investigation Board, named, identified by position, 
were notified so that everybody understood the procedure. All 
the folks internally were exercised on the activity. And we 
were confident we'd never have to really worry about using 
something like this.
    On the day it occurred, at 9:29, Bill Readdy had it with 
him, as did all the senior officials at Kennedy, opened up the 
first page, and we went to item one on that contingency plan. 
And it was the saddest moment I can ever recall, to be followed 
by the most tragic moment I've ever experienced in my life, 
which was to face the families of these crew members, but to 
tell them and to reassure them that we are working through this 
as diligently as we know how to find what caused this, what are 
the answers, how are we going to fix this, and assure that we 
pursue the same dream that their spouses, loved ones, fathers 
and mothers wanted to see pursued.
    And so this plan is as good as we know how to put it 
together. It is that legacy. It has been really worked as smart 
as we know how.
    And the safety ethos, if I can get to slide 23 real quick, 
to be sure, the example you cited, the fellow you talked about, 
David Strait, notice on the lefthand of this chart, there's--
you can barely even see it--there's a hairline facture of no 
more than about an inch and a half that was enough to ground 
the entire orbiter fleet for four months until we knew what was 
the source of that problem. How did it happen? It isn't 
supposed to have shown up in anything. We stopped all flight 
operations, made the repair area to it that you see on the 
right over the course of that time, after they had run many, 
many simulations of this to figure out what the right answer 
was. And yet there's a bead weld right above it that was there 
without any consequence since the day this orbiter was first 
put together. And this effect was made on all four of those 
Shuttle flights.
    So even something as minuscule as that that David Strait, 
with 20-20 vision, noticed as he just went through his routine 
business, like they all do, of inspecting the orbiter, every 
square inch of it after every flight, noticed that seemingly 
innocuous problem, and that was enough to ground that fleet for 
four months.
    Chairman Boehlert. The gentleman's time has expired.
    Ms. Lofgren.
    Representative Lofgren. Thank you, Mr. Chairman. I'd like 
to thank you, as well as Senator McCain, for convening this 
hearing. Over the next few months, I think all of us will be 
asking tough questions related to the loss of the Columbia, as 
well as the future of the space program.
    But it's appropriate that first our country has paused to 
reflect on the heroism of the seven astronauts who gave their 
lives so that the dreams of humans reaching for the stars could 
live forever. And my thoughts and prayers are with the families 
of those we lost, as well as to the extended NASA family. And I 
know from my own experience that part of our NASA family at 
home, at NASA-Ames, is very much grieving with the rest of the 
country over this loss.
    You know, I also believe that this committee is going to 
focus on asking difficult questions that relate to how we're 
best able to resume our quest to explore space, and that's 
really the best way to honor those who were lost, to ask those 
tough questions and to find answers.
    Clearly, we're not going to find the answer to the specific 
technical issues relative to the Columbia. We've got technical 
people to do that. But it is appropriate for us to examine our 
own actions and to question each other about the policies and 
whether those policies had any impact on the risk that was 
inherent in this flight.
    Clearly, at least into the foreseeable future, space flight 
will be risky. And we know that the percentage of odds right 
now is--although initially we thought that the use of these 
vehicles would have a risk of one in one-hundred-thousand, it's 
down to now one in fifty-seven if you just look at the records. 
And so we need to--I'm a believer in human space travel, but we 
need to make sure that we're doing our part to minimize the 
risks.
    Now, I was late for this hearing, and I wish to apologize. 
It's been a big science day. We spent all morning on stem cell 
research in the Judiciary Committee, and I have hopes that 
science will do better in the Science Committee than science 
did in the Judiciary Committee today.
    But one of the questions I have for you, Administrator, is; 
as we look at what we should do to make sure that the risks are 
minimized, were there any safety upgrade proposals ever made to 
you, either as Administrator or in your prior life over at the 
OMB, that you did not support? And if so, what were those 
recommendations, and why did you reach the conclusion that you 
did?
    Mr. O'Keefe. Not that I'm aware of, but I certainly will 
review the history of both of my capacities in the course of 
this Administration and ascertain the dates of when there were 
any deferrals or anything else of any upgrades that would be 
categorized as exclusively focused on safety. So, to my 
knowledge, we have not done so.
    The only issues I'm aware of is an Electric Auxiliary Power 
Unit upgrade that had been planned that was determined to be 
technically deficient and wasn't--you know, so, in other words, 
no amount of money we threw at it was going to yield its 
performance in the manner in which it would contribute to not 
only efficiency but also safety characterization--that was 
deferred. And we're now re-examining to figure out how we can 
pick that up or continue it in the future that would yield the 
performance requirements we know of.
    But we will go back, and I will submit for the record any 
other changes that were made during the course of-- well, since 
Inauguration Day 2001, and if there are any changes that have 
occurred in that time, we'll certainly report those.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Representative Lofgren. So you'll go back and review the 
record and take a look at your--obviously, hindsight's 20-20; 
we're all doing that in terms of our own activities --what you 
recommended both at OMB and in your role as NASA Administrator. 
And I know my time----
    Mr. O'Keefe. I'll do my best.
    Representative Lofgren. Thank you very much. And my time is 
up, Mr. Chairman. I appreciate it very much.
    Chairman Boehlert. Thank you very much.
    The Chair recognizes the Senator from Washington.

               Lessons From the Challenger Investigation

    Senator Cantwell. Thank you, Mr. Chairman. And thank you, 
Mr. O'Keefe, for your diligence today. I've been to several 
meetings since I first checked in here this morning, and I 
think you've had a total of a five-minute break. So thank you 
for your diligence in answering these questions.
    I don't think any of my colleagues have asked specifically 
about the lessons learned from the Challenger inquiry. And I 
don't know if, in this current configuration of the Columbia 
inquiry, you think that we have a sufficient independent 
scientist on this review team.
    Mr. O'Keefe. Yes, Senator, very specifically, the 
contingency review plan and the activation of an investigative 
board is a direct outgrowth and a direct education from the 
Challenger accident. So what we put in motion on the day of the 
accident was something that was a lesson learned from 
Challenger. It was part of the Rogers Commission 
recommendations of how we would proceed in various cases, and 
this is an outgrowth of one of their concerns, which is how to 
get ahead of these cases as quickly as possible.
    The investigative board was appointed the same day as the 
accident. So, as a result, that was a very clear result of the 
lesson learned that came from that.
    So an awful lot of what we attempted to do here is to build 
on that experience and assure that we have a result, in this 
case, that is driven by our interest in absolute dedication to 
finding the answers to what caused the terrible tragedy, find 
the solutions to it, the fixes, and get about the business of 
getting back to safe flight to support the folks aboard 
International Space Station.
    Senator Cantwell. So who is that independent scientist, 
then, on----
    Mr. O'Keefe. Oh, I'm sorry. The independent--there is--I 
spoke as recently as last night to Admiral Hal Gehman, who is 
the chairman of the current board, who has five different folks 
he has in mind, I'm told, who are physicists, scientists, 
etcetera, that he is considering to propose for addition on the 
board. I have advised him whoever he wants to put on that board 
that will expand his expertise, that will improve the 
independence of the board, help its objectivity, we will do it 
without qualification and without hesitation.
    Senator Cantwell. Well, I am struck, reading last night and 
this morning, the Feynman minority report to that report that I 
think finally got in as an appendix in which Mr. Feynman was 
very critical of discrepancies between engineers and managers 
as the probability of failure. So you had engineers having 
studies and analysis saying that maybe the risk is a lot higher 
than what the high-level managers thought. The criteria used 
for flight-readiness reviews often developed a gradual 
decreasing strictness, ``If the Shuttle had flown with it 
before, chances are it worked before, so let's just--let's not 
think about the variations that might happen.''
    The Feynman Report even said NASA might have exaggerated 
the reliability of product, that there were variations in 
models, that NASA was more of a top-down system in testing the 
entire system instead of testing the individual properties and 
limitations of the material within the Shuttle to the degree 
that I think the report was quite critical of NASA, in the 
sense of maybe even coming to Congress and catering to us in 
the public relations expectations that were there by the 
public, instead of relying back on this basic engineering 
information.
    So I guess my concern is, is that the panel, as I see it 
now, doesn't have that Feynman voice, and I think what we 
really do want to do here is make sure that we are not engaged 
in that PR battle, but understanding how we really do build the 
NASA systems of the future----
    Mr. O'Keefe. Right.
    Senator Cantwell.--with more reliability and predictability 
based on those materials.
    And so I'd be very interested in how those recommendations 
were actually implemented, because I have a feeling we might 
find the same circumstances are true here. We're going to find 
out that there is some material property limitations that were 
discovered in some report written by some engineer that 
somewhere along the way got translated into ``not as big a 
risk'' and, thereby, the disaster that we've all been dealing 
with. So I appreciate your attention.
    Mr. O'Keefe. Well, thank you, Senator.
    That may be. And if the investigative board comes back and 
points to the systemic problems that we have, we positively 
will take that as a firm recommendation and go fix it.
    What I can advise, though, in my one year experience, with 
no prior experience with NASA at all--this is my first year at 
it--and reading the Challenger, the Rogers Commission Report, I 
was a Senate Appropriations Committee staff member on the day 
Challenger blew up, read the report thereafter, and that's my 
only association with that up until a year ago, is--what I see 
is a different agency than what existed 17 years ago, in that 
sense.
    One of the observations they made, Feynman's view, I think, 
was exactly right, he pointed to the difficulty of that chain 
of command and how it gets altered. This whole process I've 
witnessed, and I'm advised I'm the first Administrator to have 
attended what is called a Flight Readiness Review two weeks 
before a launch, it resembles a room like this, with everyone 
that you could possibly imagine associated with this activity, 
all of which are empowered to raise their hand during the 
course of a full day, sometimes two-day, review of every single 
technical issue. And if they disagree with the way it was 
presented, they disagree with the conclusion, they immediately 
raised their hand, and the issue was then put to the side to go 
work the conclusion of it. That didn't exist prior to 
Challenger. It was all done by telephonic tag-up occasionally. 
This is a in-the-room, everybody there associated with the 
activity.
    There was a big difference at that time, where schedule 
drove everything. They were looking to get to a flight rate of 
20, 30 flights a year. We're operating on a five- to six-
flight-a-year approach.
    And as we discussed with Congressman Feeney a minute ago, 
and I appreciate your bringing this out, we stopped flight 
operations for four months over a hairline fracture found on 
not the orbiter that was scheduled to go up, but one that's in 
an Orbiter Processing Facility. Everything ended. The engineer, 
the inspector, that noticed that, that stopped operations cold 
for four solid months.
    The disjointed chain of command, that doesn't--I don't see 
it. We have astronauts, former astronauts, who are in 
capacities as high as the Deputy Administrator, the Associate 
Administrator for Space Flight, the Associate Administrator for 
Safety and Mission Assurance, all three are former astronauts. 
That didn't exist prior to Challenger. None of those positions 
included anybody with that kind of background.
    And all the way through this process, every single one of 
those managers are empowered, are expected, there's a 
responsibility that each of them feel they have, to stand up 
and be counted and stop all the operations until there is any 
issue that has been left unresolved, beaten to ground truth.
    So what I've seen--and, again, from an objective opinion, I 
think, until a year ago, and now I'm steeped in it, there's no 
doubt about it--but until that time, unfamiliar with it other 
than what I read in the Challenger Rogers Commission Report, as 
well--would tell me this is a different place than it was then.
    All that said, we will be guided by what the Gehman Board 
comes back and tells us was the problem here. And if it was 
systemic problem, we're going to fix it. If it was a technical 
problem, we're going to fix that, too. There is nothing I can 
imagine that's not on the table, and I have no bias against any 
finding they could possibly come up with that wouldn't 
otherwise contribute to the solution in this particular case. 
We are going to act on that without reservation.
    Chairman Boehlert. Thank you very much.
    Senator Cantwell. Thank you, Mr. Chairman.
    Chairman Boehlert. Mr. Moore.
    Representative Moore. Thank you, Mr. Chairman. Thank you, 
Mr. O'Keefe, for staying.
    Yesterday, in the Washington Post, it was reported, I 
believe, that you said that--you defended the way you set up 
the accident investigation board, arguing that you proceeded 
the way you did so that it could launch an investigation 
immediately with members who were already well briefed on 
Shuttle operations. I guess my question is, Mr. O'Keefe, how 
important it is that we launch an investigation immediately, or 
should we take a more slow and diligent approach, as I think 
you said to Ms. Sheila Jackson Lee recently? I'm just--I'm 
asking what kind of investigation do we need here? What's, in 
your opinion, the best approach?
    Mr. O'Keefe. Yes, sir, thank you.
    I believe what I tried to say--and if I was inarticulate, I 
apologize--was to say we developed a contingency plan to 
activate an investigative board so that they could act 
immediately, get on with the task immediately. They are not--
and if I said this, I am in error, and I need to correct the 
record--they are not conversant in Shuttle operations.
    There is only one member of the group who is even vaguely 
familiar with NASA operations. The rest of them have had no 
experience with NASA at all. The chairman of board is Hal 
Gehman, a United States Navy admiral, retired, who never had 
any association with NASA. I don't even think he ever attended 
a launch before. All of the other members of the board are from 
the FAA, the Department of Transportation, the United States 
Navy, the United States Air Force, all folks dealing with 
safety, mission assurance, flight certification, etcetera. I 
don't know if any of them have even toured a NASA facility. 
They spent the past week in Shreveport, Louisiana, and have 
now, just now, this past Friday, arrived at Johnson Space 
Center, and went through the simulation of what a re-entry is 
like, astronaut simulations they do. None of them have ever 
been through that before.
    So Admiral Gehman has advised me that part of what he's 
done this past week is get up to speed on what he calls 
``Shuttle 101,'' just to understand what the lingo means and 
what the acronyms are. They are, nonetheless, were available up 
and running and talking to each other as early as seven-and-a-
half hours after the accident. On Saturday afternoon, at 5 
p.m., they were already identified and ready to go.
    So at least we picked up the time that gave them the 
opportunity to then become more familiar with the processes, 
the evidence, the facts, the data, so that they could get about 
the business of investigating as quickly as possible before the 
trails go cold.
    That's the approach that--you know, certainly, there's no 
one-size-fits-all approach to this, but it certainly was one of 
the most effective ways to get moving.
    Slide 33, if you would, at least this is what happened two 
days after the event. That's the folks that got there, and 
they're talking to FEMA, you know, managers on site, you know, 
it at least gave us an opportunity to get moving, as opposed to 
sitting around thinking about who should we pick, when should 
they go.
    Representative Moore. In terms of a realistic time frame, 
then, what might Congress and the American people expect us 
to--when you see this investigation really getting underway, 
and I know you can't predict what results we're going to find. 
I assume you can't predict what results we're going to find. 
But what time frame are we looking at, Mr. O'Keefe?
    Mr. O'Keefe. Well, the guys that's right on the other side 
of the fellow with the FEMA jacket on, right ahead of him, is 
Admiral Hal Gehman, and he can answer that question better than 
I can.
    Representative Moore. All right.
    Mr. O'Keefe. I wouldn't even presume to suggest when he's 
going to finish. And he has--there's no amount of time that's 
necessary that we think is appropriate to go out and find out 
what happened here. We're going to be guided by he and his 
board's view of exactly what occurred, and there is no time 
limit on that.
    Representative Moore. Very well, thank you.
    Mr. O'Keefe. Thank you. I appreciate it very much.
    Chairman Boehlert. Thank you very much, Mr. Moore.
    Mr. Administrator, I want to thank you very much. Before we 
wrap up, I just want to touch on a couple of more points. I 
want to bring clarity to a very important issue.
    I think it should be self evident that the Congress is 
committed to the proposition, on a bipartisan, bicameral basis, 
that we need to strengthen the evidence supporting the 
assertion that the Columbia Accident Investigation Board is 
truly independent. Now, I know the message has been sent, and I 
think it's been received, and I know it's been heard, and I 
want some assurance that it will be heeded. So I'd like you to 
visit that a little bit more and comment.
    I carefully listened to you as you said you'll consult with 
Admiral Gehman, but I hope you're hearing what Congress is 
saying. We are the ones, and others, too, insisting that we get 
some clarity to this issue. So can you address that a little 
bit more for me?
    Mr. O'Keefe. Yes, sir. No, I appreciate your patience on 
it, and I do not mean to equivocate in any way, shape, or form.
    I share exactly the same objective, I think, as all Members 
here do, which is to determine what are the answers to this 
tragedy, what are the facts that led to it, and ultimately find 
out how we go about fixing it and getting back to safe flight.
    And in that pursuit, I will not just consult with Admiral 
Gehman, I will advise. As soon as this hearing is concluded, I 
will give him a call back and say my clear understanding from 
the Members of this Joint Committee is that there are aspects 
of the charter that need further revision. Let's examine what 
those might be. And, to his satisfaction, we will make a 
change----
    Chairman Boehlert. Well, let me give you an easy one right 
off the bat. I mean, number 10, provide a final written report 
to the NASA Administrator not later than 60 days. First of all, 
the 60-day time frame----
    Mr. O'Keefe. Sure.
    Chairman Boehlert.--is totally unrealistic. But the report 
will come to the President, to the Congress, to the American 
people, and to the NASA administrator simultaneously.
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert. All right.
    Mr. O'Keefe. I'll make that an alteration and suggest to 
him that that's exactly--and we'll go ahead and make that 
charter change, because, again, I've stated that.
    There's a letter, too, that I--that's part of the record, 
as well--on the 60-day issue, that, when I commissioned the 
panel in the very first place, said, ``Our contingency plan 
contemplated 60 days, but you take whatever time you think you 
need, Mr. Chairman, Admiral, to come to conclusion on this.'' 
I'll reiterate that. We will eviscerate the 60-day. It has no 
bearing. It was intended as part of the continency plan 
originally, but not envisioned to be used. So to the extent 
that there is any amount of time he needs, that's what he's 
got. I don't intend to impose anything different on him.
    Chairman Boehlert. Well, that's the easiest one.
    Mr. O'Keefe. Sure.
    Chairman Boehlert. We have, you know, some others that----
    Mr. O'Keefe. Well, actually, we'll revise whatever is 
necessary.
    Chairman Boehlert. We want to deal with it clearly so that 
it's clear in our own minds that they're truly independent.
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert. And if they decide they want to go down 
a certain path or they want to hire a certain expert, they 
don't have to march over to NASA headquarters to get approval.
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert. The admiral and the Columbia Accident 
Investigation Board have the authority to proceed as they deem 
best----
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert.--to get us the answers we are all 
demanding. And that's critically important.
    Mr. O'Keefe. Yes, sir, I concur. I appreciate it. Thank 
you.
    Chairman Boehlert. Well, I think, as we come to the end, 
we've done several things today. First and foremost, the 
current status report. And obviously, this is a very dynamic 
situation, so events almost change hour by hour, let alone day 
by day. And so that was very important.
    And we've started what I have characterized in my opening 
remarks as the national conversation, which we have to start, 
people talking to each other, not through each other, over 
each, around each other--directly.
    We have affirmed the commitment to the concept of an 
independent board, and we've had agreement on the need for 
charter changes. I think that is very important.
    Now, this is not the beginning of the end; it's the end of 
the beginning. And we always want instant analysis of immediate 
findings, and that's understandable. But experience tells us we 
learn the most from in-depth examination of more complete data.
    So now we are in the fact-assembling phase, and all of us 
with responsibility in this very important assignment--the 
Congress, NASA, the Columbia Accident Investigation Board--are 
all going about the business of assembling the facts. Then all 
of us will have this database to look at and take care and 
caution as we go forward with our special responsibilities.
    Obviously, NASA and the Accident Investigation Board will 
be focusing more on the technical aspects. Obviously, there's a 
need on the part of the Congress to focus more on policy as we 
chart the course for the future. That does not mean they are 
mutually exclusive. We'll be looking at each other.
    I have been very pleased with the response I've had from 
Admiral Gehman in assuring us that Congress will be very much 
involved in all of the proceedings. I have been very pleased 
with the cooperation we've received from Administrator O'Keefe 
and his team. And I have been just impressed beyond any ability 
to adequately explain at the total commitment I find on the 
part of every single person involved in this procedure to get 
the facts. And let us be guided by the facts as we fulfill our 
important responsibilities.
    Mr. Administrator, thank you.
    The hearing is closed.
    [Whereupon, at 1:30 p.m., the hearing was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by the National Aeronautics and Space Administration (NASA)

Questions submitted by Chairman John McCain

Q1. In a Wall Street Journal article dated February 11, 2003, a 
fundamental question of ``What is the next step for manned space flight 
after the Shuttle?'' was discussed. The article also talked about 
NASA's four alternatives for replacing the Shuttle program, three of 
which would be limited to servicing the International Space Station. 
The fourth option would develop a space craft that takes off like an 
airplane without the help of unmanned boosters. This could allow for 
servicing of the Station along with a number of other options such as a 
mission to Mars.

Q1a. Do you believe that we are short-changing ourselves by proceeding 
with a vehicle that can only service the Space Station?

A1a. No. The Orbital Space Plane (OSP) is only one element of the 
Integrated Space Transportation Plan (ISTP), which provides the roadmap 
for NASA's future investments in space transportation. The principal 
benefits of the OSP include: (1) providing assured access to the 
International Space Station (ISS), (2) meeting the U.S. ISS crew rescue 
responsibilities, (3) improving the overall crew safety, and (4) 
providing a bridge for crewed space flight on future launch vehicles. 
The OSP Level 1 requirements are focused on meeting the first three 
benefits based upon the Agency's near-term needs. But by addressing the 
crewed segment, OSP would also provide a crucial building block for 
future human space flight vehicles under the ISTP. The ISTP will 
continue to evolve consistent with NASA's strategic objectives.

Q1b. While there were technical difficulties in the X-33 program which 
led to its eventual cancellation, were the difficulties insurmountable 
if the Nation had made a conscious decision to pursue a manned space 
craft for exploration beyond the Space Station and the moon? What were 
the technical barriers to the X-33 program?

A1b. The X-33 was intended to demonstrate, in flight, the technologies 
needed for a full-size, single-stage-to-orbit Reusable Launch Vehicle. 
As a technology demonstrator, it required dramatic breakthroughs in 
multiple technologies, including the development of composite liquid 
hydrogen (LH<INF>2</INF>) tanks that were an integral structural part 
of the overall vehicle. Achieving single-stage-to-orbit, X-33 was also 
founded upon the principle that the commercial market would continue to 
grow. The X-33 program had reached the end of the time period specified 
in the cooperative agreement between NASA and Lockheed Martin. When 
faced with the decision of providing additional funding to continue the 
X-33 vehicle after the failure of the LH<INF>2</INF> tanks, the Agency 
decided the X-33 would have to compete for funding with all other 
reusable space transportation system development efforts under the SLI 
program. This decision was communicated to Lockheed Martin prior to the 
completion of the original cooperative agreement, which ended on March 
31, 2001. The X-33 proposal was not selected for award under the SLI 
NRA 8-30 Cycle I competition (May 2001).
    There are multiple vehicle configurations that would be considered 
if the Nation made a conscious decision to pursue a manned spacecraft 
for exploration beyond the Space Station. Unless dramatic progress is 
made in the technologies necessary to achieve single-stage-to-orbit, it 
is likely that the final configuration would be different than the X-33 
design.

Q1c. The Wall Street Journal article also implied that if we shifted 
to capsules launched on expendable launch vehicles, it would be an 
admission that the Shuttle program never really made much sense. Do you 
agree with that implication?

A1c. No. The unique capabilities of the Space Shuttle have enabled a 
broad range of missions that would not have been accomplished without 
it, including the Hubble Space Telescope deployment as well as repair 
and maintenance missions, satellite servicing, and construction of the 
ISS. The Space Shuttle remains the Nation's primary means of 
transporting crew and cargo to the ISS.

Q1d. Many are calling your space plane concept a step backwards 
because it is half disposable and not fully reusable. What's your 
response to these claims?

A1d. OSP does not replace the Reusable Launch Vehicle (RLV). The RLV 
architectures always consisted of NASA Unique Systems (renamed OSP) and 
booster systems. The OSP represents a step forward for the Agency, 
offering the following benefits: (1) providing assured access to the 
ISS, (2) meeting the U.S. ISS crew rescue responsibilities, (3) 
improving the overall crew safety, and (4) providing a bridge for 
crewed space flight on future launch vehicles. The Next Generation 
Launch Technology program continues technology work on future launch 
systems, paced to address key issues that are still open, including 
requirements definition, level of DOD cooperation, and technical 
maturity. We believe this approach will provide a more resilient bridge 
to providing a future launch system while assuring access to space 
during a future transition from the Shuttle.

Q2. If the Shuttle orbiters had lived up to their original design 
intent of one launch per week, they would have exceeded their design 
limits of 100 flights. Space Shuttle Discovery has flown the most 
missions of all orbiters at 30.

Q2a. Do you still believe the orbiters are capable of 100 flights per 
their original design?

Q2b. If not, how can we tell if any of them are capable of more than 
30 flights?

A2a&b. It is important to note that the 100-flight design limit refers 
to the Space Shuttle orbiter airframes. NASA has not altered the 
expectation that the orbiter' airframes are capable of being flown at 
least 100 times with the specified maintenance and periodic upgrades to 
eliminate obsolescence issues associated with other Shuttle sub-
systems. The Shuttle is subjected to rigorous inspection and 
maintenance following each flight. Each orbiter also undergoes a major 
overhaul every three to five years. NASA is implementing a Shuttle 
Service Life Extension Program to assure that the appropriate 
investments are made so that Shuttle can fly safely at least through 
the middle of the next decade.

Q3. In a Boeing impact analysis of ascent debris, six different 
scenarios in which tiles are lost from various parts of the wing were 
examined. It is my understanding this report was used to determine if 
NASA would proceed with Columbia's re-entry. After reviewing the 
analysis results, only four of the six scenarios contained thermal 
prediction results of ``No Issue.'' The other two scenarios, which 
involve analysis of the lower wing area and the main landing gear door, 
has no results.

Q3a. Can you explain why the thermal predictions under these scenarios 
were not summarized?

A3a. On January 23, 2003, Cases 5 and 6 were not complete prior to 
preparation of charts that were to be used during management reviews 
the following day. Case 5 was completed late in the evening and the 
results were discussed at the January 24, Space Shuttle Vehicle 
Engineering Office (SSVEO) tag up and at the STS-107 Mission Management 
Team (MMT) in addition to Cases 1 through 4. An action was taken from 
the MMT to follow up with the Case 6 results. The Case 6 results were 
discussed at the January 27, 2003 SSVEO tag up and the STS-107 MMT.

Q3b. Has NASA or Boeing since analyzed those scenarios and, if so, 
what are the results?

A3b. At the SSVEO tag up and the STS-107 MMT conference on January 24, 
2003, the results for Case 5 were discussed and it was reported that 
the surface temperature of the analyzed areas could reach 
430<SUP>+</SUP>F, which posed no risk for entry. At the SSVEO tag up 
and the STS-107 MMT conference on January 27, 2003, the results for 
Case 6 were discussed and it was reported that the surface temperature 
of the analyzed areas could reach 705<SUP>+</SUP>F, which could result 
in a localized ``soft spot'' in the area, but posed no safety of flight 
issue. This area would require post-flight inspections and repairs. The 
analysis did not identify any potential burn through of the structure 
for any of these cases.

Q4. Did NASA sacrifice funding for Shuttle safety in order to pay for 
cost overruns on the space station? If not, has the cost overruns on 
the Station program prevented increased funding for the Shuttle 
upgrades?

A4. No Space Shuttle safety upgrades funding has been used to 
supplement the International Space Station budget.

Q5. The Columbia Accident Investigation Board, which is currently 
charged with investigating the Columbia accident, was created by NASA 
and reports to NASA, leading to criticism that it is not an independent 
body.

Q5a. Why is this approach better than having the White House set up a 
blue-ribbon panel that is clearly independent of NASA, as was done 
after the 1986 Challenger accident?

A5a. Prior to Challenger, NASA had no contingency plan for conducting 
accident investigations; as a result, there was a delay before the 
Challenger investigative panel was put into place. One of the lessons 
learned was to have a standing panel of experts from outside the Agency 
to be available immediately to conduct an external investigation.
    NASA's goal is to find the cause of the accident, to fix it, and to 
return to flight. We will support any approach that the Gehman Board, 
Congress, and the Administration feel best accomplishes this goal. 
Since all but one of the members are from organizations external to 
NASA, the Board is not under the control of the Agency and can 
therefore conduct an independent investigation. Furthermore, we have 
received very helpful advice and counsel from Members of Congress that 
the Board's charter should include revisions to strengthen the 
independence of the investigation, and to enable it to be as thorough 
as possible. NASA has been responsive to these suggestions, and has 
moved expeditiously to make appropriate changes to the original 
charter.

Q5b. Are there problems with having the Board staffed by NASA and 
subject to NASA disclosure rules?

A5b. The NASA employees initially assigned as staff to the Board 
primarily provide administrative support and have been phased out over 
the past month. A Task Force Team comprised of NASA employees has been 
created by the Board as a conduit to obtain information and data that 
the Board requests from NASA in the form that the Board wants. There 
have been modifications to the Gehman charter to strengthen the 
independence of the Columbia Accident Investigation Board (CAIB). These 
changes have satisfied Admiral Gehman regarding questions of 
independence of the Board.

Q5c. Do you have any plans for increasing the membership of the Board?

A5c. Admiral Gehman, not NASA, has already determined the need for 
additional Board members. Additional appointments to the Board include 
Dr. Sheila Widnall, Dr. Douglas Osheroff, Dr. Sally Ride, and Dr. John 
Logsdon. Admiral Gehman has the authority to augment the Board with 
whatever additional members and resources he deems necessary.

Q6. Recent news reports have charged that changes in NASA's budgeting 
accounts in the mid-1990s forced the Space Shuttle program to compete 
with the International Space Station and the X-33 program for funding. 
How did the need to fund the Space Station and the experimental space 
plane affect NASA's budgeting for long-term use of the Space Shuttle?

A6. Beginning in FY 1990, in an effort to better utilize precious 
resources, restructured its budget to align the Space Shuttle and Space 
Station programs under a single Human Space Flight appropriations 
account. This action allowed the Space Flight Programs the necessary 
flexibility to incorporate efficiencies by combining functions common 
to both program. Some of these activities included crew training and 
mission control functions.

Q7. In 2001, NASA announced that it had a $218 million shortfall in 
its budget for Space Shuttle operations. To solve this problem, NASA 
proposed canceling or delaying Space Shuttle safety upgrades, and 
delaying major upgrades of the Space Shuttles Discovery and Endeavour. 
What affect did this shortfall and subsequent actions by NASA have on 
Space Shuttle safety?

A7. In the FY 2002 Operating Plan, the Space Shuttle program cancelled 
or deferred several upgrades because of cost growth or technical 
immaturity. In the Operating Plan, reviewed by Congress, the funding 
made available as a result of these actions was then applied to Space 
Shuttle operations to accommodate operations cost growth. These actions 
did not affect safety.

Q8. A February 3, 2003, article in the New York Times alleges that 
NASA removed five of the nine members of the Aerospace Safety Advisory 
Committee, who warned that work on long-term Shuttle safety ``had 
deteriorated.'' According to the report, NASA claimed that it had 
changed the charter of the group. Could you please explain NASA's 
rationale for changing the charter of this committee and what factors 
led to this change?

A8. Based on the recommendations of the Shuttle Independent Assessment 
Team (SIAT) and the Inspector General, in April 2002, NASA requested 
that several ASAP Members and Consultants step down from their 
positions to make room for new members with a different and more 
current skill mix. The Agency deemed this necessary to better reflect 
the current demands of its programs. All of those asked to step down 
had served on the Panel for at least six years--the normal term of a 
panel member. The average tenure of those asked to step down was 12 
years.

Q9. There has been some discussion as to whether or not the re-entry 
path for the Columbia could have been altered to reduce the heat build-
up in certain parts of the orbiter. Could Columbia's re-entry path have 
been altered to reduce heat to the left wing?

A9. The CAIB is attempting to determine the cause of the Columbia 
accident. While we still do not know what caused the accident, it is 
unlikely that the thermal profile could have been significantly 
reduced. The re-entry path is already optimized to minimize heating.

Q10. The public has asked why the astronauts were unable to eject from 
the Columbia as it broke apart. In 2001, NASA spent $5 million to study 
crew escape systems, such as ejections seats and a detachable cockpit 
that could fly away as an escape pod and float down with parachutes. 
What were the results of this study, and are such escape systems 
practicable?

A10. NASA has continued to study crew escape systems, including systems 
during re-entry. Over the past several years, a series of studies on 
the subject were commissioned as a part of NASA's Shuttle upgrades 
analysis.
    Various concepts for crew escape systems have been considered 
against critical operating parameters. Some considerations which limit 
potential crew escape systems include: vehicle structure, weight, 
operational use, and thermal environment.
    It is highly unlikely that any of the proposed crew escape concepts 
NASA has considered would have allowed the crew to safely escape in the 
dynamic environment we believe the Space Shuttle Columbia experienced. 
They were far too high and going far too fast for the existing escape 
system.
    Currently, the astronauts wear parachutes and have a pole 
deployable from the crew hatch that allows the crew to bail out in 
level, sub-sonic flight at 25,000 feet or below.

Q11. Last December, RAND completed a study looking at possible 
privatization scenarios for the Shuttle program. The FY 2004 budget 
appears to indicate that NASA intends to pursue privatization 
alternatives. Has this tragic accident changed your view of expanding 
Shuttle privatization?

A11. The operational work of the Space Shuttle program has always been 
primarily performed by a contractor workforce. However, the Government 
has provided insight, oversight and technical expertise.
    As of this date, NASA has exercised a 2-year extension option to 
the current SFOC contract, which carries the contract through October 
2004. NASA's FY 2004 budget does not provide for ``privatization 
alternatives,'' but rather assumes continued exploration of 
alternatives for competitive sourcing of Space Shuttle, flight 
operations. Further examination of Shuttle competitive sourcing options 
is being held in abeyance until the Gehman Board recommendations are 
received and assessed. It would be premature for NASA to propose any 
detailed plans for Shuttle competitive sourcing prior to receipt of the 
Columbia Accident Investigation Board conclusions.

Q12. Based on your plans prior to the loss of the Columbia orbiter, I 
understand that NASA was planning to fly that orbiter in November to 
support continued construction of the International Space Station 
(ISS). Attainment of ``core complete'' was projected for around 
February 2004. Because of the Shuttle fleet's major modifications 
schedule, I understand that only three orbiters would have been 
available at any given point in time. For example, Discovery is now 
undergoing major modifications and is not scheduled for a mission until 
July 2004.

Q12a. In light of recent events, do you envision any major changes to 
the Shuttle modifications and ISS assembly schedule when flights 
resume?

A12a. It is premature for NASA to predict any potential changes to 
Shuttle vehicle or modification schedule. We will wait until the Gehman 
Board has completed its investigation, found the cause of the accident 
and provided its findings. Although NASA can meet both ISS assembly and 
other agency science priorities with the three remaining Orbiters, the 
schedule for these missions is under review.

Q13. In his testimony before the Commerce Committee on September 6, 
2001, William Readdy, the then-Deputy Associate Administrator of the 
Office of Space Flight, stated that ``[e]very single Space Shuttle 
employee is empowered to call a `time out' if they believe that there 
may be a potential threat to safety.''

Q13a. Could you please describe process for a Space Shuttle employee 
to call a ``time out?''

Q13b. Does this ability apply to only NASA employees or also include 
contractors?

A13a,b. United Space Alliance has a formal Time-Out Policy (E-02-18) 
signed by the Vice President, Safety Quality & Mission Assurance, that 
encourages and actively supports the safety practice of calling a 
``time out'' when anyone is unsure or uncomfortable with any situation.
    The term ``time out'' is used by United Space Alliance for its 
employees. However, policies are in place for all employees, whether 
civil service or contractors to stop any activity that they feel is 
unsafe. This safety awareness behavior is highly encouraged and 
rewarded at all levels.

Q13c. Could a ``time out'' be applied to a landing operation?

A13c. ``Time out'' is a term that is used in the ground processing of 
the Space Shuttle vehicle. During mission operations, all technical 
issues are documented and processed through the Mission Management 
Team. However, there are corollary policies in place for all phases of 
the Shuttle's mission that allow employees to raise safety issues.

Q13d. Did any NASA employee or contractor attempt to call a ``time 
out'' before or during the Columbia mission?

A13d. No ``time out'' was called during the Columbia mission. During 
the mission, following examination of launch film showing a debris hit 
on the orbiter, a variety of potential safety issues were raised, 
discussed, and reviewed through the normal agency process. Based on 
these reviews, the MMT judged that there was not a safety of flight 
issue. The Gehman Board is reviewing all documentation related to the 
processing, pre-launch, and launch activities for the STS-107 mission.

Questions submitted by Senator Frank R. Lautenberg

Q1. John Macidull, a member of the presidential commission that 
investigated the Challenger disaster, has raised questions as to why 
NASA managers did not prepare alternative strategies for Columbia's re-
entry, in response to the damage which occurred at liftoff.

      After you saw the video footage of the liftoff, did you suspect 
the loss of heat shield tiles, and did you consider alternate plans to 
assure a safe re-entry?

A1. 

        <bullet> Based on our analysis during the Columbia's mission, 
        we did not believe that there was a critical threat to the 
        Shuttle's safety posed by the foam impact.

        <bullet> Each Shuttle mission entry profile is optimized for 
        the best re-entry approach. It is unlikely that the thermal 
        profile could have been significantly reduced.

        <bullet> Had we been aware that there was a critical problem 
        during the Columbia's mission, we would have used all means at 
        our disposal to resolve the problem and return the crew safely 
        to Earth.

Q2. We've learned that at the same time the Space Shuttle Program was 
being asked to undertake additional flights to support the 
International Space Station, its budget was, being reduced. You were 
being asked to do more with less. If your funding had not been reduced, 
are there additional safety upgrades you would have performed?

A2. 

        <bullet> NASA proposed, and received, funding for those 
        upgrades we considered to be the highest priority, and which 
        provided the greatest return in terms of safety improvements 
        for the Shuttle. We did this within the framework of the 
        President's budgets and Agency priorities.

        <bullet> NASA's FY 2003 budget amendment increased outyear 
        funding for the Space Shuttle program. This increase provides 
        for an additional flight in support of the ISS and funding for 
        the Shuttle Service Life Extension Program (SLEP). The 
        amendment increases funding for upgrading the Space Shuttle 
        system by approximately $660 million for the FY 2004-2008 
        timeframe. The budget amendment recognized that the Space 
        Shuttle would be the workhorse for Space Station transport 
        through at least the middle of the next decade.

Q3. The Columbia flights scheduled for August 2000 and March 2002, 
were both delayed due to last minute safety concerns about the tiles 
and insulation. What changes were made after those delays to improve 
the safety of the Columbia? Were any safety upgrades made on the 
Shuttle during that period?

A3. 

        <bullet> Neither STS-93 nor STS-109--the two previous missions 
        of Columbia (OV-102)--experienced delays due to problems with 
        the orbiter's thermal protection system (tiles and insulation).

        <bullet> STS-93 Delays:

                <all> The launch of STS-93 was delayed twice due to 
                ISS manifest problems first to December 3, 1998 and 
                then to January 21, 1999.

                <all> The launch date was moved seven more times due 
                to delays in the readiness of the Chandra satellite and 
                the inertial upper stage booster.

                <all> The launch count down for STS-93 was aborted 
                twice, first for a concern with hydrogen concentrations 
                in the aft of the Orbiter; the second time was due to 
                trans-oceanic abort landing site weather issues.

                <all> STS-93 launched on July 23, 1999.

                <all> No launch delays were caused by issues with the 
                Orbiter's thermal protection system.

                <all> No new hardware or upgrade was required prior to 
                launch.

        <bullet> Between STS-93 and STS-109 Columbia underwent its 
        scheduled year-long structural inspection, major maintenance 
        and modification. During this time a number of upgrades were 
        installed to combat obsolescence and improve safety including:

                <all> Multifunction Electronic Display System or 
                ``glass cockpit''

                <all> Micrometeoroid protection on wing leading edge 
                and payload bay radiator doors

                <all> Device Driver Units--improved avionics

                <all> Complete wiring inspection and repair

                <all> Main Propulsion System upgrade of helium check 
                valve and hydrogen fill and drain line

        <bullet> STS-109 Delays:

                <all> STS-109 was originally scheduled for launch on 
                November 1, 2001.

                <all> The launch date was rescheduled three times due 
                to ISS manifest priorities and in delays in the OV-102 
                wiring inspections.

                <all> Two further delays were caused by problems with 
                Hubble Space Telescope support hardware.

                <all> The STS-109 Flight Readiness Review established 
                a new launch date of February 28, 2002.

                <all> The launch was delayed by one day due to 
                predicted weather at KSC. STS-109 was launched on March 
                1, 2002.

                <all> No launch delays were caused by issues with the 
                Orbiter's thermal protection system.

Q4. It appears that each time NASA requested additional funding for 
safety upgrades, Congress appropriated these funds. So, tell me, why 
didn't NASA request whatever funding was needed for all possible safety 
improvements?

A4. 

        <bullet> NASA proposed, and received, funding for those 
        upgrades we considered to be the highest priority, and which 
        provided the greatest return in terms of safety improvements 
        for the Shuttle. We did this within the framework of the 
        President's budgets and Agency priorities.

        <bullet> In the FY 2002 Operating Plan, the Space Shuttle 
        program cancelled or deferred several upgrades because of cost 
        growth or technical immaturity. In the Operating Plan, reviewed 
        by Congress, the funding made available as a result of these 
        actions was then applied to Space Shuttle operations to 
        accommodate operations cost growth. These actions did not 
        affect safety.

        <bullet> NASA's FY 2003 budget amendment increased outyear 
        funding for the Space Shuttle program. This increase provides 
        for an additional flight in support of the ISS and funding for 
        the Shuttle Service Life Extension Program (SLEP). The 
        amendment increases funding for upgrading the Space Shuttle 
        system by approximately $660 million for the FY 2004-2008 
        timeframe. The budget amendment recognized that the Space 
        Shuttle would be the workhorse for International Space Station 
        transport through at least the middle of the next decade. SLEP 
        will be coordinated with NASA's other space transportation 
        investments through the Agency's Integrated Space 
        Transportation Plan and will make prioritized investments in 
        the Shuttle system to ensure that the Shuttle can fly safely 
        through at least the middle of the next decade.

        <bullet> The President's budget for FY 2004 reflects our 
        commitment to the SLEP investment process, including upgrades, 
        necessary to safely operate the Shuttle through at least the 
        middle of the next decade.

Questions submitted by Senator Bill Nelson

Q1. If Columbia was indeed damaged during ascent, and this had been 
known by folks on the ground, what could NASA or USA have done, if 
anything, to ensure the safe return of Columbia's crew, such as 
changing the re-entry profile or launching a rescue mission with 
another orbiter?

A1. 

        <bullet> NASA was unaware of any potential problems during 
        ascent. It was only after film and video review the day 
        following the launch that NASA became aware of potential damage 
        to the Shuttle's tiles from debris.

        <bullet> NASA has tried to develop procedures to allow on-
        orbit tile repairs in the past. With our current capabilities, 
        it is not technically feasible to do so. Currently, we have no 
        way to reach the underside of the orbiter without significant 
        risk to the crew and Orbiter. We will be revisiting this 
        problem in the near future.

        <bullet> The orbiter did not have sufficient fuel to 
        rendezvous with the ISS, nor did it have the required hardware 
        to do so.

        <bullet> Columbia did not have sufficient consumables to 
        sustain the crew on orbit for more than an additional four 
        days. The time required to prepare another orbiter for launch 
        and train the crew for the mission would not have allowed us to 
        launch in time to rescue the Columbia's crew.

        <bullet> We do not have any procedures in place that could 
        accomplish an on-orbit transfer of crew between vehicles 
        without compatible docking mechanisms.

        <bullet> The re-entry profile for each mission is already 
        optimized for landing with the minimum heating.

        <bullet> However, had we been aware that there was a critical 
        problem during the Columbia's mission, we would have used all 
        means at our disposal to resolve the problem and return the 
        crew safely to Earth.

Q2. Please explain NASA's basic goals for human space flight prior to 
February 1. What changes have occurred in this plan, so far, since the 
tragic events of February 1?

A2. 

        <bullet> NASA's basic human space flight goals are unchanged 
        since we articulated them in our Strategic Plan. Our first 
        priority is, and will continue to be to ensure the safety of 
        the public, our employees, and our high value assets such as 
        the Shuttle.

        <bullet> Space flight, both human and robotic, is the 
        fundamental enabling capability for NASA's mission: to 
        understand and protect our home planet, to explore the universe 
        and search for life, and to inspire the next generation of 
        explorers.

        <bullet> Our Space Flight Enterprise goals enable this mission 
        by:

                <all> Ensuring the provision of space access and 
                improving it by increasing safety, reliability, and 
                affordability;

                <all> Extending the duration and boundaries of human 
                space flight to create new opportunities for 
                exploration and discovery; and

                <all> Enabling revolutionary capabilities through new 
                technology.

Q3. How did NASA respond, specifically, to concerns expressed over the 
past several years by the Aerospace Safety Advisory Panel and others 
that the Shuttle program was under stress due to funding and workforce 
constraints? Please list dates of policy changes along with any changes 
in funding or workforce.

A3. 
    To respond adequately to this question, one needs to examine the 
actions that led to the downsizing of the NASA and contractor 
workforce.
    In August 1994, the Associate Administrator for Space Flight 
initiated a Shuttle Functional Workforce Review to identify the minimum 
workforce necessary to safely fly seven Shuttle flights per year and to 
establish a baseline and implementation plan to optimize the Shuttle 
workforce while ensuring safety.
    Also in March 1994, the findings of the Space Shuttle Management 
Independent Review Team, under the chairmanship of Dr. Christopher 
Kraft, recommended that NASA consolidate all program operations under a 
single business entity, such as a single prime contractor.
    The fundamental premise of this recommendation was:

        -- Separation of the operations functions from the development 
        activities within the program by moving the government from an 
        oversight role to an insight role.

        -- Elevation of the NASA-contractor interface to the program 
        level to disengage NASA daily operations activities and empower 
        the contractor to assume this responsibility.

        -- Development of a contract structure to incentivize the 
        contractor to reduce operations costs by implementing 
        efficiencies while maintaining safety of flight and mission 
        success.

    The findings of both the Shuttle Functional Workforce Review and 
the Space Shuttle Management Independent Review Team were incorporated 
into NASA's Zero Base Review. The objective of the Zero Base Review was 
to examine the NASA-wide organization and management structure, 
requirements and functional interfaces with a view toward moving 
through restructuring the reductions anticipated in NASA's out-year 
budget.
    To respond to the reductions in the out year budget, NASA offered 
incentives for retirements and early-out opportunities across the 
Agency. In addition, the Space Flight Operations Contract with United 
Space Alliance, (a joint venture between Rockwell International (now 
Boeing) and Lockheed Martin Corporation) was initiated in October 1996 
and was designed to begin a transition of Space Shuttle operations that 
could eventually lead to privatization. Consolidation of contracts and 
moving day-to-day routine Shuttle operations to the contractor while 
maintaining insight/oversight allowed NASA to reduce the civil service 
workforce and subsequently reduce cost. A review was conducted by the 
ASAP in the 1996/97 time frame to assess any safety impact on the 
initial transition to the Space Flight Operations Contract. The Panel 
determined that safety would not be compromised, however, they would 
continue to monitor the transition process. Whenever there were any 
indications of workforce stress observed by NASA management or 
anticipated gaps in skills, management responded by providing the 
resources necessary to ensure continued safe operations of the Shuttle.
    Contractor and civil service staffing reductions continued in 1998 
and 1999, mostly through attrition. In 1998 NASA's Associate 
Administrator for Safety and Mission Assurance verified that the 
staffing reduction process used by United Space Alliance (USA) the 
prime contractor for Space Shuttle operations, did not compromise 
safety. Also, a subgroup of the Aerospace Safety Advisory Panel (ASAP) 
observed the review by the Risk Assessment Team and provided 
concurrence with the Team's findings.
    In the FY 2000 (CY 99) budget process the Office of Space Flight 
(OSF) was provided relief from the downsizing. Also, in 1999 the Agency 
conducted a NASA-wide Core Capability Assessment, a center-by-center 
analysis to identify workforce and infrastructure requirements. One of 
the objectives of the review was to help chart a strategy that would 
provide the OSF Centers with the requisite flexibility to attract and 
retain the critical skills necessary to ensure safe mission and program 
success.
    The ASAP Report (published in February 2000) noted that the effects 
of the hiring freeze and downsizing had produced critical skills 
deficits in some areas and growing workforce pressures. The Panel 
applauded NASA's rehiring efforts but recommended that the Agency 
should continue to aggressively address workforce issues.
    The aging of our workforce placed a strong emphasis on entry level 
recruiting. It naturally follows that many of NASA's critical specialty 
and program vacancies were filled from within and then these newly 
created vacancies were filled with fresh outs. Therefore, while the 
ability to hire allowed us to fill many critical needs, new hires did 
not often go directly to critical vacancies but rather to replace 
employees who had moved internally to where we needed them the most.
    Over the past several years, the workforce hiring in the Space 
Shuttle program has helped to address critical hiring needs. While new 
hires addressed needs in understaffed critical skilled areas, workload 
levels have also increased. Due to the reduced number of experienced 
Science and Engineering (S&E) personnel in the current pipeline, we 
have to maintain the current level of program support and we have to 
ensure that our new S&E hires receive the proper skill training to meet 
future program needs. Given our S&E retirement eligible pool, a 
competitive job market for technical skilled personnel and a reduced 
pool of S&E graduates, we will have to enhance current recruitment and 
retention strategies.
    From an Agency perspective, NASA uses a number of tools and 
flexibilities to recruit and retain critically needed skills. For 
example, the Agency offers starting salaries above the minimum rate, 
when necessary, and offers recruitment bonuses and retention 
allowances, when appropriate. NASA has also established a National 
Recruitment Initiative to develop Agency-wide recruitment strategies to 
attract and hire a highly technical S&E workforce. In addition, NASA 
will continue to use programs, such as the Presidential Management 
Intern Program, the Co-operative Education Program, and the Federal 
Career Intern Program as sources for entry level hires. The Agency may 
also repay student loans to attract or retain employees in critical 
positions.
    The GAO reviewed NASA's use of Human Capital in early CY 2000 and 
determined that the actions NASA was taking were sufficient to sustain 
a quality workforce.
    It was noted in the 2001 ASAP Report that although workforce 
concerns continued to be a focus of the Panel, they saw no safety 
shortfall attributable to workforce issues.
    NASA has continued to provide updates to the GAO regarding progress 
in the workforce efforts. As part of the FY 2003 budget process, NASA 
conducted a Strategic Resources Review. This review highlighted several 
areas for transforming current business operations.
    In addition, consistent with the President's Management Agenda 
initiative on Strategic Management of Human Capital and to support 
Agency SRR activities and decisions, the Office of Human Resources and 
Education's Functional Leadership Plan, dated May 2000 (which was 
developed after consultation with the Enterprises), is now being 
revised to reflect a more comprehensive, agile Agency-wide human 
capital strategic plan. As decisions are made, the Agency will address 
each change using the plan as a framework.
    Our attention to workforce issues is focused on the future as well 
as the present. Recognizing that veteran space flight program employees 
will be retiring in the coming years, we have been aggressively taking 
action to attract and retain a high performing workforce to replace 
them.
    We have a complement of skilled and dedicated civil servants and 
contractors who are fully able to perform the work required to ensure 
the continued safety and viability of our space program.

Q4. LWhat strategy should guide operation of the International Space 
Station while the Space Shuttle system is grounded? Should permanent 
occupancy of the space station be suspended until the Shuttle system is 
operating again, or should the space station partners rely on Russian 
Soyuz and Progress spacecraft to bring crews and cargo to space 
station?

A4. 

        <bullet> The ISS continues to function well and the Expedition 
        6 crew continues to perform science and routine ISS 
        maintenance.

        <bullet> It is important to keep the ISS crewed. Without 
        routine maintenance by an onboard crew, reactivating ISS after 
        re-crewing becomes increasingly more complicated. There is also 
        some risk associated with a de-crewed ISS. System failures are 
        best handled by the on-orbit crew and some failures require 
        crew interaction to resolve. Crewing also continues the on-
        going science activities.

        <bullet> There are no threats to the ISS or the crew in the 
        near-term and we are working options with our International 
        Partners to be able to sustain both until we return to flight. 
        The crew can remain on the ISS through at least June 2003 with 
        the logistics delivered on the Progress that docked February 4. 
        We are evaluating options for the continued crewing and 
        operations of the ISS beyond this time period.

        <bullet> Under the current planning with our International 
        Partners, the Expedition 6 crew of three will return on Soyuz 
        5S, which is currently docked to ISS as the emergency return 
        vehicle, in late April or early May and will be replaced by a 
        crew of two on Soyuz 6S, the replacement rescue vehicle. The 
        planned three Progress cargo spacecraft in 2003 will be 
        increased to four and the four Progress in 2004 will be 
        increased to five to provide sufficient logistics to sustain 
        the crew. With these changes and the continued rotation of a 
        two person crews on future Soyuz replacement missions, plans 
        are in place to keep the ISS continuously crewed through 2004.

        <bullet> In the unlikely event that de-crewing is required, 
        the ISS can be configured and de-crewed--as a contingency 
        procedure. The ISS can remain without a crew for an extended 
        period of time while maintaining altitude with unassisted 
        Progress re-boost. Progresses routinely dock to and re-boost 
        the ISS without crew interaction.

Q5. If the decision is made to rely on Russian Soyuz and Progress 
spacecraft beyond those that Russia already has agreed to provide at no 
cost to the other partners, who will pay for them. How do these plans 
take into account the requirements of the Iran Nonproliferation Act 
(P.L. 106-178), which prohibit NASA from making payments to Russia, in 
cash or in kind, in connection with the space station program unless 
the President certifies to Congress that Russia is not proliferating 
nuclear or missile technologies to Iran?

A5. 

        <bullet> NASA has met with the Russians and our other 
        International Partners and has briefed them on the status of 
        the ISS and the Columbia investigation. The maintenance of the 
        ISS is a Partnership issue and will be resolved in this 
        cooperative framework.

        <bullet> Russia is capable and willing to provide one 
        additional Progress in both 2003 and 2004 to sustain the ISS 
        crew. However, Russia has indicated that doing so will require 
        additional partner funding. The International Partners are 
        working together in an attempt to resolve this issue.

        <bullet> Any arrangements reached with the Russians or any 
        other Partner will be in compliance with existing U.S. law and 
        policy.

Q6. The Columbia tragedy and the subsequent grounding of the orbiters 
may have a significant impact on the core capabilities supporting the 
Space Shuttle and the ISS through the loss of key personnel with unique 
technical expertise by corporate layoffs as well as with the loss of 
unique assets such as the orbiter and research modules. What immediate 
impact will the Columbia tragedy have on NASA's workforce or field 
centers? How does NASA recover from this loss? How do these critical 
assets, both human and hardware, get replaced once you have identified 
the cause, fix the problem and get back to flying again? Is it possible 
to estimate what impact it will have on future workforce needs?

A6. 

        <bullet> NASA has established a program to help all NASA, NASA 
        contractors and NASA grantees and their families to cope with 
        any consequences of this disaster through its Employee 
        Assistance Programs. NASA has placed counselors, expert in 
        trauma and critical incident stress management in the field to 
        help workers directly. NASA will continue to monitor this issue 
        and do everything possible to minimize the possibility of PTSD.

        <bullet> We do not anticipate any reductions in the work force 
        as a result of the Columbia accident at this time.

        <bullet> The Space Shuttle workforce is deeply dedicated and 
        committed to flying the Space Shuttle safely. Currently, many 
        of our highly skilled employees, both civil service and 
        contractor, are supporting the efforts of the Gehman Board. 
        Others are performing their regular duties and will continue to 
        do so until the cause of the accident is determined and any 
        recommendations from the Board are implemented.

        <bullet> Although we do not know exactly how long it will be 
        until we return to flight, there have been several extended 
        periods of time between Space Shuttle launches in the twenty-
        two years of Space Shuttle operations. After the Challenger 
        accident, the Space Shuttle workforce was dedicated to 
        implementing improved processes and procedures that greatly 
        enhanced the way the Shuttle vehicle was prepared, tested and 
        validated for flight.

        <bullet> Also, after the Challenger accident and during the 
        1990s there were several technical issues causing a ``stand 
        down'' of the Shuttle program lasting six or more months. 
        During those extended periods of time, the workforce kept their 
        skills well honed by participating in simulations and extensive 
        training in addition to performing many activities to catch up 
        on a backlog of activities, such as facility maintenance.

Question submitted by Senator John B. Breaux

Q1. Given the expended period of time that is expected before another 
Shuttle flight is undertaken, what steps are you taking to ensure the 
Shuttle technical base and manpower doesn't suffer during this down 
time so that we aren't behind the eight ball when we start up again?

A1. The Space Shuttle workforce is deeply dedicated and committed to 
flying the Space Shuttle safely. Currently, many of our highly skilled 
employees, both civil service and contractor, are supporting the 
efforts of the Gehman Board. Others are performing their regular duties 
and will continue to do so until the cause of the accident is 
determined and any recommendations from the Board are implemented.
    Although we do not know exactly how long it will be until we return 
to flight, there have been several extended periods of time between 
Space Shuttle launches in the twenty-two years of Space Shuttle 
operations. After the Challenger accident, the Space Shuttle workforce 
was dedicated to implementing improved processes and procedures that 
greatly enhanced the way the Shuttle vehicle was prepared, tested and 
validated for flight.
    Also, after the Challenger accident and during the 1990s there were 
several technical issues causing a ``stand down'' of the Shuttle 
program lasting six or more months. During those extended periods of 
time, the workforce kept their skills well honed by participating in 
simulations and extensive training in addition to performing many 
activities to catch up on a backlog of activities, such as facility 
maintenance.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
